<html>
<title> - SOLVING THE CLIMATE CRISIS: BUILDING A VIBRANT AND JUST CLEAN ENERGY ENVIRONMENT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      SOLVING THE CLIMATE CRISIS:
                         BUILDING A VIBRANT AND
                     JUST CLEAN ENERGY ENVIRONMENT

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE 
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             JULY 28, 2020

                               __________

                           Serial No. 116-18
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  



                              www.govinfo
   Printed for the use of the Select Committee on the Climate Crisis
   
   
   
   
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-340               WASHINGTON : 2020 
    
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis
    Opening Statement............................................     1
    Prepared Statement...........................................     4
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis
    Opening Statement............................................     5

                               WITNESSES

Ana Baptista, PhD, Assistant Professor of Practice and Associate 
  Director of the Tishman Environment and Design Center, The New 
  School, on behalf of New Jersey Environmental Justice Alliance 
  and the Equitable and Just Climate Forum
    Oral Statement...............................................     7
    Prepared Statement...........................................     9
Jason Walsh, Executive Director, BlueGreen Alliance
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Michael Shellenberger, Founder and President, Environmental 
  Progress
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Beth Soholt, Executive Director, Clean Grid Alliance, on behalf 
  of American Council on Renewable Energy and Americans for a 
  Clean Energy Grid
    Oral Statement...............................................    30
    Prepared Statement...........................................    32

                       SUBMISSIONS FOR THE RECORD

Report, Renewable Power Generation Costs in 2019, submitted for 
  the record by Ms. Castor.......................................    54
Article, ``Article by Michael Shellenberger mixes accurate and 
  inaccurate claims in support of a misleading and overly 
  simplistic argumentation about climate change,'' submitted for 
  the record by Mr. Casten.......................................    54
Letter from the National Audubon Society, submitted for the 
  record by Ms. Castor Report, Solving the Climate Crisis: The 
  Congressional Action Plan for a Clean Energy Economy and a 
  Healthy, Resilient, and Just America, submitted for the record 
  by Ms. Castor..................................................    55

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Ana Baptista..    57
Questions for the Record from Hon. Kathy Castor to Jason Walsh...    61
Questions for the Record from Hon. Garret Graves to Michael 
  Shellenberger..................................................    66
Questions for the Record from Hon. Kathy Castor to Beth Soholt...    73
Questions for the Record from Hon. Garret Graves to Beth Soholt..    78


                      SOLVING THE CLIMATE CRISIS:

                         BUILDING A VIBRANT AND

                       JUST CLEAN ENERGY ECONOMY

                              ----------                              


                         TUESDAY, JULY 28, 2020

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:02 p.m., via 
Webex, Hon. Kathy Castor [chairwoman of the committee] 
presiding.
    Present: Representatives Castor, Lujan, Bonamici, Brownley, 
Huffman, McEachin, Levin, Casten, Graves, Carter, and Miller.
    Ms. Castor. The committee will come to order. Good 
afternoon, everyone.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Welcome to our hearing, entitled ``Solving the Climate 
Crisis: Building a Vibrant and Just Clean Energy Economy.''
    As a reminder, members participating in this remote hearing 
should be visible on camera throughout the hearing. As with in-
person meetings, members control their microphones. Members can 
be muted by staff only to avoid inadvertent background noise.
    In addition, statements, documents, and motions must be 
submitted to the electronic repository at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e497878787ca9681948b978d908b969da489858d88ca8c8b919781ca">[email&#160;protected]</a>
gov.
    Finally, members or witnesses experiencing technical 
problems should inform the committee staff immediately.
    So thanks again for participating during this somber time, 
as our colleague and friend, Representative John Lewis, is 
lying in state here in the U.S. Capitol after a lifetime of 
standing up for justice for all, even if that meant sitting 
down where some would deny him a seat.
    His leadership in the civil rights movement was legendary, 
but he worked on every issue when there was a need to encourage 
Americans and Congress to do more. That included climate change 
and environmental justice.
    Last year, he said, ``Each and every one of us must cherish 
this planet, for it is likely the only home we will ever know. 
Combating climate change is not a Democratic or a Republican 
issue. It is a question of preserving this little piece of real 
estate that we call Earth for generations to come, for 
generations yet unborn. Together, we can solve this problem, 
but time is of the essence. Congress cannot stand on the 
sidelines. We have a moral responsibility to lead, and the time 
to act is now.''
    So, before I ask the committee to observe a moment of 
silence to remember Representative Lewis, I wonder if Ranking 
Member Graves has made it over from his meeting so that he can 
provide his thoughts or if any of the Republican members would 
like to do so instead.
    Mr. Graves. Hey, Chair Castor, this is Garret. Thank you 
very much for the opportunity for the certainly appropriate 
honoring of John Lewis.
    It has been an incredible experience to be able to serve 
with someone who has played such an amazing role in the Civil 
Rights Act. You read about these iconic figures, but to be able 
to serve alongside of him has just been an awing experience.
    And it was amazing being in the Rotunda yesterday as his 
body lied in state. And just seeing all of the incredible 
history and little anecdotes and stories that folks have shared 
over the past few days in remembering his courageous leadership 
and, again, just the progress that he has made in regard to 
advancing the civil rights of particularly the African-American 
community, it has been amazing.
    So I appreciate you raising the issue and certainly giving 
a tribute of respect to him.
    Ms. Castor. Thank you, Ranking Member Graves.
    So, at this time, I would like to ask everyone 
participating here to take a moment to remember the life and 
legacy of Representative John Lewis.
    [Moment of silence.]
    Ms. Castor. Thank you all.
    I now recognize myself for 5 minutes to give an opening 
statement.
    Members, America is reeling from a number of interrelated 
and severe crises that I believe can be solved through 
transformational action and leadership.
    First, the coronavirus pandemic, which has tragically taken 
the lives of nearly 150,000 Americans, is crying out for a 
coordinated plan of action to control the virus and save lives. 
It is a sad day for me and Floridians because we set another 
record today for the number of deaths reported, 186 Floridians, 
the largest one-day increase so far.
    The pandemic has also sparked an economic crisis. Millions 
of Americans are out of a job as businesses shut down in 
response to the health emergency.
    And, in the middle of all this, we witnessed the brutal 
murder of George Floyd at the hands of police officers in 
Minneapolis. It was a tragic reminder that systemic racism 
still plagues our communities, and the urgent need for racial 
justice.
    Plus, the ongoing climate crisis continues to fuel extreme 
events like floods, intense storms, and wildfires, and it is 
increasing the costs on families and businesses alike.
    So Congress must rise to the occasion. We must tackle the 
climate crisis while heeding the calls for racial justice, 
protecting the health of our families, and helping our 
neighbors get back to work. And we can rebuild our economy in a 
resilient way that reduces greenhouse gas pollution and 
protects the air that we breathe. We have a moral obligation to 
solve the climate crisis and build back better for decades to 
come.
    Solving the climate crisis is hard work, but it is within 
our reach. Investing in clean energy gives us an opportunity to 
create millions of good-paying jobs, family-sustaining jobs 
that will get Americans back to work and strengthen our middle 
class. It can also help make communities healthier as we deploy 
innovative technologies to reduce pollution. And it can repair 
injustices of the past as we commit to invest in Black and 
Brown communities disproportionately harmed by the climate 
crisis.
    Today, we will discuss how to build a vibrant clean energy 
economy, one that centers environmental justice at its core. We 
will hear about ways to grow our manufacturing base and create 
well-paying jobs by modernizing our grid. And we will discuss 
initiatives to revive our economy while reducing pollution and 
creating more resilient communities.
    This is our first hearing since Select Committee Democrats 
released our majority staff report, ``Solving the Climate 
Crisis,''a comprehensive framework to cut carbon pollution in 
line with what science dictates and create the clean energy 
economy that we desperately need.
    I would like to thank the thousands of stakeholders who 
informed our action plan--the scientists, the farmers, young 
people, EJ leaders, workers, indigenous people, and our 
outstanding professional staff.
    According to an independent analysis by Energy Innovation, 
our plan would save over 60,000 lives every year by 2050 while 
also providing at least $8 trillion in climate and health 
benefits alone. It would also create economic opportunity by 
investing in America's workers and communities, including 
establishing a national economic transition office to help with 
the transition to a net-zero emission economy.
    I know our Republican colleagues have been reviewing the 
majority staff report. I look forward to hearing their 
recommendations to help solve the climate crisis. Democrats 
have put forward our ideas, and I hope our Republican 
colleagues will do the same so the committee can discuss 
potential bipartisan recommendations in the coming months, 
especially since previous staff attempts to start the 
discussions have not progressed.
    Workers are at the center of our action plan. Between March 
and May, more than 620,000 clean energy workers, nearly a fifth 
of the industry's workforce, filed for unemployment. While the 
U.S. economy added jobs in June, only about 106,000 of those 
jobs were in clean energy, leaving more than a half a million 
clean energy workers unemployed.
    As you will hear from our witnesses, climate solutions are 
economic solutions, and they have helped develop platforms to 
put workers and families first, addressing injustices in 
vulnerable communities with an eye toward building a recovery 
on a stronger and more equitable foundation.
    As we rebound from our current crises, let's power 
America's recovery through investments in clean energy, energy 
efficiency and conservation, and put money back into families' 
pockets at a time when they really could use it. We can expand 
our manufacturing base and build the technologies the world 
will need to solve the climate crisis. We can invest in a 21st-
century infrastructure that can help cut carbon pollution and 
withstand climate impacts. And we can create good-paying jobs 
that move us towards net-zero emissions by 2050. I know we can 
do this.
    At this time, I would like to recognize Ranking Member 
Graves for an opening statement.
    You are recognized for 5 minutes.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

                Hearing on ``Solving the Climate Crisis:
           Building a Vibrant and Just Clean Energy Economy''

                 Select Committee on the Climate Crisis

                             July 28, 2020

                        As Prepared for Delivery

    America is reeling from a number of interrelated and severe crises 
that I believe can be solved through transformational action and 
leadership. First, the coronavirus pandemic, which has tragically taken 
the lives of nearly 150,000 Americans, is crying out for a coordinated 
plan of action to control the virus and save lives. (Florida posted 186 
deaths today--the largest one-day increase so far.) The pandemic also 
sparked an economic crisis, leaving millions of Americans without jobs 
as businesses shut down in response to the health emergency. In the 
middle of all this, we also witnessed the brutal murder of George Floyd 
at the hands of police officers in Minneapolis, which was a tragic 
reminder of the systemic racism that still plagues our communities--and 
the urgent need for racial justice in the United States. Plus, the 
ongoing climate crisis continues to fuel extreme events like floods, 
intense storms and wildfires, and increase costs on families and 
businesses.
    Congress must rise to the occasion. We must heed the calls for 
racial justice, protect the health of our families, help our neighbors 
get back to work and rebuild our economy in a resilient way that 
reduces greenhouse gas pollution and protects the air we breathe. We 
have a moral obligation to solve the climate crisis and build back 
better for decades to come.
    Solving the climate crisis is hard work, but it is within our 
reach. And it gives us a chance to build an America that is stronger 
and more resilient to these serious challenges. Investing in clean 
energy gives us an opportunity to create millions of good-paying, 
family sustaining jobs--that will get Americans back to work and 
strengthen our middle class. It can also make our communities 
healthier, as we deploy innovative technologies that will reduce 
pollution. And it can help us repair the injustices of the past--as we 
commit to invest in the Black and brown communities disproportionately 
harmed by the climate crisis.
    Today we'll discuss how to build a vibrant clean energy economy, 
one that centers environmental justice at its core. We'll hear about 
ways to grow our manufacturing base and create well-paying American 
jobs by modernizing our grid. And we'll discuss initiatives to revive 
our economy, while reducing pollution and creating more resilient 
communities.
    This is our first hearing since Select Committee Democrats released 
the majority staff report `Solving the Climate Crisis', a comprehensive 
framework to cut carbon pollution in line with climate science and 
create the clean energy economy that we desperately need. I'd like to 
thank the thousands of stakeholders who informed our action plan--
scientists, farmers, entrepreneurs, young people, EJ leaders, workers, 
indigenous people and our outstanding professional staff. According to 
independent analysis, our plan would save over 60,000 lives every year 
by 2050, while also providing at least $8 trillion in climate and 
health benefits alone. It would also create economic opportunities by 
investing in America's workers and communities, including establishing 
a National Economic Transition Office to help with the transition to a 
net-zero emission economy.
    I know our Republican colleagues have been reviewing the majority 
staff recommendations. I look forward to hearing their recommendations 
to help solve the climate crisis. Since the Democrats have put forward 
ideas, I hope that our Republican colleagues will do the same so we can 
discuss potential bipartisan recommendations since previous staff 
attempts to start discussions have not progressed.
    Workers are at the center of our climate action plan. Between March 
and May, more than 620,000 clean energy workers, nearly a fifth of the 
industry's workforce, filed for unemployment benefits. As many states 
began to reopen, the U.S. economy added jobs in June, but only 106,000 
of those jobs were in clean energy, leaving more than half a million 
clean energy workers still unemployed.
    As you'll hear from our witnesses, climate solutions are economic 
solutions. Which is why they've helped develop platforms to put workers 
and families first, addressing injustices in vulnerable communities, 
with an eye to building a recovery on a stronger and more equitable 
foundation.
    As you'll hear from our witnesses, climate solutions are economic 
solutions. Which is why they've helped develop platforms to put workers 
and families first, addressing injustices in vulnerable communities, 
with an eye to building a recovery on a stronger and more equitable 
foundation.
    As we rebound from our current economic crisis, let's power 
America's recovery through investments in clean energy, energy 
efficiency, and conservation--and put money back into families' pockets 
when they need it. We can expand our manufacturing base and build the 
technologies the world will need to solve the climate crisis. We can 
invest in a 21st century infrastructure that can help cut carbon 
pollution and withstand climate impacts. And we can create jobs, jobs, 
jobs--good-paying jobs that move us toward net-zero emissions by 2050.
    With that, I look forward to hearing from our witnesses.

    Mr. Graves. Thank you, Madam Chair. Again, I want to thank 
you and the committee for putting this hearing together.
    As we have discussed on many occasions, I share a lot of 
the same objectives--and I know many members of the committee 
do--the same objectives that you communicated just a few 
minutes ago, objectives like improving the resilience of our 
communities, particularly those coastal communities that you 
represent, that we represent. And I also know that Congressman 
Buddy Carter has been very vocal about us being more deliberate 
in building upon some of the successes we had in 2018, really 
extraordinary successes in 2018, in improving the resiliency of 
our coastal communities.
    We share the objectives of building upon some of the 
extraordinary efforts we have had over the past several years 
in reducing emissions in the United States, to the point where 
we have reduced them more than any other country in the world, 
and actually bringing even more science to the table to ensure 
that we are building upon the successes and the very tactics 
that allowed us to be the global leader in emissions reduction, 
rather than shutting that out, and ensuring that economic 
science is part of the equation.
    You mentioned that the majority staff report would save $8 
trillion. And, certainly, we do need to consider cost savings 
as part of the overall calculation to inform the decisions that 
we make, the recommendations that we make in regard to energy 
policy moving forward. But with an estimate that the 
implementation report would cost $20 trillion, that doesn't 
seem to provide a positive cost-to-benefit ratio.
    And, of course, as you mentioned, Congressman John Lewis--
and you mentioned our efforts to try to continue to make 
progress and build upon the success of Congressman Lewis in 
addressing the inequality issues. We cannot allow there to be a 
disproportionate impact on those that are impoverished or those 
communities of color, a significant percentage of which I 
represent in our south Louisiana district.
    The committee report largely reflects a lot of the 
recommendations that have been implemented in California, and 
California is one of the worst states in the nation in regard 
to actually reducing emissions. And, also, there is a lawsuit 
by a community of color against the State of California because 
of the disproportionate cost imposed on them as a result of 
those recommendations. So here you have disproportionate costs 
on communities of color and actually one of the worst 
performing emissions reduction strategies in the nation.
    So I want to say it again: We must, we must, introduce more 
science into this equation--that includes environmental 
science, of course chemical science, physical science, and 
economic science--to make sure that we are employing the best 
strategies.
    Last thing, Madam Chair, I just want to make note in regard 
to your comment about the staff unable to work together to come 
up with a report, and all I can derive from that is that 
perhaps you were talking about the majority staff unable to 
work together, because our staff was not engaged on any type of 
bipartisan report.
    But, certainly, as I mentioned at the opening, we share a 
lot of the same objectives: resiliency of our coastal 
communities and other communities, reducing emissions, 
conservation of energy, and ensuring that the United States 
continues to be a leader but that we don't lead in job losses 
and we don't lead in providing jobs to China and other 
countries, where employing a lot of the strategies included in 
the report would actually achieve those goals, sending jobs to 
China and giving leverage to China and other nations as opposed 
to the United States.
    So, looking forward to working together, and I yield back.
    Ms. Castor. All right.
    Without objection, members who wish to enter statements 
into the record may have 5 business days to do so.
    Ms. Castor. Now I want to welcome our witnesses.
    First, Dr. Ana Baptista is an assistant professor and the 
Associate Director of the Tishman Environment and Design Center 
at The New School. She is a member of the board of the New 
Jersey Environmental Justice Alliance and a member of the 
Equitable and Just Climate Forum.
    Mr. Jason Walsh is the Executive Director of the BlueGreen 
Alliance. He previously served in the Obama Administration as 
the Director of the Office of Strategic Programs at the U.S. 
Department of Energy's Office of Energy Efficiency and 
Renewable Energy and as a Senior Policy Advisor in the White 
House for the Domestic Policy Council, where he led the Obama 
Administration's efforts to align and scale up Federal 
investments in support of workers and communities impacted by 
the shift away from coal in the power sector.
    Mr. Michael Shellenberger is the Founder and President of 
Environmental Progress. He was the co-founder of The 
Breakthrough Institute and served as its president until 2015.
    Ms. Beth Soholt is the Executive Director of the Clean Grid 
Alliance. Ms. Soholt has more than 15 years of experience 
working with the electric industry, with a focus on helping 
overcome the barriers to bringing wind power to market. She 
holds a seat on the Midwest Independent System Operator 
Advisory Committee, representing the environmental sector.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Dr. Baptista, you are now recognized to give a 
5-minute presentation of your testimony.

        STATEMENTS OF ANA BAPTISTA, ASSISTANT PROFESSOR 
        AND ASSOCIATE DIRECTOR, TISHMAN ENVIRONMENT AND 
        DESIGN CENTER, THE NEW SCHOOL; JASON WALSH, EX- 
 ECUTIVE DIRECTOR, BLUEGREEN ALLIANCE; MICHAEL SHELLENBERGER, 
FOUNDER AND PRESIDENT, ENVIRONMENTAL PROGRESS; AND BETH SOHOLT, 
            EXECUTIVE DIRECTOR, CLEAN GRID ALLIANCE

                   STATEMENT OF ANA BAPTISTA

    Dr. Baptista. Thank you. Thank you, Chair Castor, Ranking 
Member Graves, and distinguished members of the committee, for 
the opportunity to testify before the House Select Committee on 
the Climate Crisis.
    The ongoing and intersecting public health, economic, and 
racial justice crises have put into sharp focus the systemic 
changes needed to address longstanding inequalities in our 
country. At the same time, we are in a global climate crisis.
    Each of these crises disproportionately impacts communities 
of color and low-wealth communities around the country. As 
policymakers address these multiple intersecting crises, they 
must also enact solutions that address them holistically and 
are centered in equity and justice.
    Events in 2020 have shone a bright light on longstanding 
racial disparities that have contributed to disproportionate 
health and environmental impacts on communities of color and 
low-wealth communities.
    A recent Harvard study linked long-term exposure to air 
pollution, like particulate matter, to higher death rates from 
coronavirus. These findings were supported by the Rhodium 
Group, which found that Black, Latino, and indigenous 
communities in high-environmental-risk areas experience death 
rates from COVID-19 
more than four times higher than those in counties with fewer 
environmental risks and that these same communities of color 
experience higher rates of unemployment and slower economic 
rebound.
    Systemic racism has contributed to these disparities, and 
transformative policies that center justice and equity are 
essential to moving forward. Climate policy can and should be 
designed in a manner that reduces greenhouse gas emissions and 
also other harmful air pollutants while creating long-term 
economic sustainability for all communities. But we need an 
intentional focus on equity and justice; otherwise, we will 
replicate the same disparities in the transition to a 
sustainable economy.
    The House Select Committee on the Climate Crisis majority's 
``Climate Crisis Action Plan'' details the processes and 
policies that, if enacted, will address these crises and build 
a more equitable, just future.
    Similarly, the ``Equitable and Just National Climate 
Platform'' also identifies the need to advance economic, 
racial, environmental, and climate justice as part of a 
national climate agenda, and, as a co-author of the platform, I 
am pleased to see many of these ideas reflected in the Select 
Committee's report.
    We need actions that will end environmental racism and the 
historic concentration of pollution in environmental justice 
communities and that will rebuild the economy so that it works 
for all people.
    And, meeting the goals and priorities outlined in the plan, 
we encourage Congress to support some of the following specific 
examples of investments that could have multiple benefits.
    For example: investing in equitable and just, collaborative 
projects, such as the EPA's Environmental Justice Small Grants 
Program.
    Expanding environmental investments in vulnerable 
communities, such as climate resilient water infrastructure 
needed to deliver safe drinking water or prevent climate 
related flooding.
    Expanding low-income solar access, community solar 
initiatives, cooperative nonprofit energy organizations' energy 
efficiency programs, all which spur job creation and economic 
opportunities in areas that have historically faced barriers.
    Making strategic investments in the transportation sector, 
such as zero-emission school buses, heavy- and medium-duty 
diesel trucks, can have short-term public health benefits in EJ 
communities while also supporting economic and climate goals.
    Increasing investments for worker training programs, like 
the NIEHS's Environmental Career Worker Training Program, which 
can provide job and safety training to millions of Americans.
    Vastly increasing funding for the Energy Efficiency and 
Conservation Block Grants, the Low-Income Home Energy 
Assistance Program, Community Development Block Grants, and the 
Weatherization Assistance Program. These investments are not 
only going to ensure greater climate resiliency but can address 
historic inequalities, energy insecurity, and climate change.
    We could mobilize new investments in safe and healthy 
communities, such as the creation of a national climate bank 
that Representative Dingell introduced, and carve out 60 
percent of the bank capital for economically disadvantaged 
areas and communities of color.
    These are just some examples of the kinds of investments we 
need in these difficult times. We need strategic investments 
that can deliver multiple benefits, particularly to those 
communities hardest hit by COVID, racial and economic 
inequality, and environmental injustice.
    We hope that these recommendations embodied in the 
committee's plan will put us on the path to ensuring a healthy 
and sustainable future for all Americans.
    Thank you.
    [The statement of Dr. Baptista follows:]

                 Select Committee on the Climate Crisis

                 Testimony of Ana Isabel Baptista, PhD

      Tishman Environment & Design Center at The New School & the 
               New Jersey Environmental Justice Alliance

             Member of the Equitable and Just Climate Forum

                             July 27, 2020

    Thank you for the opportunity to testify before the House Select 
Committee on the Climate Crisis. I am an Assistant Professor of 
Professional Practice at The New School University where I serve as the 
Associate Director of the Tishman Environment and Design Center. I also 
serve as a Trustee of the New Jersey Environmental Justice Alliance and 
as such, serve as a member of the Equitable and Just Climate Forum.
Introduction
    The ongoing and intersecting public health, economic, and racial 
justice crises our country is in has put into sharp focus the systemic 
change needed to address long standing inequities. At the same time, 
we're in a climate crisis. Each of these crises disproportionately 
impacts Indigenous, Black, Latinx, Asian Pacific Island and other 
communities of color. As policymakers address each crisis, they must 
also look at solutions that address them holistically and are centered 
in equity and justice.
    The House Select Committee on the Climate Crisis' majority Climate 
Crisis Action Plan\1\ details both processes and policies that, if 
enacted, will address these crises and build a more equitable and just 
future. The Equitable and Just National Climate Platform\2\ also 
identifies the need to advance economic, racial, environmental and 
climate justice as part of a national climate agenda, and as a co-
author of the Platform, I am pleased to see our ideas acknowledged in 
the Select Committee report.
---------------------------------------------------------------------------
    \1\ https://climatecrisis.house.gov/report
    \2\ https://ajustclimate.org/index.html
---------------------------------------------------------------------------
    Events in 2020 have shone a bright light on longstanding racial 
disparities that have contributed to disproportionate health impacts on 
communities of color and low income communities. A Harvard study\3\ 
released in April linked long-term exposure to air pollution to higher 
death rates from coronavirus--demonstrating the devastating health 
impacts caused by decades of environmental racism. These findings were 
supported by the Rhodium group,\4\ which found that Black, Latino, and 
Indigenous communities in high environmental risk areas experience 
death rates from COVID-19 more than four times higher than those in 
counties with fewer environmental risks (See Appendix). The Rhodium 
Group also found that Indigenous, Black, and Latino communities 
experienced higher rates of unemployment and a slower economic rebound 
than whites.
---------------------------------------------------------------------------
    \3\ https://www.hsph.harvard.edu/news/hsph-in-the-news/air-
pollution-linked-with-higher-covid-19-death-rates/
    \4\ https://rhg.com/research/a-just-green-recovery/
---------------------------------------------------------------------------
    Systemic racism has contributed to these disparities, and 
transformative, intersectional policy that centers justice and equity 
in the solutions are essential going forward. Climate policy can and 
should be designed in a manner that reduces greenhouse gas emissions 
and other pollution, while creating long-term economic sustainability 
for all communities. Without an intentional focus on equity and 
justice, we will replicate the same disparities in the transition to an 
environmentally sustainable economy.
Equitable and Just National Climate Platform
    One year ago, environmental justice organizations from across the 
country along with six national environmental groups co-created and co-
signed the Equitable and Just National Climate Platform (Platform). The 
Platform identifies the need to advance innovative, equitable policy 
solutions to address climate change and environmental justice. Central 
to the Platform is the recognition that in order to address the climate 
crisis, we must advance policy that addresses climate while advancing 
environmental justice, economic, and racial justice.
    The Platform details a bold vision of a just, inclusive agenda that 
advances ambitious environmental justice and climate policy while 
addressing racial and economic justice. As it states, ``Our vision is 
that all people and all communities have the right to breathe clean 
air, live free of dangerous levels of toxic pollution, access healthy 
food, and enjoy the benefits of a prosperous and vibrant clean 
economy.''
    In order to achieve these goals and vision, the Platform recognizes 
the need to mobilize all assets--communities, government, science, 
research, business and industry--to develop long-term comprehensive 
solutions. These solutions must ``meaningfully involve and value the 
voices and positions of environmental justice, frontline and fenceline 
communities.'' These strategies must also ``acknowledge and repair the 
legacy of environmental harms on communities inflicted by fossil fuel 
and other industrial pollution.''
    Organizations who co-signed the Platform agreed that in order to 
address climate change, we must reduce legacy pollution in a way that 
creates jobs and contributes to the health and well-being of all 
communities.
    Policies in the Platform will contribute both to short-term 
economic recovery in response to the pandemic and recession, as well as 
long-term economic growth, building towards an inclusive, pollution-
free economy, all while reducing greenhouse gas and other emissions. We 
are pleased to see the core premise of the Platform in the Climate 
Crisis Action Plan.
HEROES Act and Representative McEachin and Chairman Grijalva's 
        environmental justice stimulus letter
    A number of existing programs, if robustly funded, would contribute 
to the just and equitable future envisioned in the Platform. The HEROES 
Act, as passed by the House, included funding for programs that will 
have both short and long-term economic impacts while reducing emissions 
and creating and sustaining jobs. These include nearly $2 billion to 
provide potable water to communities affected by the pandemic, 
specifically making funds available to assist Tribal and low-income 
families with water and wastewater services, in addition to a 
moratorium on dangerous water service shut-offs; and $1.5 billion for 
the Low Income Home Energy Assistance Program (LIHEAP) to reduce energy 
burdens for low income families. The bill also included $50 million for 
environmental justice grants to study and address the disproportionate 
impacts of coronavirus on environmental justice communities.
    Representative McEachin and Chairman Grijalva sent a letter to 
House and Senate leadership in March that also identified key short-
term spending that would reduce emissions and improve public health 
while also stimulating economic growth. Rhodium's jobs analysis of the 
programs outlined in the letter found that if funded, these investments 
would create up to 300,000 new jobs per year for five years. For 
example, Rhodium estimates that a $30 billion investment in the 
Community Development Block Grant program, which provides grants to 
states for community development and affordable housing, would create 
92,000 jobs per year for five years.
    Both the letter and the Climate Crisis Action Plan discussed the 
importance of expanding funding for the Weatherization Assistance 
Program (WAP). By investing in energy efficiency and home updates, 
individuals can lower their energy burdens and reduce electricity 
usage. As the Climate Crisis Action Plan notes, ``Investments in 
weatherization have economic multiplier effects because workers develop 
skills through construction-related jobs that are readily transferable 
to other economic sectors'' (p. 166). They both discuss the Low Income 
Home Energy Assistance Program (LIHEAP), and the essential utility bill 
assistance it provides. The Climate Crisis Action Plan also envisions 
expanding LIHEAP and using these funds to increase solar access in low 
income communities (p. 77, 167). Both also recommend increasing funding 
to ``clean up and reuse contaminated properties (brownfields)'' (p. 
398).
    As Rhodium concluded, ``As Congress turns their attention from 
near-term relief to investing in a sustainable economic recovery, 
investments in the kinds of programs outlined in the Grijalva-McEachin 
letter can both make a meaningful contribution to national job creation 
and serve as a down payment on creating a more environmentally just 
future.''
Prioritize Climate Action Spending in EJ communities
    As the pandemic and economic challenges continue, the health and 
economic wellbeing of Indigenous, Black, and Latino communities have 
been disproportionately impacted. Rhodium found that ``Between February 
and May, the number of Black and Latino people employed in the US fell 
by 16% and 18%, respectively, compared to 11% for white people.'' And, 
as employment showed beginning signs of recovery in May, the same note 
found that Black and Latinx employment did not recover as quickly as 
white employment.
    With a backdrop of the current economic crisis, these statistics 
reveal the devastating effects of environmental racism during a global 
pandemic. It is clear that environmental regulation does not equate to 
healthy environments for all. As policymakers take action to reduce 
greenhouse gas emissions, it is essential for these policies to also 
reduce legacy environmental and economic impacts and ensure that 
policies do not contribute to further harm placed on these communities. 
Criteria and mechanisms to prioritize investment in disproportionately 
impacted communities to address these harms should be included in 
climate policy. As the Equitable and Just Climate Platform states, 
``Strategies to address climate change must not disproportionately 
benefit some communities while imposing costs on others. In fact, the 
national climate policy agenda should be used to reduce the 
disproportionate amount of pollution that is often found in EJ 
communities and that is associated with cumulative impacts, public 
health risks, and other persistent challenges.'' We strongly recommend 
pursuing local economic development and building economic diversity 
that will also reduce the vulnerability of overburdened communities to 
pollution. Climate action must ``create and support strategies that 
shift away from high pollution products and production processes toward 
those that are low-emission and sustainable. This also includes 
investments in innovative and worker-supported economic organizations 
such as cooperatives and other community wealth-building strategies.''
    Research investments are also necessary to address equity and 
justice in climate policy. As detailed in the Platform, research 
focused on environmental justice and climate equity is a critical 
component of building a climate-sustainable future that addresses 
inequities instead of reinforcing inequities.
How to Invest and Prioritize spending in EJ communities
    Underpinning all of these policy proposals, is the necessity of 
crafting policy inclusively and ensuring benefits are distributed 
equitably. We support the goal of creating an inclusive, just, and 
pollution-free energy economy. In the Equitable and Just Climate 
Platform, we call for ``investing in the development of innovative 
decentralized models of energy provision; community governance and 
ownership; incorporation of social and health benefits into energy 
systems planning; incentivizing the inclusion of equity into future 
energy investment through public programs; and supporting public and 
private research and development to include equity considerations in 
new technology development.''
    One key recommendation made in the Climate Crisis Action Plan is 
that ``Congress should direct EPA to create a plan to (1) develop a 
methodology to assess the cumulative and disproportionate impacts of 
pollution on environmental justice communities, and (2) integrate that 
methodology into agency decision-making'' (p. 304). This critical first 
step is necessary to ensure that policy to address climate reduces 
pollution in overburdened communities.
    Both the Platform and the Climate Crisis Action Plan recognize the 
importance of environmental justice community participation in 
policymaking. The Climate Crisis Action Plan's recommendation to 
increase funding for EPA existing programs that provide technical 
assistance and build capacity of stakeholders engaged in policy is 
equally important. Throughout the Plan, the Committee majority 
recommends developing policy in partnership with communities. This 
model of policymaking will ensure that community expertise is taken 
into account, and that policies are responsive to community priorities.
    Creating an equitable, just and climate-sustainable economy will 
drive job growth and sustained investments by government as well as 
private entities. The Platform details the need for policies to be 
shaped by communities and must lead to benefits at the local and 
community level. It also recognized the need to realign government 
spending in order to accomplish these goals. It envisions working at 
multiple levels of government using a variety of policy tools. 
Specifically, the Platform favors ``policy tools that help achieve both 
local and national emissions reductions of carbon and other forms of 
pollution.'' This shift will ``require substantial new forms of capital 
investment by both the public and private sectors to build a new 
national infrastructure as well as democratic community participation 
to help set infrastructure investment priorities.'' Without proper 
investment and engagement, we will repeat mistakes of the past.
    The Climate Crisis Action Plan recommends significant federal 
investments to update infrastructure and housing to reduce emissions 
and build climate resilience. It follows with a recommendation to 
``direct a significant percentage of this spending to environmental 
justice communities and communities most affected by the economic 
transition away from fossil fuel consumption'' (p. 304). This 
prioritization is necessary and we strongly support this 
recommendation.
    The Climate Crisis Action Plan includes recommendations of a number 
of policies that can meet dual goals of reducing pollution and driving 
local economies. One of its building blocks is expanding low-income 
solar access and community solar initiatives. The recommendations to 
achieve this building block include funding and expanding programs to 
bolster solar access. It also encourages creation of a solar workforce 
program, with a focus on ``individuals who have historically faced 
barriers to employment'' (p. 76-77). The Platform and the Climate 
Crisis Action Plan both identify transportation and goods movements as 
a key sector where strategic investments can reduce air pollution while 
creating jobs. The Climate Crisis Action Plan includes recommendations 
like investing in zero emissions school buses (p. 118) and transit 
buses (p. 119), increasing electrification infrastructure access (p. 
93, 126), and supporting research and development to drive new 
transportation technology (p. 126-127), among others.
    In addition to investments informed by communities, as employment 
opportunities arise from these investments and new policies, the 
Platform recommends that workforce and job training programs be 
prioritized ``especially in communities with disproportionately high 
underemployed and unemployed populations and in communities that have 
been historically reliant on fossil field extraction and energy 
production.'' The Climate Crisis Action Plan makes a similar 
recommendation. As it says, ``This report makes several recommendations 
for new federal investment and incentives for clean and resilient 
infrastructure. Congress should direct a significant percentage of this 
spending to communities most affected by the economic transition away 
from fossil fuel consumption and environmental justice communities. 
These communities should receive federal spending and investment first, 
most often, and in larger amounts'' (p. 291).
    The intersecting crises our nation currently faces are dire--and 
the policy solutions to address these crises are interconnected. With 
meaningful action to address racial, economic, environmental and 
climate justice, Congress can use policy to reduce disparities and 
begin to build the just and equitable future envisioned in the Platform 
and the Climate Crisis Action Plan.
NO COMMUNITY WILL BE LEFT BEHIND.
    All communities have a right to resources to withstand and cope 
with unanticipated natural and man-made threats and to live free from 
exposure to dangerous toxic pollution. Yet persistent racial and 
economic inequalities--and the forces that cause them to have created 
disproportionately high public health and environmental risks. Federal 
climate policy must address these injustices head-on by developing and 
implementing solutions at the scale needed to significantly improve 
their public health and quality of life. We need actions that will end 
environmental racism and the historic concentration of pollution in 
environmental justice communities, and that will rebuild the economy so 
that it works for all people and all communities. In meeting the goals 
and priorities outlined by the Plan, we encourage Congress to support 
the following, in line with the Select Committee's Climate Crisis 
Action Plan\5\:
---------------------------------------------------------------------------
    \5\ https://climatecrisis.house.gov/report
---------------------------------------------------------------------------
    Invest in equitable and just research and innovation. The EPA's 
Office of Research and Development provides the scientific and 
technical foundation to address our nation's environmental and public 
health problems. This environmental research and development 
infrastructure must invest and support data collection and tools 
development that provides robust, scientific analysis on environmental, 
health and socioeconomic conditions that will assess community burden 
and vulnerability to pollution.
    Invest in equitable and just community collaborative projects. The 
EPA can enhance its commitment to addressing community priorities and 
needs through investment in collaborative projects that will yield 
innovation in program development, and data/information collection. 
EPA's Environmental Justice Small Grants (EJSG) Program provides small 
grants to communities to address environmental risks associated with 
high concentrations of pollution, prepare for climate change effects, 
and improve public health. Significantly expanding this EJSG and 
similar grants programs will support pioneering community-based 
projects that can support and catalyze innovation in the federal 
family.
    Expand environmental investments in vulnerable communities. 
Significant new investment in climate resilient water infrastructure is 
needed to address unsafe drinking water and climate-related flooding, 
sea level rise, and drought. To ensure that vulnerable communities 
receive these investments and technologies, it is imperative to engage 
workers and firms from vulnerable communities in the design, 
construction, operations and maintenance of these water infrastructure 
systems.
    Investments in environmental worker training through NIEHS. The 
Institute of Environmental Health Science (NIEHS) Environmental Career 
Worker Training (ECWTP) provides job and safety training to secure jobs 
in environmental restoration, construction, handling hazardous 
materials and waste, and emergency response. A 2015 report assessing 
the program found that ``an annual federal investment of $3.5 million 
in the ECWTP generates a $100 million return'' due to increased wage-
earning potential, tax revenue, and reduced workplace injury and hiring 
costs. Increasing this investment to disadvantaged and underrepresented 
members of communities of color and low-income communities will 
contribute to reduction in economic and employment inequalities.
    Vastly increase funding for the Energy Efficiency and Conservation 
Block Grant (EECBG) Program, LIHEAP, and WAP. The EECBG program should 
prioritize spending in communities left behind by past and ongoing 
energy efficiency programs. Expanding LIHEAP and WAP not only prepares 
us for the new reality of climate change, it can address historic 
investment inequalities.
    Mobilize new investment in safe and healthy communities through the 
creation of a National Climate Bank. Such investments include clean and 
affordable energy and transportation options and climate-ready 
infrastructure projects. Consistent with the National Climate Bank Act 
introduced by Debbie Dingell (D-MI) in December 2019, the National 
Climate Bank should prioritize investments in economically 
disadvantaged areas, tribal communities and communities of color. 
Specifically, at least 60 percent of the Bank capital should be 
invested in tribal communities, low-income communities and communities 
of color.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Castor. Thank you very much.
    Mr. Walsh, you are recognized for 5 minutes. Welcome.

                    STATEMENT OF JASON WALSH

    Mr. Walsh. Thank you, Chair Castor, Ranking Member Graves, 
distinguished members of the committee.
    My name is Jason Walsh. I am the Executive Director of the 
BlueGreen Alliance, a national partnership of labor unions and 
environmental organizations. Thank you for the opportunity to 
testify today.
    We are convening in the midst of a global pandemic. As 
Chair Castor noted, we are approaching 150,000 deaths from 
COVID-19 in the U.S., and the 10-week total for unemployment 
claims has surpassed 40 million. The pandemic has taken an 
enormous toll, and it is nowhere close to done.
    At the same time, the pandemic has cast a harsh spotlight 
on the parts of our society that already weren't working. We 
went into this pandemic with two ongoing and closely related 
crises: economic and racial inequality and climate change.
    Our nation has been struggling with deep inequality for 
decades. As unionization rates have fallen, workers have seen 
their pay shrink and bargaining power eroded. The deck has been 
stacked even further against people of color, as we are seeing 
in the context of COVID-19. Black Americans make up 12.5 
percent of the U.S. population but represent 22.4 percent of 
COVID deaths.
    At the same time, we are facing a climate crisis. Climate 
change is a dire and urgent threat, and the longer we delay, 
the stronger the action required.
    We see these issues as fundamentally linked. That is why, 
this past summer, we released with our partners ``Solidarity 
for Climate Action,'' a concrete platform to address these 
crises simultaneously.
    We have seen how dangerous the status quo is. We need to 
move urgently towards economic recovery, but we know that 
returning to normal is not good enough. We have to do better.
    As we think about climate change and economic recovery, we 
believe we can accomplish multiple things at the same time. We 
can tackle the health and economic crises we are in, invest to 
protect and support good jobs that are badly needed, deliver 
public health and climate benefits, and create a stronger, 
cleaner, and more equitable economy for all. We can achieve 
this by investing at scale in solutions that deliver climate 
benefits while creating and retaining quality jobs and spurring 
economic recovery.
    This should start with rebuilding America's infrastructure. 
Investing now to repair our failing roads and bridges and water 
systems, and to modernize our buildings, electric grid, 
transportation systems, will boost our economy and create 
millions of jobs, while also reducing pollution and combating 
climate change.
    At the same time, we must reinvest in strengthening and 
transforming U.S. manufacturing to build more of the products, 
materials, and technologies of the future here. In line with 
achieving net-zero emissions economy-wide by 2050, we have the 
opportunity to modernize and transform our industrial base to 
make it the cleanest and most advanced in the world.
    This industrial transformation can bring dynamic industries 
back to communities that have been left behind and secure 
domestic supply chains while spurring the creation of a new 
generation of good manufacturing jobs.
    We also have to ensure that our investment tackles income 
inequality and delivers family-sustaining jobs. We have 
examples of good union jobs being created in the clean energy 
economy: construction workers building wind projects and 
retrofitting buildings, auto workers making cleaner cars and 
trucks. However, not all the new jobs created or promised in 
the clean energy economy are high-quality. There are 
differences across sectors when it comes to union density, 
wages, and benefits. Therefore, in addition to investments in 
infrastructure and manufacturing, we need to link those 
investments to strong labor and Buy American standards, and 
protect workers' rights to organize across all sectors of the 
economy.
    Lastly, we must recognize that, even if we are successful 
in creating and retaining jobs, communities impacted by the 
ongoing energy transition will still be hurt. That is why we 
joined with partners and allies from coal communities across 
the country to develop the ``National Economic Transition 
Platform,'' which outlines a policy framework and priorities to 
invest in communities and workers hit hard by the decline of 
the coal industry.
    Working people should not have to suffer economically due 
to the shift to cleaner, cheaper forms of energy. But a 
transition that is fair to workers and communities isn't 
something that will happen organically. It needs to be a 
deliberate choice and baked into our climate solutions.
    In conclusion, we believe tackling climate change, 
inequality, and economic recovery can go hand-in-hand and 
ensure that the U.S. emerges from this crisis stronger and more 
globally competitive with a cleaner and more equitable economy.
    We appreciate the work of this committee and the ambition 
and breadth and detail of the report produced by committee 
staff. We look forward to continuing to work with you moving 
ahead.
    Thank you for the opportunity to speak today.
    [The statement of Mr. Walsh follows:]

                           WRITTEN TESTIMONY

                              Jason Walsh

                 Executive Director, BlueGreen Alliance

               Before the 116th United States Congress, 
              House Select Committee on the Climate Crisis

                      Solving the Climate Crisis: 
            Building a Vibrant and Just Clean Energy Economy

                         Tuesday, July 28, 2020

    Thank you Chair Castor, Ranking Member Graves, and distinguished 
members of the committee. My name is Jason Walsh, and I am the 
Executive Director of the BlueGreen Alliance, a national partnership of 
labor unions and environmental organizations. On behalf of my 
organization, our partners, and the millions of members and supporters 
they represent, I want to thank you for convening this hearing on how 
we can build a vibrant and just clean economy while solving the climate 
crisis.
    The BlueGreen Alliance unites America's largest and most 
influential labor unions and environmental organizations to solve 
today's environmental challenges in ways that create and maintain 
quality jobs and build a stronger, fairer economy. Our partnership is 
firm in its belief that Americans don't have to choose between a good 
job and a clean environment--we can and must have both.
    The world's leading scientific organizations have been unambiguous 
that climate change is a dire and urgent threat and that the longer we 
delay, the stronger the action required. Over the last decade, we have 
witnessed the worsening impacts climate change is having on our 
communities.
    At the same time, our nation is struggling with deep and crippling 
economic and racial inequality. According to the Economic Policy 
Institute, ``the bottom 90% of the American workforce has seen their 
pay shrink radically as a share of total income,'' from 58% in 1979 to 
47% in 2015.\i\ That is almost $11,000 per household, or $1.35 trillion 
in additional labor income. There is a direct correlation with the 
decrease of worker power over this time, as the share of workers in a 
union fell from 24% in 1979 to under 11% now.\ii\
    The deck has been stacked even further against people of color. 
Data point after data point illustrates exactly how unequal our economy 
is. For example, regardless of education level, Black workers are far 
more likely to be unemployed than white workers.\iii\ In fact, 
historically, unemployment rates are twice as high for Black workers. 
That disparity carries into the workplace as well, with Black workers 
paid on average 73 cents to the dollar compared to white workers.\iv\ 
The wage gap persists regardless of education, and even with advanced 
degrees Black workers make far less than white workers at the same 
level. So, it's no surprise that while the poverty rate for white 
Americans sits at about 8.1%, for Black households it's 20.7%.\v\
    Of course, we are now in the midst of a third devastating and 
deadly crisis: the COVID-19 pandemic, which has taken its toll and is 
nowhere close to done. America has surpassed 4 million cases and 
140,000 deaths due to the coronavirus.\vi\ The ten-week total for 
unemployment claims has surpassed 40 million, suggesting about a 
quarter of our workforce has lost jobs during the pandemic and 
projections suggest that even if we start to recover, the unemployment 
rate will still be around 9.3% by the end of the year.\vii\ And months 
into this pandemic, workers continue to struggle to stay safe and 
healthy on the job, particularly as states begin to reopen parts of the 
economy and state and local government budgets are ravaged, and the 
Occupational Safety and Health Administration and Mine Safety and 
Health Administration under President Trump have refused to do their 
job and issue enforceable emergency standards for workplace safety.
    This pandemic has cast a spotlight on and exacerbated all the parts 
of our society that already weren't working for the American people. 
With unemployment skyrocketing, those still at work being exposed to 
unacceptable health risks on the job, and families immediately unable 
to pay rent and mortgages, we're vividly seeing the impact of workers 
living paycheck to paycheck and diminished workers' rights on the job. 
And we're seeing clearly how systemic racism has stacked the deck 
against people of color, who, historically and persistently fare worse 
in our existing economy, having lower wages, less savings to fall back 
on, and significantly higher poverty rates.\viii\ Not only are people 
of color more economically vulnerable in this crisis, but 
disproportionately their lives are being put at greater risk. For 
example, Black Americans represent 22.4% of COVID-19 deaths while 
making up just 12.5% of the U.S. population.\ix\ And among those aged 
45-54, Black and Hispanic/Latino death rates are at least six times 
higher than for whites. While whites comprise 62% of people in the U.S. 
in that age group, 1,013 white people have died from COVID-19 (22% of 
the total) compared to 1,448 Black people and 1,698 Hispanic/Latino 
people.\x\
    We've seen clearly just how dangerous the status quo is. We need to 
move urgently towards economic recovery. At the same time, we know that 
returning to ``normal'' is not good enough. We have to do better.
    Last summer, the BlueGreen Alliance alongside our labor and 
environmental partners released Solidarity for Climate Action a first 
of its kind platform recognizing that the solutions to economic 
inequality, racial injustice, and climate change have to be addressed 
simultaneously. We have to fight climate change, reduce pollution, and 
create and maintain good-paying, union jobs across the nation all at 
the same time. With COVID-19 worsening these crises, the vision of 
Solidarity for Climate Action is more important now than ever.
    We believe our Solidarity for Climate Action Platform and the work 
of this committee lay out a roadmap to get us there. We can tackle 
climate change in a way that achieves multiple goals at the same time--
we can avoid the worst impacts of climate change, deliver public health 
and environmental benefits to communities, create and maintain good, 
unions jobs, address economic and racial injustice head on, and create 
a cleaner, stronger, and more equitable economy for all.
    How do we do this?
Invest in infrastructure and support and retool America's manufacturing 
        sector
    First, we need to invest in common-sense ``win-win'' solutions that 
deliver climate benefits while creating and retaining quality jobs and 
spurring economic recovery.
    We cannot address climate change or build a thriving economy with 
derelict infrastructure. We must move forward with an ambitious plan to 
rebuild and transform America's infrastructure. Investing now to repair 
our failing roads and bridges, water systems, and natural gas 
distribution pipelines, as well as to modernize our buildings and 
electric grid, transform our transportation systems, and support our 
urban and rural communities, will boost our economy and create millions 
of jobs, while also reducing pollution and combating climate change--
paving the pathway to a strong and equitable recovery.
    BlueGreen Alliance research has found that investing an estimated 
$2.2 trillion in key sectors of America's infrastructure to improve 
them from a ``D+'' grade overall to a ``B'' grade has the potential to 
support or create an additional 14.5 million job-years across the U.S. 
economy, add a cumulative $1.66 trillion to Gross Domestic Product 
(GDP) over 10 years, and reduce greenhouse gas pollution and boost 
climate resilience--versus a business as-usual approach.\xi\
    Making these smart investments will also pay dividends for our 
environment by reducing air and water pollution and tackling the 
emissions driving climate change. Take transit: supporting transit 
ridership increases commensurate with population growth could save 
nearly 4.4 billion gallons of fuel and avert the carbon dioxide 
(CO<INF>2</INF>) equivalent of 39 million metric tons per year through 
2025.\xii\ Currently, transit ridership levels save the equivalent 
energy of the gasoline used by more than 7.7 million cars a year--
nearly as many cars as are registered in Florida, the fourth largest 
state.\xiii\ Public transit investments can help reduce harmful 
emissions, which tend to disproportionately impact communities of color 
and low-income communities. At the same time, transit systems support 
thousands of high quality jobs directly and provide essential and daily 
access to jobs and opportunity for millions. Expanding and modernizing 
our transit systems can boost jobs and cut emissions immediately, and 
be a key piece of rebuilding clean, livable, equitable, and prosperous 
communities.
    And the return on investment we see from infrastructure spending is 
far greater than other types of potential policy interventions, like 
tax cuts for example. Increased federal infrastructure spending has an 
output multiplier of 1.57 compared to only 1.03 for an across the board 
tax cut, 1.01 for a nonrefundable lump-sum tax rebate, and only 0.32 
for cutting the corporate tax rate.\xiv\ The average rate of return 
(ROR) on infrastructure investment across dozens of studies examined in 
a 2017 report was an impressive 16.7%.\xv\
    At the same time, we must reinvest in fortifying and transforming 
heavy industry and retooling to build more of the products, materials, 
and technologies of the future here. Manufacturing must be an integral 
part of any strategy to address the climate emergency. In line with 
achieving net zero emissions economy-wide by 2050, we have the 
opportunity to modernize and transform our industrial base to make it 
the cleanest and most advanced in the world. This industrial 
transformation can bring dynamic industries back to communities that 
have been left behind by deindustrialization and under-investment and 
secure domestic supply chains while spurring the creation of a new 
generation of good, safe jobs manufacturing clean technology.
    This must begin by ensuring that our climate and clean energy goals 
go hand in hand with policies to support and create good union jobs in 
the clean economy and secure and bring back manufacturing supply 
chains. And it means ensuring that all public investments are coupled 
with high labor standards and robust Buy America/n standards to ensure 
that these investments support domestic manufacturing. We can also 
utilize ``Buy Clean'' and other federal procurement standards that 
require the federal government to consider the carbon footprint of 
goods they're purchasing, and to prioritize manufacturing firms that 
uphold strong labor standards and create good jobs in low-income 
communities.
    Establishing robust, high-road, domestic production of clean 
technology can capture the economic benefits of the clean economy in 
the United States. Last month, the BlueGreen Alliance released a 
manufacturing platform that lays out a national blueprint for how we do 
this.\xvi\
Invest at the scale this crisis demands, and do it right
    This should begin with prioritizing equitable rebuilding and 
investments in those workers and communities that need it most, 
especially low-income communities, communities of color, and 
deindustrialized communities. Low income communities and communities of 
color are hit the hardest and are less able to deal with the impacts of 
both COVID-19 and climate change. For example, these communities are 
more likely to be in neighborhoods with more air pollution. A 2019 
report found that Black and Hispanic Americans live in neighborhoods 
with more pollution but produce less, whereas white communities are 
less polluted but white people produce more pollution.\xvii\ The Fourth 
National Climate Assessment states that exposure to pollution ``results 
in adverse respiratory and cardiovascular effects, including premature 
deaths, hospital and emergency room visits, aggravated asthma, and 
shortness of breath,''\xviii\ conditions which in turn increase the 
risk of COVID-19 infection.
    Generations of economic and racial inequality have 
disproportionately exposed communities of color to low wages, toxic 
pollution, and climate threats. We must inject justice into our 
nation's economy by ensuring that solutions support the hardest hit 
workers and communities. We must also ensure that our investments 
tackle economic inequality and deliver family-sustaining jobs. 
Manufacturing, infrastructure, environmental restoration, and clean 
energy are significant drivers of job creation and economic growth, but 
our investment won't be effective unless we ensure it supports and 
creates local jobs with fair wages and benefits and safe working 
conditions, creates economic opportunity for all people in the 
communities in which they reside, and meets forward-thinking 
environmental standards to ensure resiliency.
    We have examples of good jobs being created in the clean energy 
economy--whether that is the tradespeople that built the Block Island 
offshore wind project off the coast of Rhode Island, autoworkers 
building cleaner cars and trucks, or high-skilled jobs in energy 
efficiency retrofitting. These are all good, union jobs building a 
clean energy and climate-resilient economy today.
    However, not enough new jobs created or promised in the clean 
energy economy are high-quality, family-sustaining jobs. There are 
differences across sectors when it comes to union density, wages, and 
benefits. In addition, these new jobs are not always in the same 
communities that have seen the loss of good-paying, union jobs, and if 
there are new clean energy projects, they are often less labor 
intensive.
    We can't afford to invest in ways that double down on the crises 
we're facing and further exacerbate inequality. We have to ensure that 
this investment supports and creates good jobs.
    That means a commitment to:
    <bullet> Increase union density across the country through strong 
support of the right to organize throughout the economy--including in 
the clean technology sectors;
    <bullet> Apply mandatory labor standards that include prevailing 
wages, safety and health protections, project labor agreements, 
community benefit agreements, local hire, and other provisions and 
practices that prioritize improving training, working conditions, and 
project benefits;
    <bullet> Raise labor standards in the non-construction sectors 
through improved wages and benefits and the prioritization of full-time 
work that eliminates the misclassification of employees and misuse of 
temporary labor;
    <bullet> Invest in training, equipment, preparedness, plan 
development, and other tools including through registered 
apprenticeship programs to ensure a robust, skilled, and well-prepared 
workforce to address extreme weather events and other impacts caused by 
climate change; and
    <bullet> Utilize community benefit, workforce, and other similar 
agreements that improve access to jobs and career paths, and identify 
and implement mechanisms to mitigate and improve local economic and 
environmental impacts.
Ensure fairness for workers and communities
    We must also recognize that even if we are successful in retaining 
jobs while creating new, good jobs, communities impacted by the ongoing 
energy transition will still be hurting. Since 2014, U.S. power 
generators retired nearly 62,000 MW of coal-fired generation capacity, 
13,703 MW, of coal capacity retired in 2019. Another 26,947 MW of 
retirements are expected through 2025.\xix\ America is already in the 
middle of an energy transition. We need to have a conversation about 
getting ahead of this transition, and we need to do this now.
    That's why--alongside partners and allies from coal communities 
across the country--the BlueGreen Alliance participated in the 
development of the National Economic Transition platform.\xx\ The 
platform is the product of a year-long collaboration, bringing together 
local, tribal, and labor leaders with public, private, and non-profit 
partners to develop a policy framework and priorities to invest in 
communities and workers hit hard by the decline of the coal industry. 
It calls for ``the creation of an inclusive national transition task 
force, tasked to create a national action plan, and the development of 
a new federal Office of Economic Transition, guided by an advisory 
board reflective of affected stakeholder groups and communities'' and 
recommends these new entities address economic transition through seven 
pillars:\xxi\
    1.  Invest in local leaders and long-term economic development 
planning. Building the capacity of community-based leaders and 
organizations provides communities with the resources and incentives to 
plan early for and respond to coal facility closures. These investments 
ensure communities are prepared for a transition that protects workers 
and is responsive to local needs.
    2.  Expand investments in entrepreneurship and small-businesses in 
new sectors to help communities diversify and strengthen their 
economies. Investing in small businesses in diverse sectors of the 
economy--like health care, renewable energy, sustainable agriculture, 
and remote work opportunities--grows not just resilience, but stronger, 
healthier communities.
    3.  Provide bridge support and pathways to quality in-demand, 
family-sustaining jobs for workers. By providing a bridge of support 
for workers affected by closures, comprehensive workforce development 
efforts, and skills training for in-demand jobs, leaders can create a 
pathway to effective and equitable access to high-quality jobs in the 
public and private sectors.
    4.  Reclaim and remediate coal sites to create jobs while cleaning 
up the environment. Initiatives to reclaim, remediate, and reuse coal 
sites and clean up coal ash requires a sizable workforce and 
immediately creates jobs for workers while curbing public health and 
environmental risks.
    5.  Improve inadequate physical and social infrastructure. 
Investing in critical infrastructure, like improved connectivity, 
stimulates economic development and builds community resiliency. 
Infrastructure projects create jobs, reduce inequities, and help boost 
investment in healthy, livable communities.
    6.  Address the impact of coal company bankruptcies on workers, 
communities, and the environment. Holding companies accountable to 
financial regulations and bankruptcy laws when closing operations helps 
protect worker pay and benefits, while also ensuring polluted sites are 
reclaimed for new development.
    7.  Coordinate across programs to ensure communities have access to 
the resources they need. Launching an interagency grants program helps 
ensure affected stakeholders have a voice and empowers local 
communities with federal resources.
    The state of Colorado has advanced legislation that provides a 
model for achieving these goals. It passed landmark legislation, House 
Bill 1314, during the 2019 state legislative session. The legislation, 
which was envisioned and championed by the BlueGreen Alliance and our 
partners, created the first State Office of Just Transition, and 
mandated creation of a statewide Just Transition plan for coal workers 
and communities. A 19-member advisory board will present their draft 
plan on August 1st along with staff of the new office, partners like 
the BlueGreen Alliance, and state agencies.
    The Colorado Just Transition plan recommends structural 
improvements to how the state supports rural communities where coal 
mining or power plants are likely to close. Key to Colorado's plan will 
be developing worker support programs that assist impacted workers in 
transition to new work. The plan will also recommend state policies 
that reduce the impact of tax loss on communities, enhance economic 
development, develop entrepreneurial talent, dedicate capital to 
improve community infrastructure and ensure coal site cleanup, and 
secure financing for expanding businesses in coal transition 
communities. Several states are watching Colorado's implementation of 
House Bill 1314, and considering similar initiatives.
    Any plan advanced by forward-looking states will have to be 
supported and supplemented by additional Federal resources. Federal 
funding, especially as the COVID-19 pandemic stretches already thin 
state and local budgets, will be vital to giving coal communities the 
resources and tools they need to diversify their economies and support 
their workers through transition.
    Working people should not have to suffer economically due to the 
shift to cleaner, cheaper forms of energy, but a transition that is 
fair for workers and communities isn't something that will happen 
organically. Prioritizing workers and fossil fuel-impacted communities 
needs to be a deliberate choice. A fair and equitable transition and 
the creation of good-paying, union jobs need to be baked into our 
solutions on climate change.
Rebuild the public sector and provide long term support and protections 
        for workers to ensure we are prepared for crises
    Lastly, we need to rebuild the capacity of the public sector, the 
health care system, public health agencies, education, and community-
based services to prepare for and respond to disasters like COVID-19 
today, and to keep our communities safe and stable for the future. 
Workers and communities cannot deal with crises alone, whether they are 
global pandemics or extreme weather events caused by climate change. We 
also must rebuild and expand the social safety net--including pensions, 
healthcare, and retirement security--and ensure and enforce worker and 
community health and safety.
Conclusion
    The solutions to the crises we're facing--climate change, and 
economic and racial inequality--are as interconnected as their causes 
and we are happy to see that many of those solutions are included in 
the staff report released by the House Select Committee on the Climate 
Crisis. The report is far-reaching and we look forward to working with 
you on a climate plan that launches an economic recovery that provides 
solutions to create a stronger, cleaner, and more equitable economy 
that works for all Americans.
    Thank you again for the opportunity to speak today.

    <SUP>i</SUP> Environmental Policy Institute (EPI), ``What labor 
market changes have generated inequality and wage suppression?'' 
December 12, 2019. Available online:       
https://www.epi.org/publication/what-labor-market-changes-have-
generated-inequality-and-wage- suppression-employer-power-is-
significant-but-largely-constant-whereas-workers-power-has- been-
eroded-by-policy-actions/
    <SUP>ii</SUP> Ibid.
    <SUP>iii</SUP> EPI, ``Black workers face two of the most lethal 
preexisting conditions for coronavirus--racism and economic 
inequality.'' June 1, 2020. Available online:       
https://www.epi.org/publication/black-workers-covid/
    <SUP>iv</SUP> Ibid.
    <SUP>v</SUP> Ibid.
    <SUP>vi</SUP> Google News, COVID-19 Dashboard. 2020, Available 
online:       
https://news.google.com/covid19/map?hl=en-US&gl=US&ceid=US:en
    <SUP>vii</SUP> Washington Post, ``Federal Reserve predicts slow 
recovery with unemployment at 9.3 percent by end of 2020.'' June 10, 
2020. Available online:        
https://www.washingtonpost.com/business/2020/06/10/fed-forecasts-
economy/
    <SUP>viii</SUP> EPI, ``Black workers face two of the most lethal 
preexisting conditions for coronavirus--racism and economic 
inequality.'' June 1, 2020. Available online:       
https://www.epi.org/publication/black-workers-covid/
    <SUP>ix</SUP> Ibid.
    <SUP>x</SUP> Brookings, ``Race gaps in COVID-19 deaths are even 
bigger than they appear.'' June 16, 2020. Available online: https://
www.brookings.edu/blog/up-front/2020/06/16/race-gaps-in-covid-19-
deaths-are-even-bigger-than-they-appear/
    <SUP>xi</SUP> BlueGreen Alliance, Making the Grade 2.0 Investing in 
America's Infrastructure to Create High-Quality Jobs and Protect the 
Environment. 2017. Available online:     
https://www.bluegreenalliance.org/wp-content/uploads/2017/09/
MakingTheGrade-2.pdf
    <SUP>xii</SUP> Ibid.
    <SUP>xiii</SUP> Ibid.
    <SUP>xiv</SUP> EPI, The potential macroeconomic benefits from 
increasing infrastructure investment. July 18, 2017. Available online: 
https://www.epi.org/publication/the-potential-macroeconomic-benefits-
from-increasing-infrastructure-investment/
    <SUP>xv</SUP> Ibid.
    <SUP>xvi</SUP> BlueGreen Alliance, Manufacturing Agenda: A National 
Blueprint for Clean Technology Manufacturing Leadership and Industrial 
Transformation. June 2020. Available online: https://
www.bluegreenalliance.org/resources/manufacturing-agenda-a-national-
blueprint-for-clean- 
technology-manufacturing-leadership-and-industrial-transformation/
    <SUP>xvii</SUP> Proceedings of the National Academy of Sciences 
Inequity in consumption of goods and services adds to racial-ethnic 
disparities in air pollution exposure March 2019. Avail-
able online:  https://www.pnas.org/content/116/13/
6001#:&sim;:text=The%20total%20disparity%20 is
%20caused,pollution%20inequity%20has%20remained%20high.
    <SUP>xviii</SUP> U.S. Global Change Research Program, Fourth 
National Climate Assessment, Chapter 13: Air Quality. November 2018. 
Available online: https://nca2018.globalchange.gov/chapter/13/
    <SUP>xix</SUP> S&P Global Market Intelligence, ``US power 
generators set for another big year in coal plant closures in 2020.'' 
January 13, 2020. Available online:        
https://www.spglobal.com/marketintelligence/en/news-insights/latest-
news-headlines/us-power- generators-set-for-another-big-year-in-coal-
plant-closures-in-2020-56496107
    <SUP>xx</SUP> Just Transition Fund. National Economic Transition 
Platform. June 2020. Available online: https://
nationaleconomictransition.org/
    <SUP>xxi</SUP> Ibid.

    Ms. Castor. Thank you, Mr. Walsh.
    Mr. Shellenberger, you are recognized for 5 minutes.

               STATEMENT OF MICHAEL SHELLENBERGER

    Mr. Shellenberger. Thank you, Chairperson Castor, Ranking 
Member Graves, and members of the committee.
    During the first decade of this century, I advocated a very 
similar suite of policies on renewables, transmission lines, 
energy efficiency, mass trans, electric vehicles that are 
currently being proposed by the Democrats' proposed climate 
plan, and they failed to create the new manufacturing capacity, 
the radical decarbonization, the good jobs with high pay, or 
higher economic growth.
    A former Obama Administration economist at the University 
of Chicago found last year that consumers in states with 
renewable-energy mandates paid $125 billion more for 
electricity in the 7 years after their passage than they would 
have otherwise.
    Renewables contributed to electricity prices rising six 
times more in California than in the rest of the United States 
since 2011. And we have seen renewables have that same impact 
around the world. They caused electricity prices to rise 50 
percent in Germany since 2007.
    And the problem underlying it all is physics. Solar and 
wind make electricity expensive because they are unreliable, 
they require 100-percent backup, and they are energy-dilute, 
requiring extensive land, transmission lines, and mining.
    Opposition to wind and solar projects has grown so much 
that even renewable energy advocates today admit that the 
environmental impact of renewables is the greatest obstacle to 
their deployment. Solar and wind farms around the world 
require, on average, 300 to 400 times more land than a natural 
gas or a nuclear plant to provide the same quantity of energy, 
albeit unreliably.
    The renewable energy industry claims technical innovations 
will improve solar and wind, but nothing can change the low 
power density of sunlight and wind. Even a 10-percent 
improvement in the efficiency of solar panels would only reduce 
the staggering amount of land required to produce the same 
amount of energy, from 400 times more to 360 times more.
    The dilute nature of sunlight and wind means that solar and 
wind projects require large amounts of land that come within 
significant environmental impacts. The respected energy scholar 
Vaclav Smil estimates that achieving 100 percent renewables 
would require dedicating 25 to 50 percent of all the land in 
the United States to energy production, up from a half a 
percent. Vaclav Smil, by the way, is referred to by Bill Gates 
as the person whose books he most looks forward to reading.
    So this raises significant environmental justice concerns. 
It is notable that the advocacy for industrial wind comes from 
mostly affluent people who live on the coasts, not near wind 
turbines. Communities most able to resist industrial wind 
projects, such as people on Cape Cod or people in places like 
Marin County of California or northern California, are able to 
resist wind energy projects and seek to place them in poorer 
communities in the Midwest.
    A report released earlier this month documented 200 cases 
of renewable energy companies and their proxies violating human 
rights around the world, including through murder, dangerous 
working conditions, and theft.
    And yet, in the plan, House Democrats propose as a high 
priority the creation of a super grid consisting of 
transmission lines like the one proposed for the largely 
pristine Sandhills of Nebraska, which would have a 3.5-mile 
buffer and cross 600 individual wetlands. It is notable that 
the single greatest threat to whooping cranes is considered 
transmission lines, and the leading opponent of that project is 
from the Oglala Sioux Tribe.
    I think we have misdescribed climate change as a crisis or 
an emergency. I say this as an environmental activist for 30 
years, as a climate activist for 20 years. No credible 
scientific body has ever claimed that climate change threatens 
the collapse of civilization, much less the extinction of the 
human species.
    There is a lot of good news we should pay attention to here 
and build upon. Deaths from natural disasters have declined 90 
percent over 100 years. We produce 25 percent more food than we 
consume today, and most experts believe that, as we continue to 
expand fertilizer, irrigation, and modern agriculture to poor 
countries, those food surpluses will rise.
    All else being equal, it would be best to have no change to 
global temperature, but, obviously, not all else is equal. 
Those big gains in resilience are a consequence of the 
availability of cheap energy.
    So the good news is that carbon emissions have been 
declining in the United States for a decade and a half. They 
peaked in Britain, France, and Germany in the mid-1970s. 
Economic growth brings significant reductions of carbon 
emissions. I would question why, if we think that solar and 
wind are so cheap, they would require $2 trillion in subsidies 
to be scaled up.
    I think a more significant challenge for this committee to 
consider is the decline of nuclear energy. Only nuclear has 
proven capable of replacing fossil fuels on a one-to-one basis, 
and yet the American nuclear industry is in decline. And while 
there are some interesting initiatives aimed at reviving it, we 
do not have a national nuclear strategy to compete with the 
Russians and Chinese.
    Every time a nation does a nuclear power project, it is an 
extension of soft power. They are basically going into the 
sphere of influence of that country. And as we have all kind of 
witnessed in horror how the Chinese Government is engaged in a 
genocide against its ethnic Muslim minority, I think the United 
States needs to step up its game and be competitive with the 
Russians and Chinese in building new power plants abroad. And 
that is going to require building more nuclear power plants at 
home.
    So I will just end by urging the committee to consider the 
need for a green nuclear deal so that we can achieve both 
environmental, climate, and also our national security 
objectives at the same time.
    Thank you very much.
    [The statement of Mr. Shellenberger follows:]

                 Testimony of Michael D. Shellenberger,

             Founder and President, Environmental Progress

          For the House Select Committee On the Climate Crisis

                             July 28, 2020

    Good morning Chairperson Castor, Ranking Member Graves, and members 
of the committee.
    My name is Michael Shellenberger, and I am Founder and President of 
Environmental Progress, an independent and nonprofit research 
organization.\1\ I am an invited expert reviewer of the next assessment 
report by the Intergovernmental Panel on Climate Change (IPCC), a 
regular contributor to the New York Times, Washington Post, Forbes, and 
other publications, and a Time Magazine ``Hero of the Environment.'' 
\2\ In the early 2000s I advocated for the predecessor to the Green New 
Deal, the New Apollo Project, which President Barack Obama implemented 
as his $90 billion green stimulus. I am honored to address the 
Committee.
---------------------------------------------------------------------------
    \1\ Environmental Progress is an independent non-profit research 
organization funded by charitable philanthropies and individuals with 
no financial interest in our findings. We disclose our donors on our 
website: http://environmentalprogress.org/mission.
    \2\ Michael Shellenberger, ``Founder and President,'' Environmental 
Progress, 2020, accessed December 8, 2020, http://
environmentalprogress.org/founder-president.
---------------------------------------------------------------------------
                     i. the high cost of renewables
    House Democrats propose spending hundreds of billions of public and 
ratepayer money on renewable energy, new transmission lines, energy 
efficiency, mass transit, electric vehicles, carbon capture and 
storage, and advanced nuclear energy. They argue that these federal 
investments will result in millions of good jobs with high pay, and 
also pay for themselves through higher economic growth.\3\
---------------------------------------------------------------------------
    \3\ Majority Staff Report, ``Solving the Climate Crisis,'' June 
2020, https://
---------------------------------------------------------------------------
climatecrisis.house.gov/sites/climatecrisis.house.gov/files/
Climate%20Crisis%20Action%20Plan.pdf.
    But similar programs over the last decade did not result in the 
benefits being promised. During the first decade of this century I 
advocated a suite of policies nearly identical to the ones currently 
being proposed and watched them fail to create a new manufacturing 
capacity, good jobs with high pay, or higher economic growth. Rather, 
they resulted in low-wage service sector jobs, greater dependence on 
imported Chinese technologies, and higher energy costs. And they 
resulted in higher electricity prices and the net transfer of wealth 
from lower to upper income citizens.
    A former Obama administration economist at the University of 
Chicago found last year that consumers in states with renewable energy 
mandates paid $125 billion more for electricity in the seven years 
after passage than they would have otherwise.\4\
---------------------------------------------------------------------------
    \4\ Michael Greenstone and Ishan Nath, ``Do Renewable Portfolio 
Standards Deliver?'' Energy Policy Institute at the University of 
Chicago 62 (May 2019): 1-45, https://epic.uchicago.edu/wp-content/
uploads/2019/07/Do-Renewable-Portfolio-Standards-Deliver.pdf.
---------------------------------------------------------------------------
    Renewables contributed to electricity prices rising six times more 
in California than in the rest of the US since 2011, the state's 
``take-off'' year for rapid growth in wind and solar, a price rise that 
occurred despite the state's reliance during the same years on 
persistently-low-priced natural gas.\5\
---------------------------------------------------------------------------
    \5\ ``California,'' Environmental Progress, accessed July 25, 2020, 
      
https://environmentalprogress.org/california. Calculations based on 
data from ``Electricity Data Browser: Retail Sales of Electricity 
Annual,'' United States Energy Information Administration, accessed 
January 10, 2020, https://www.eia.gov/electricity/data/browser.
---------------------------------------------------------------------------
    Renewables have the same impact everywhere in the world. They have 
caused electricity prices to rise 50 percent in Germany since 2007, the 
first year it got more than 10 percent of its power from subsidized 
wind, solar, and biomass. By 2019, German household electricity prices 
were 45 percent higher than the European average.\6\
---------------------------------------------------------------------------
    \6\ Eurostat, ``Electricity prices for household consumers--bi-
annual data (from 2007 onwards)'' December 1, 2019, accessed January 
20, 2020, https://appsso.eurostat.ec.europa.eu/nui/
show.do?dataset=nrg&lowbar;pc&lowbar;204&lang=en.
---------------------------------------------------------------------------
    Despite investing nearly a half-trillion dollars, Germany still 
generated just 42 percent of its electricity from non-hydro renewables 
last year, as compared to the 72 percent France generated from 
nuclear.\7\
---------------------------------------------------------------------------
    \7\ Germany spent 32 billion euros on renewables subsidy every year 
between 2014 and 2018, or about one percent of its GDP a year, which if 
adjusted for economy size would be like 
the United States spending $200 billion annually but only increasing 
its share of electricity 
from solar and wind by 11 percentage points. German spending from Frank 
Dohmen, ``German Failure on the road to a renewable future,'' Spiegel, 
May 13, 2019, https://www.spiegel.de/international/germany/german-
failure-on-the-road-to-a-renewable-future-a-1266586.html; Conversions 
made using OECD data for Purchasing Power Parity. Increase in German 
wind and solar percentages from ``Annual Electricity Generation in 
Germany,'' Fraunhofer ISE, January 10, 2020, accessed January 10, 2020, 
https://www.energy-charts.de/energy.htm.
---------------------------------------------------------------------------
    If Germany didn't count emissions-producing and land-intensive 
fuels like biomass and biofuels as renewable, which most environmental 
groups, even Greenpeace, believe it shouldn't, the share of its 
electricity from non-emitting, non-hydro renewables is just 34 
percent.\8\
---------------------------------------------------------------------------
    \8\ ``Annual Electricity Generation in Germany,'' Fraunhofer ISE, 
January 10, 2020, accessed January 10, 2020, https://www.energy-
charts.de/energy.htm.
---------------------------------------------------------------------------
    Solar and wind make electricity more expensive because they are 
unreliable, requiring 100 percent backup, and energy-dilute, requiring 
extensive land, transmission lines, and mining. Solar and wind 
developers do not pay for the costs they create but rather pass them on 
to electricity consumers and other producers.\9\
---------------------------------------------------------------------------
    \9\ Steven M. Grodsky, ``Reduced ecosystem services of desert 
plants from ground-mounted solar energy development,'' Nature, July 20, 
2020.
---------------------------------------------------------------------------
    Ten years ago, growing opposition by conservationists, community 
groups, and environmental justice activists to industrial wind and 
solar projects led me to rethink my support for renewables. Today, 
opposition to wind and solar projects has grown so much that even 
renewable energy advocates today admit that the environmental impact of 
renewables is the greatest obstacle to their deployment.\10\ Consider 
the following recent events:
---------------------------------------------------------------------------
    \10\ Oliver Milman, ``Biden plots $2tn green revolution but faces 
wind and solar backlash,'' Guardian, July 25, 2020.
---------------------------------------------------------------------------
    <bullet>  In June, environmentalists in Hawaii urged the state's 
Supreme Court to overturn a decision by the state to approve an 
industrial wind project that threatened seven endangered native bird 
species; \11\
---------------------------------------------------------------------------
    \11\ The birds are the nene, pueo, a'o, koloa maoli, ae'o, 'alae 
ke'oke'o, and 'alae 'ula. ``Hawaii Supreme Court asked to block opening 
of controversial wind project,'' KHON2 News, June 17, 2020, https://
www.khon2.com.
---------------------------------------------------------------------------
    <bullet>  One week later, a federal judge blocked a transmission 
line, called the R-Line, proposed to be built straight through whooping 
crane habitat in Nebraska. Transmission lines are the number one cause 
of mortality among whooping cranes. Industrial wind developers need the 
transmission line to expand their turbines across the fragile Sand 
Hills ecosystem; \12\
---------------------------------------------------------------------------
    \12\ Thomas V. Stehn, ``Whooping Crane Collisions with Power Lines: 
an issue paper,'' Geography, 2008.
---------------------------------------------------------------------------
    <bullet>  In May of this year, Ohio regulators demanded wildlife 
protections for endangered migratory bird species, including the 
Kirtland's warbler, for an industrial wind project proposed for Lake 
Erie. Such protections, which stop blades from spinning when birds are 
in the area, undermine the already poor economics of wind energy, and 
may ultimately kill the project. The lake is a critical habitat for 
birds migrating between their nesting grounds in Canada to South 
America for the winter; \13\
---------------------------------------------------------------------------
    \13\ Karl-Erik Stromsta, ```This Could Be the Final Nail in Coffin' 
for Icebreaker Offshore Wind Project,'' Green Tech Media, May 22, 2020, 
https://www.greentechmedia.com.
---------------------------------------------------------------------------
    <bullet>  Last December, environmentalists on California's northern 
coast successfully blocked industrial wind turbines that they said 
would have killed an endangered sea bird, the marbled murrelet, which 
nests in nearby ancient redwood trees; \14\
---------------------------------------------------------------------------
    \14\ ``Board of Supes Sinks Terra-Gen Wind Farm on 4-1 Vote, 
Following Days of Hearings,'' Lost Coast Outpost, December 17, 2019, 
https://lostcoastoutpost.com.
---------------------------------------------------------------------------
    <bullet>  And just yesterday, environmental and community groups 
from around the world announced the formation of the Energy and 
Wildlife Coalition, to support, organize, and make more effective 
opposition to industrial renewable energy projects in the US and around 
the world.\15\
---------------------------------------------------------------------------
    \15\ Energy and Wildlife Coalition, https://www.energywildlife.org.
---------------------------------------------------------------------------
    By occupying large areas of migratory habitat, wind turbines have 
also emerged as one of the greatest threats to large, threatened, and 
high-conservation-value birds. Solar and wind farms around the world 
require at least 300-400 times more land on average than a natural gas 
or nuclear plant to produce the same quantity of energy, albeit 
unreliably.
    The rapidly spinning blades of wind turbines act like an apex 
predator that big birds never evolved to deal with. The wind industry 
claims that house cats kill more birds than wind turbines. But cats 
mainly kill small, common birds like sparrows, robins, and jays, 
whereas wind turbines kill big, threatened, slow-to-reproduce species 
like hawks, eagles, owls, and condors.
    And because big birds have much lower reproductive rates than small 
birds, their deaths have a far greater impact on the overall population 
of the species. For example, golden eagles will have just one or two 
chicks in a brood, and usually less than once a year, whereas a 
songbird like a robin could have up to two broods of three to seven 
chicks each year.
    The renewable industry claims technical innovations will improve 
solar and wind, but nothing can change the lower power density of 
sunlight and wind. Even a 10 percent improvement in the efficiency of 
solar panels would only slightly reduce the staggering amount of land 
required to produce the same amount of energy: from 400 times more land 
than nuclear to 360 times more. And over the last decade, the 
technology used in the vast majority of installed solar panels has only 
become 2-3 percent more efficient.\16\
---------------------------------------------------------------------------
    \16\ National Renewable Energy Laboratory, ``Best Research-Cell 
Efficiency,'' accessed July 27, 2020, https://www.nrel.gov/pv/cell-
efficiency.html.
---------------------------------------------------------------------------
    The problem with renewables is physical. The dilute nature of 
sunlight means that solar projects require large amounts of land and 
thus come with significant environmental impacts. This is true even for 
the world's sunniest places. California's most famous solar farm, 
Ivanpah, requires 450 times more land than its last operating nuclear 
plant, Diablo Canyon.\17\
---------------------------------------------------------------------------
    \17\ ``California,'' Environmental Progress, accessed 25 July 2020,
---------------------------------------------------------------------------
http://environmentalprogress.org/california.
    These quantities are supported by the best available scholarship. 
Vaclav Smil, a widely-respected energy scholar, has shown that it would 
take 25-50 percent of all land in the US to go 100 percent renewable. 
Today, the US uses just 0.5 percent of its land for energy.\18\ In 
2009, Cambridge physicist David MacKay showed that providing energy to 
the UK with 100 percent renewables would require a greater area than 
the landmass of the entire country.\19\
---------------------------------------------------------------------------
    \18\ Vaclav Smil, Power Density, MIT Press, 2016.
    \19\ David MacKay, Sustainable Energy Without the Hot Air, UIT 
Cambridge, Ltd., 2009.
---------------------------------------------------------------------------
    The expansion of industrial renewables raises environmental justice 
concerns. It is notable that the advocacy for industrial wind energy 
comes from people who don't live near the turbines, which are almost 
invariably loud and disturb the peace and quiet. Those communities that 
have proven most able to resist the introduction of a wind farm tend to 
be more affluent. In 2017, the upper-class residents of Cape Cod, for 
example, defeated an effort by a wind developer to build a 130-turbine 
farm, despite the developer having spent $100 million on the project.
    There is something called the ``Starbucks Rule'' for siting 
industrial wind projects. Wind developers ``plot where Starbucks are in 
the general area and then make sure their project is at least thirty 
miles away. Any closer and there'd be too many NIMBYs who'd object to 
having their views spoiled by a cluster of 265-foot-tall wind towers,'' 
reported Business Week.\20\
---------------------------------------------------------------------------
    \20\ John Laumer, ``US Wind Industry Follows ``Starbucks Rule'' for 
Turbine Siting,'' Treehugger, October 15, 2009, https://
www.treehugger.com.
---------------------------------------------------------------------------
    Renewable energy projects raise serious environmental justice 
issues. The state legislator in Nebraska seeking to protect the 
Sandhills, a traditionally sacred area, from industrial wind and its 
required transmission line, is a citizen of the Oglala Sioux Tribe. A 
report released earlier this month documents nearly 200 cases of 
renewable energy companies and their proxies allegedly violating human 
rights around the world, including through murder, dangerous working 
conditions, and theft. And in Hawaii, Tevita O. Ka'ili, a Hawaiian 
professor of cultural anthropology, testified that ``Killing these manu 
[birds] would deprive current and future generations of a necessary 
part of their natural environment and, for native Hawaiians, a vital 
resource for traditional and customary practices.'' \21\
---------------------------------------------------------------------------
    \21\ ``Renewable Energy and Human Rights Benchmark,'' Business and 
Human Rights Resource
---------------------------------------------------------------------------
Centre, https://www.business-humanrights.org/sites/default/files/
Renewable%20Energy%20Benchmark% 20Key%20Findings%20Report.pdf ``Hawaii 
Supreme Court asked to block opening of controversial wind project,'' 
KHON2 News, June 17, 2020, https://www.khon2.com.
    And yet, in their plan, House Democrats identify as a high priority 
the creation of a ``supergrid'' consisting of transmission lines like 
the one proposed for the largely pristine Sand Hills of Nebraska, which 
would have a 3.5 mile buffer and cross 600 individual wetlands.\22\
---------------------------------------------------------------------------
    \22\ Majority Staff Report, ``Solving the Climate Crisis,'' June 
2020, https://
---------------------------------------------------------------------------
climatecrisis.house.gov/sites/climatecrisis.house.gov/files/
Climate%20Crisis%20Action%20Plan.pdf.
    Despite their substantial negative environmental impact, the 
federal government has repeatedly given the wind industry special 
rights. The federal government rarely stops wind projects or requires 
changes in wind turbine locations or operations. Wind developers are 
allowed to self-report violations of the Migratory Bird Treaty Act, the 
Endangered Species Act, and the Bald and Golden Eagle Protection Act. 
Only Hawaii requires bird and bat mortality data to be gathered by an 
independent third party and to be made available to the public on 
request.\23\
---------------------------------------------------------------------------
    \23\ Michael Shellenberger, Apocalypse Never, HarperCollins, 2020, 
194; Michael Hutchins, ``To Protect Birds from Wind Turbines, Look to 
Hawai'i's Approach,'' American Bird Conservancy, June 21, 2016,
---------------------------------------------------------------------------
https://abcbirds.org/to-protect-birds-and-bats-from-wind-turbines-
adopt-hawaiis-approach.
    These special rights include the right to kill endangered species. 
In 2013, the Obama administration gave the wind industry permission to 
kill condors, an endangered species. No other industry is allowed to 
kill condors.\24\ Recently, the ``US Fish and Wildlife Service has 
encouraged wind developers to avoid prosecution for killing eagles,'' 
reported the New York Times, ``by applying for licenses to cover the 
number of birds who might be struck by wind turbines.'' \25\
---------------------------------------------------------------------------
    \24\ Louis Sahagun, ``Companies won't face charges in condor 
deaths,'' Los Angeles Times, May 10, 2013.
    \25\ Joseph Goldstein, ``A Climate Conundrum: the Wind Farm vs. the 
Eagle's Nest,'' New York Times, June 25, 2019, https://www.nytimes.com.
---------------------------------------------------------------------------
    In the rare circumstances when governments require the wind 
industry to mitigate its impact, such as by setting aside land 
elsewhere, there is often little to no enforcement, scientists say. In 
other circumstances, wind developers do not follow through on their 
promises and in some cases lie. Apex Clean Energy, based in Virginia, 
claimed on its 2017 application to the New York Electric Generation 
Siting Board that there were no known bald eagle nests where it planned 
to build. But, later, Apex flew a helicopter over an eagle's nest, 
destroying it.\26\
---------------------------------------------------------------------------
    \26\ Michael Shellenberger, Apocalypse Never, HarperCollins, 2020, 
194; Clifford P. Schneider, pro se, ``Motion for Dismissal for Fraud 
upon the Siting Board,'' Application of Galloo Island Wind LLC for a 
Certificate of Environmental Compatibility and Public Need Pursuant to 
Article 10 to Construct a Wind Energy Project, Case No. 15-F-0327, 
September 13, 2018, 2; Joseph Goldstein, ``A Climate Conundrum: the 
Wind Farm vs. the Eagle's Nest,'' New York Times, June 25, 2019, 
https://www.nytimes.com.
---------------------------------------------------------------------------
    Curtailment, the intentional halting of turbine blades, can reduce 
the killing of birds, bats, and insects, but few wind farm developers 
are willing to curtail because it means losing money. A US National 
Renewable Energy Laboratory study found that curtailment levels are 
lower than 5 percent of the total wind energy generation. And 
curtailment often isn't enough to stop the killings. ``In fact, red-
tailed hawk fatalities peaked at the 50 percent of turbines that never 
operated during the three years of monitoring,'' reported a scientist. 
He calls the most-studied wind farm in California, Altamont Pass, a 
``population sink for golden eagles as well as burrowing owls.'' \27\
---------------------------------------------------------------------------
    \27\ Michael Shellenberger, Apocalypse Never, HarperCollins, 2020, 
195; Shawn Smallwood, ``Estimating Wind Turbine-Caused Bird 
Mortality,'' Journal of Wildlife Management 71, no. 8 (2007): 2781-91, 
doi:10.2193/2007-006.
---------------------------------------------------------------------------
                    ii. good news on climate change
    Many defend the high environmental and economic cost of renewables 
by claiming that they are necessary to address the existential threat 
of climate change. But no credible scientific body has ever claimed 
that climate change threatens the collapse of civilization, much less 
the extinction of the human species, which is what ``existential'' 
threat means. And yet policymakers, scientists, and journalists make 
these claims, which have contributed to rising levels of anxiety and 
depression, including among adolescents.\28\
---------------------------------------------------------------------------
    \28\ Michael Shellenberger, Apocalypse Never, HarperCollins, 2020, 
269; Rachel N. Lipari and Eunice Park-Lee, Key Substance Use and Mental 
Health Indicators in the United States: Results from the 2018 National 
Survey on Drug Use and Health, Substance Abuse and Mental Health 
Services Administration, US Department of Health and Human Services, 
2019; ``Adolescent Mental Health in the European Union,'' World Health 
Organization Regional Office for Europe, Copenhagen, Denmark.
---------------------------------------------------------------------------
    In reality there is a growing amount of good news about climate 
change. Deaths from natural disasters have declined over 90 percent 
over the last 100 years, and neither the IPCC nor any other reputable 
scientific body predicts that trend will reverse itself. We produce 25 
percent more food than we consume and experts agree surpluses will 
continue to rise so long as poor nations gain access to fertilizer, 
irrigation, roads, and other key elements of modern agriculture.\29\
---------------------------------------------------------------------------
    \29\ Michael Shellenberger, Apocalypse Never, HarperCollins, 2020, 
91; FAO, The future of food and agriculture--Alternative pathways to 
2050 (Rome: Food and Agriculture Organization of the United Nations, 
2018), 76-77.
---------------------------------------------------------------------------
    All else being equal, it would be best for global temperatures to 
remain stable. We should not want them to either rise or decline. The 
reason is because we have built civilization and protected natural 
areas based on current temperatures. But all else isn't equal. The 
cause of climate change is energy consumption, and energy consumption 
has been a critical part of rising resilience to disasters, greater 
food production, and the protection of the natural environment. As 
such, there has long been a debate over how much more we should pay for 
energy to reduce climate change.
    The good news is that recent and historical events show that 
economic growth can actually lower carbon emissions. Carbon emissions 
have been declining in the US for nearly a decade and a half thanks to 
the cheap natural gas, which made electricity cheaper than it otherwise 
would have been. In fact, experts have long recognized that while the 
early stages of a nation's industrialization can increase air 
pollution, later stages can lower it through cleaner-burning coal, 
natural gas, and nuclear energy. Those technologies and others allowed 
conventional air pollutants to peak in developed nations the 1960s and 
1970s. Among some nations, including Britain, France, and Germany, even 
carbon emissions peaked in the mid-1970s.\30\
---------------------------------------------------------------------------
    \30\ Michael Shellenberger, Apocalypse Never, HarperCollins, 2020, 
26.
---------------------------------------------------------------------------
    A new report by the International Energy Agency (IEA) forecasts 
carbon emissions in 2040 to be lower than in almost all of the IPCC 
scenarios.\31\ Part of the reason for lower anticipated future 
emissions and warming is the far greater abundance, and lower prices, 
of natural gas, which produces half the carbon emissions of coal.
---------------------------------------------------------------------------
    \31\ ``World Energy Outlook 2019'' (Paris: International Energy 
Agency, 2019), https://www.iea.org/reports/world-energy-outlook-2019.
---------------------------------------------------------------------------
    It is thus misleading to describe climate change as either a 
``crisis'' or ``emergency.'' When the US and Soviet Union nearly went 
to nuclear war over Cuba; when there was nearly a run on the banks in 
2008; when the coronavirus forced radical action to prevent millions of 
deaths earlier this year; each of those events, I believe, can be 
fairly described as crisis, a time of intense danger, or an emergency, 
which is not just serious but also unexpected. Climate change is real 
and we should continue reducing emissions through the use of natural 
gas and nuclear. But it is neither a crisis nor an emergency.
    Nor is climate change one of our most important environmental 
problems. The continued use of wood as fuel by two billion people; air 
pollution that shortens the lives of roughly seven million people per 
year; the decline of wild animal populations; and the loss of habitat 
for endangered species, are all more important and urgent environmental 
problems than climate change.
    I fear climate change has become a distraction from far more 
significant problems including the hollowing out of the middle-class by 
globalization and automation; our overdependence on China for 
pharmaceuticals, medical supplies, drones, and other manufactured 
products; the lack of sufficient housing in our major coastal cities; 
the intertwined drug addiction and mental health crises which increased 
annual overdose deaths from 17,000 to 70,000 since 2000; the extreme 
political polarization tearing our nation apart; and the active 
destruction of the US nuclear industry.
     iii. why nuclear energy is more important than climate change
    Anyone genuinely concerned about climate change, air pollution, or 
the impact of renewables on wildlife should advocate nuclear energy. 
Only nuclear can substitute for fossil fuels while maintaining and 
increasing levels of energy consumption required for universal human 
prosperity. Nuclear-heavy French electricity produces one-tenth the 
carbon emissions as renewables-heavy German electricity at nearly half 
the price. Nuclear is not only the safest way to make electricity, it 
has actually saved two million lives, according to the best available 
research. And nuclear requires less than one percent of the land 
required by solar and wind projects.\32\
---------------------------------------------------------------------------
    \32\ A selection of the literature on public health benefits of 
nuclear energy, and the consequences of its closure: Anil Markandya and 
Paul Wilkinson, ``Electricity Generation and Health,'' Lancet 370, no. 
9591 (September 2007): 979-990, https://doi.org/10.1016/S0140-
6736(07)61253-7; Anthony J. McMichael, Rosalie E. Woodruff, and Simon 
Hales, ``Climate change and human health: present and future risks,'' 
Lancet 367, no. 9513 (March 2006): 859-869, https://doi.org/10.1016/
S0140-6736(06)68079-3; ``Ambient Air Pollution: a global assessment of 
exposure and burden of disease,'' World Health Organization, 2016, 
https://apps.who.int/iris/handle/10665/250141; ``Nuclear Waste State-
of-the-Art Report 2016: Risks, uncertainties and future challenges,'' 
Swedish National Council for Nuclear Waste, 2016, https://
www.government.se/49bbd2/contentassets/
ecdecd2ee26c498c95aaea073d6bc095/sou-
2016&lowbar;16&lowbar;eng&lowbar;webb.pdf; Pushker Kharecha and James 
E. Hansen, ``Prevented Mortality and Greenhouse Gas Emissions from 
Historical and Projected Nuclear Power,'' Environmental Science and 
Technology 47, no. 9 (March 2013): 4889-4895, https://doi.org/10.1021/
es3051197; Edson R. Severnini, ``Impacts of nuclear plant shutdown on 
coal-fired power generation and infant health in the Tennessee Valley 
in the 1980s,'' Nature Energy 2 (April 2017), doi:10.1038/
nenergy.2017.51.
---------------------------------------------------------------------------
    The US has for much of the past 60 years been the global leader in 
the development and building of nuclear plants around the world. In 
1953, President Dwight D. Eisenhower gave his famous ``atoms for 
peace'' speech at the United Nations where he pledged that the US would 
help nations use nuclear energy to lift themselves out of poverty. 
Today, nine out of every ten gigawatts of global nuclear capacity today 
is descended from designs invented and commercialized by the United 
States. American nuclear reactor designs today operate in leading 
nuclear countries like China, France, South Korea, Japan, and the 
United Kingdom. American reactors operated in the US are the best in 
the world, operating 93 percent of the time.
    Because of the inherently dual military-civilian nature of nuclear 
energy, Congress and most presidential administrations have long viewed 
America's nuclear power plants, and our involvement in the nuclear 
energy programs of other nations, as top national security priorities. 
Thanks to American leadership, nuclear energy has proven to be the 
safest and cleanest way to make electricity. And, for 75 years, nuclear 
energy has been used solely for peaceful purposes.
    But now, the US is building just one nuclear plant at home and none 
abroad, allowing China and Russia to dominate the market for nuclear 
power plant construction. Nations seeking nuclear energy today include 
Argentina, Bangladesh, Belarus, Bolivia, Brazil, Bulgaria, the Czech 
Republic, Egypt, Finland, Ghana, Hungary, India, Jordan, Kazakhstan, 
Kenya, Mexico, Nigeria, Pakistan, Poland, Saudi Arabia, Slovakia, South 
Africa, Sudan, Turkey, the UAE, the UK, Uzbekistan, and Zambia, among 
others.
    In the seven months that have passed since the last time I 
testified before Congress, China has stepped up its genocide of its 
Muslim minority and Russia has modified its constitution to allow its 
president to serve for decades longer. I greatly admire the Russian and 
Chinese nuclear energy programs, and indeed believe they represent the 
standard against which the US must compete. But their rejection of 
liberal democracy and human rights are profoundly troubling for the 
future of nuclear energy and the world.
    Nations that decide to work with China and Russia rather than the 
United States or other liberal Western democracy will effectively 
become part of their sphere of influence. Nuclear power plants are 
enormous construction projects, and thus marry large construction 
firms, financial institutions, and governments, in the way that only 
large projects can do.
    But beyond those economic ties are national security ones. The line 
between soft power and hard power runs through nuclear energy. The 
creation of a scientific and technical workforce capable of creating 
nuclear energy brings nations closer to being able to one day create 
nuclear weapons. It is thus logical that nations gain a national 
security benefit simply from having nuclear plants.\33\ If nations are 
in partnership with Russia or China in building nuclear plants, they 
could one day be in partnership with those countries in other ways.
---------------------------------------------------------------------------
    \33\ Matthew Fuhrmann et al, ``Almost Nuclear: Introducing the 
Nuclear Latency Dataset,'' Conflict Management and Peace Science, 
January 8, 2015.
---------------------------------------------------------------------------
    For the US to compete in building nuclear plants abroad we must 
build them at home. While the nuclear industry deserves great credit 
for the continuous improvement of power plant safety and efficiency, 
many utility executives are either resigned to the technology's decline 
or engaged in wishful thinking about inventing new families of reactor 
technology.
    The reason nations and utilities opt for large light-water reactors 
is because they produce the cheapest electricity. What makes nuclear 
cheaper are larger reactors, since they do not require correspondingly 
larger workforces, and extensive experience building and operating 
them. But even if nations were to eventually opt for smaller reactors, 
they would likely purchase them from the nations that offer the most 
favorable financial terms while having the most experience building 
reactors, which today are China and Russia.
    If the US were to decide to compete with China and Russia, it 
should consider deepening partnerships with other members of the 
Western Alliance, and ending imports of uranium from Russia. It might 
have made sense 20 years ago for the US to ensure the stability of the 
Russian nuclear industry through purchases of its uranium. But with 
Russia out-competing the US on new nuclear plant construction, and 
engaging in cyber attacks on our electrical grid, it is not clear how 
it any longer makes sense for the U.S. to import uranium from Russia. I 
thus applaud steps by the Department of Energy to end reliance on 
imported Russian uranium.\34\
---------------------------------------------------------------------------
    \34\ John Funk, ``DOE targets end to US reliance on Russian nuclear 
fuel, revived domestic capability,'' Utility Dive, July 20, 2020.
---------------------------------------------------------------------------
    Given all of that, I would like to pose three questions. First, is 
it in the interest of American taxpayers to subsidize US electric 
utilities to operate nuclear plants in the absence of any commitment to 
build new ones? Second, does Congress believe the US can compete with 
China and Russia while shutting down half to two-thirds of its nuclear 
plants? Third, is Congress really comfortable standing by and watching 
dozens of nations partner with China and Russia to expand their use of 
nuclear technology over the next century?
    If the answer to the latter question is yes, Congress should inform 
the American people that it has decided to cede America's historic role 
as creator, promotor, and steward of the world's most sensitive dual-
use technology to our main geopolitical rivals.
    In the face of nuclear energy's leadership vacuum in the U.S., I 
urge Congress to consider creating a Green Nuclear Deal as a revision 
to the Atomic Energy Act that would restore America's nuclear 
leadership at a global level. The goal should be nuclear energy 
dominance. The U.S. government should encourage the building of large, 
standardized nuclear plants at home, and export its natural gas abroad. 
Doing this would require identifying a national champion company to 
compete with the state-owned companies of Russia and China, and the 
president working to sell U.S. nuclear plants abroad, just as the 
leaders of China and Russia do.
    In the 1950s, members of Congress who understood the sensitive and 
special nature of the technology urged the White House to make 
America's dominance of nuclear energy a top national security priority. 
I hope all of you would consider doing so again today.
    Thank you again for the opportunity to testify. I look forward to 
your questions.

    Ms. Castor. Ms. Soholt, you are recognized for 5 minutes.

                    STATEMENT OF BETH SOHOLT

    Ms. Soholt. Thank you, Madam Chairwoman Castor, Ranking 
Member Graves, and distinguished committee members.
    My name is Beth Soholt, and I am the Executive Director of 
the Clean Grid Alliance. I am here today to offer some thoughts 
from America's heartland, the renewable-energy stronghold of 
the country, where we are seeing renewable energy deployed 
cost-effectively and reliably.
    I am here testifying today in support of the Macro Grid 
Initiative. MGI is a national effort led by the American 
Council on Renewable Energy and Americans for a Clean Energy 
Grid, in partnership with organizations including the American 
Wind Energy Association and the Solar Energy Industries 
Association.
    The Macro Grid Initiative advocates expanding and upgrading 
the nation's transmission network to deliver job growth and 
economic development, a cleaner environment, and lower cost for 
consumers.
    The pursuit of a macro grid, an interregionally connected 
backbone for the nation's transmission grid, is essential for 
the United States to achieve its climate goals and charge up 
the economy.
    Over the last 20 years, I have seen firsthand the multiple 
benefits new grid infrastructure brings to a region. 
Communities that host renewable projects receive new and needed 
revenue; engineers, electricians, and local labor folks are put 
to work in good-paying jobs; customers get clean, affordable 
power; and electric utilities get investment opportunities.
    So let's talk about the Macro Grid. The Macro Grid vision 
includes expanding the interregional high-voltage transmission 
system, tightening up the seams that exist between the various 
transmission operators, and adding a network of high-voltage 
direct current lines that could deliver significant carbon 
reduction.
    A Macro Grid enables carbon emissions reductions of nearly 
80 percent while saving consumers up to $47 billion annually 
and returning more than $2.50 for every dollar invested.
    Most importantly, the Macro Grid vision builds upon the 
success that we have seen expanding and updating the grid in 
certain regions of the country. But the Macro Grid vision will 
require a modernized policy and regulatory environment to 
recognize the substantial nationwide benefits of new regional 
and interregional transmission.
    So what are the benefits to expanding the high-voltage 
transmission system?
    First, job creation. Constructing transmission lines brings 
a lot of good-paying jobs. Transmission is generally built 
using organized labor, project labor agreements, and prevailing 
wage standards. I have an example in my testimony of the jobs, 
both direct, indirect, and induced, that would be created from 
a substantial build-out of 100 gigawatts' worth of 
transmission. But these jobs are in addition to the jobs that 
are created from wind and solar project development, 
manufacturing wind turbines and component parts, and supply 
chain jobs.
    Second, economic growth and development. Constructing new 
transmission lines provides an economic engine for the nation's 
economy. There is an example of Midwest utilities working 
together through the CapX2020 initiative. The major build-out 
of 5 new transmission lines, 800 miles of new transmission, was 
a $2 billion project that resulted in $4 billion worth of 
economic impact in the region, $150 million paid in State and 
Federal taxes, 8,000 jobs at the peak of construction, and 
returned $1.93 worth of benefit to electric utility customers 
for every dollar invested. So, you see, developing transmission 
is truly an economic engine that drives business here in the 
United States.
    Finally, I want to talk about competitiveness. Mr. 
Shellenberger mentioned China and other countries. In the 
United States, and around the world, manufacturers and energy-
intensive technology industries, such as data centers, can 
locate their operations anywhere. What they are asking for is 
low-cost, carbon free electricity. A number of utilities have 
put in place ambitious carbon reduction goals. Renewable energy 
with transmission enables the demands of these corporate energy 
users and utilities to be met.
    In addition, the U.S. is competing globally with countries 
like China. China has recently jumped past the American grid 
build-out success with their own much higher voltage DC 
superhighway.
    And so, as the committee and your colleagues craft 
legislation, I urge you to make electric grid infrastructure 
policies a bipartisan priority.
    I commend the Select Committee's majority report for its 
recommendations to create a national policy on transmission, 
encourage FERC to develop an infrastructure strategy, improve 
transmission planning, and remove barriers to transmission 
permitting.
    As I have seen firsthand in my work in the Midwest, 
transmission enables electric utilities, businesses, customers, 
workers, communities, and the environment to not only survive 
but thrive. Most importantly, building a Macro Grid can help 
the nation address the climate crisis and bring the multiple 
benefits I have outlined in my testimony.
    Thank you, and I look forward to questions.
    [The statement of Ms. Soholt follows:]

              A Macro Grid Vision to Achieve the Nation's 
              Climate Goals and ``Charge Up'' the Economy

       Beth Soholt, Executive Director, Clean Grid Alliance (CGA)

          For CGA, the American Council on Renewable Energy, 
                 and Americans for a Clean Energy Grid

     Testimony to the House Select Committee on the Climate Crisis

                             July 28, 2020

    Good afternoon and thank you for the opportunity to testify on this 
extremely important topic. I am honored to appear before the Select 
Committee to bring thoughts and ideas from the Midwest--America's 
renewable energy heartland.
    My name is Beth Soholt. I'm the Executive Director of the Clean 
Grid Alliance, and I am testifying today in support of the Macro Grid 
Initiative (MGI), a national effort led by the American Council on 
Renewable Energy and Americans for a Clean Energy Grid committed to 
expanding and upgrading the nation's transmission network to deliver 
job growth and economic development, a cleaner environment, and lower 
costs for consumers.
    The pursuit and achievement of a Macro Grid--an interregionally 
connected backbone for the nation's transmission grid--is essential for 
the United States to achieve its climate goals and ``charge up'' the 
economy. A Macro Grid can deliver renewable energy from the resource to 
load, enhance grid resiliency, and dramatically reduce carbon emissions 
by spurring a large amount of renewable energy development.
    Over the last 20 years, I have seen firsthand the multiple benefits 
new grid infrastructure--like high voltage transmission lines--brings 
to a region rich in renewable energy resources. Communities that host 
wind and solar farms receive new and needed revenue in their counties 
and townships; engineers, electricians, and local labor folks are put 
to work in good-paying jobs; customers get clean, affordable power in 
their homes, businesses, farms and factories; and electric utility 
companies have infrastructure investment opportunities and a variety of 
renewable energy projects to choose from.
    I will cover three points in my testimony and take them in order:
    1.  The Macro Grid vision
    2.  Benefits of an expanded, upgraded transmission system
    3.  How Congress can advance policies for grid infrastructure to 
meet climate goals and stimulate the economy
    First, the Macro Grid vision.\1\ The Macro Grid endeavors to take 
advantage of the vast renewable energy resources across the country and 
deliver the clean energy to locations where it is needed.
---------------------------------------------------------------------------
    \1\ https://acore.org/macro-grid-initiative/
?mc&lowbar;cid=f0936965a0&mc&lowbar;eid=%5BUNIQID%5D

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Macro Grid vision includes expanding interregional high voltage 
transmission, tightening up the ``seams'' that exist between the 
various transmission operators, and adding a network of High Voltage 
Direct Current (HVDC) lines that could deliver significant carbon 
emissions reductions. A Macro Grid enables carbon emissions reductions 
of nearly 80 \2\ percent while saving consumers up to $47 billion 
annually\3\ and returning more than $2.50 for every dollar invested.\4\ 
The Macro Grid vision builds upon the success we have had expanding and 
updating the grid in certain US regions including MISO,\5\ \6\ SPP,\7\ 
CAISO, and ERCOT.\8\
---------------------------------------------------------------------------
    \2\ MacDonald, Clack, et al. Future cost-competitive electricity 
systems and their impact on US CO2 emissions, https://www.nature.com/
articles/nclimate2921
    \3\ MacDonald, Clack, et al. Future cost-competitive electricity 
systems and their impact on US CO2 emissions, https://www.nature.com/
articles/nclimate2921
    \4\ National Renewable Energy Laboratory, Interconnection Seam 
Study, https://www.nrel.gov/analysis/seams.html
    \5\ https://
---------------------------------------------------------------------------
cdn.misoenergy.org/
2011%20MVP%20Portfolio%20Analysis%20Full%20Report117059.pdf
---------------------------------------------------------------------------
    \6\ https://
---------------------------------------------------------------------------
cdn.misoenergy.org/
2011%20MVP%20Portfolio%20Detailed%20Business%20Case117056.pdf
---------------------------------------------------------------------------
    \7\ https://www.spp.org/engineering/transmission-planning/priority-
projects/
    \8\ http://www.ettexas.com/Projects/TexasCrez
    \9\ https://gridstrategiesllc.com/2020/07/27/transmission-and-jobs/
---------------------------------------------------------------------------
    Achieving the Macro Grid vision will require a modernized policy 
and regulatory environment at the federal, regional, and state levels 
that recognizes the substantial nationwide benefits of new regional and 
interregional transmission. We urge the Select Committee to make 
achieving the Macro Grid vision a priority as you craft climate change 
and stimulus legislation.
    Second, what are the benefits to expanding the high voltage 
transmission system? In addition to spurring robust renewable energy 
development that would yield significant carbon reductions, there are 
major economic benefits to grid expansion.
         Job Creation--Constructing transmission lines creates a lot of 
good paying jobs. Transmission is generally built using organized 
labor, Project Labor Agreements and prevailing wage standards. As an 
example, to build 100 GW worth of transmission delivery capacity, about 
$75 billion in transmission infrastructure would be needed. That would 
create around 600,000 direct jobs and 1.5 million direct, indirect and 
induced jobs.\9\ These jobs are in addition to jobs created from wind 
and solar project development, manufacturing wind turbines and 
component parts, and supply chain for wind and solar projects.
---------------------------------------------------------------------------
    \9\ https://gridstrategiesllc.com/2020/07/27/transmission-and-jobs/
---------------------------------------------------------------------------
         Economic Growth and Development--Constructing new transmission 
lines provides an economic engine for the nation's economy. For 
example, the 11 Midwestern electric utilities that were part of the 
CapX2020 \10\ initiative built 5 major 345kV transmission lines located 
in North and South Dakota, Minnesota, and Wisconsin with the last line 
just finished a few years ago. Altogether, the 800 miles of new 
transmission was a $2 billion project that resulted in $4 billion of 
economic impact in the region, $150 million paid in state and federal 
taxes, 8,000 jobs at the peak of construction, and returned $1.93 worth 
of benefit to electric utility customers for every dollar invested.\11\ 
Developing transmission is truly an economic engine that drives 
business here in the United States.
---------------------------------------------------------------------------
    \10\ http://www.capx2020.com/
    \11\ http://www.capx2020.com/Gallery/movies/economic-benefits.html
---------------------------------------------------------------------------
         Competitiveness--Manufacturers and energy-intensive technology 
industries such as data centers can locate their operations anywhere in 
the world. The technology firms have been telling utilities and 
policymakers across the Midwest that they want a low-cost, carbon-free 
electricity supply. Responding to their customers and state policy, a 
number of utilities have put in place ambitious 80 to 100 percent de-
carbonization goals. Renewable energy with transmission enables the 
demands of these corporate energy users and utilities to be met. In 
addition, the U.S. is competing globally with countries who have also 
figured out that building big infrastructure to tap domestic resources 
is a path to economic growth and security. China, for example, recently 
jumped past the American grid buildout successes with their own much 
higher voltage DC superhighways connecting their resource areas to 
major population centers.
    Finally, as this Committee and your colleagues discuss and debate 
upcoming legislation, I urge you to make electric grid infrastructure 
policies a bipartisan priority. In that regard, I commend the Select 
Committee Majority Report for its recommendations to create a national 
policy on transmission and an ``American Supergrid,'' encourage FERC to 
develop an infrastructure strategy and improve regional and 
interregional planning, remove barriers to transmission development in 
the current state-by-state permitting regime, support federal financial 
resources to help right-size lines for the long term, and provide DOE 
funding and technical assistance for transmission planning.
    As I've seen firsthand in my work in the Midwest, transmission 
enables electric utilities, businesses, manufacturers, residential 
customers, workers, rural and urban communities and the environment to 
not only survive but thrive. Most importantly, building a Macro Grid 
can help the nation address the climate crisis AND bring the multiple 
benefits I've outlined in my testimony.
    Thank you and I look forward to answering any questions you may 
have.

    Ms. Castor. As a reminder to all of the members and to 
witnesses, please keep your video cameras on. If your camera is 
not on at the time we come to you, we will have to skip over 
you in the order of questions.
    So I will recognize myself for 5 minutes.
    I think American families and businesses are eager to move 
to the clean energy economy. And the ``Solving the Climate 
Crisis'' majority staff report calls for achieving a net-zero 
electricity grid by no later than 2040. To achieve that, we are 
going to need to rapidly deploy more renewables. We are going 
to have to modernize the grid and expand transmission capacity 
to get more renewables to the market. Fortunately, as Ms. 
Soholt testified, transmission construction creates a lot of 
good-paying, union jobs.
    Ms. Soholt, why is a Macro Grid, as you call it, a better 
approach for renewables and clean-energy deployment than the 
way we move electricity now?
    Ms. Soholt. Thank you, Chairwoman Castor, for the first 
question.
    We have a lot of work to do to modernize our electricity 
grid. And so achieving the Macro Grid vision will not only 
enable the benefits that I talked about, but it really enables 
the good resources to be able to get to the load. It is as 
simple as that. We need to connect the high wind and solar 
resource areas to the large load centers that need the power.
    And so we have reform of the way we go about paying for, 
planning, permitting infrastructure to be able to achieve the 
timeframes that the committee report talks about. So 2040 is an 
aggressive goal, given that there is so much work to be done. 
And so the Macro Grid provides a vision and the implementation 
of achieving that vision.
    Ms. Castor. And, Mr. Walsh, what is going to be key to 
having the workers to build this Macro Grid?
    I know in your testimony you state, we must reinvest in 
fortifying and transforming heavy industry and retooling to 
build more of the products, materials, and technologies of the 
future here and that manufacturing must be an integral part of 
any strategy.
    So why is that? Talk to us about what you see in the Macro 
Grid, the types of jobs that will be available, and what else 
in innovative, clean technologies for American workers.
    Mr. Walsh. Thank you, Chair Castor, for the question.
    I mean, first, let's start by just recognizing the 
industrial sector represents a pretty significant source of 
U.S. emissions. And, actually, if you distribute electricity to 
its economic end use, the industrial sector is the largest 
source of emissions in the United States. And it is also the 
fastest growing over time, both domestically and globally. So, 
from a climate perspective, we have to focus on how we reduce 
emissions from this sector.
    At the same time, these industries are essential to produce 
the materials and components for the Macro Grid and other 
technologies for our infrastructure, and they are absolutely 
essential for producing the goods that constitute modern life. 
They are enormously important economically. Manufacturing 
directly employs about 1 in 11 American workers, and 
contributes $2 trillion a year to the gross domestic product.
    This is also an issue of global economic competitiveness, 
as you have touched on. Global investments in clean energy, 
transportation infrastructure technologies, are forecast to 
reach into the tens of trillions of dollars over the next three 
decades, representing both a powerful opportunity for job 
creation and economic growth. It is also a serious risk if 
American workers and companies get left behind.
    So the bottom line, from our perspective, is, prioritizing 
investments in U.S. manufacturing will not only reduce 
greenhouse-gas emissions, but it will also create and retain 
good jobs, for two primary reasons.
    One, a significant proportion of emission reductions can be 
realized simply by reducing energy waste, which saves money 
that manufacturers can otherwise use for workforce and capital 
investments and which also supports jobs through the 
installation of energy efficiency technologies.
    And, second, the U.S. manufacturers' ability to produce 
clean technologies and to use cleaner products and processes 
will make them more competitive in a global economy in which 
market demand is shifting inexorably in that direction.
    And it is our sense that if we manufacture clean products 
and manufacture all products cleaner, we position U.S. 
manufacturers to be in the pole position for the most important 
economic development race globally over the next few decades.
    I will make one more point, which is that, when we reduce 
the industrial sector greenhouse-gas emissions, we can also 
reduce other sources of pollution that disproportionately 
impact fenceline communities. So a clean manufacturing agenda 
will also directly combat environmental injustice.
    Ms. Castor. Thank you, Mr. Walsh.
    Next, Ranking Member Graves, you are recognized for 5 
minutes.
    Mr. Graves. Thank you, Madam Chair.
    I appreciate all of your testimony and consider it helpful.
    Mr. Shellenberger, you, I believe, are in California. The 
model that the committee report is based upon largely appears 
to be the California model.
    I mentioned in my opening statement that the State of 
California, I believe, is the 44th greatest emissions-reducing 
state, or near the bottom. And yet I know, for example, the gas 
prices are 52 percent higher this month in California than they 
are in Louisiana. I know that their electricity costs are more 
than double the cost that we pay in my home state. And, for the 
record, I think I paid $1.52 a gallon when I gassed up a few 
weeks ago, and so very, very low gas prices.
    If you were in charge, you are a dictator, you are in 
charge of putting forth, proffering an energy strategy, an 
emissions reduction strategy, what do you think is missing or 
how would you do things differently based upon more science and 
your experience with different technologies, again, if you were 
in charge, with an energy policy that achieved emissions 
reductions?
    Mr. Shellenberger. Yeah, I live in California, and our 
electricity prices rose six times more than in the rest of the 
United States since 2011 because of the expansion of renewables 
and transmission lines. Between 2011 and 2018, our industrial 
electricity prices rose 32 percent.
    So I share Mr. Walsh's view that America needs a new 
industrial capacity, but we are not going to be able to compete 
with China or our rival with expensive energy. And as a 
reminder, that is what killed cap and trade in 2010 in the 
Senate, was concern from Midwest Democrats that higher 
electricity prices would undermine global competitiveness. Of 
course it would.
    California is not even a leader on climate change. Our 
carbon emissions rose 3.5 percent between 2011 and 2016 even as 
they declined 5 percent in the rest of the United States. So 
the pure reason is because we are doing what Germany has done. 
We are shutting down our nuclear plants, scaling up renewables.
    If you want just two real world comparisons, Germany spends 
almost----
    Mr. Graves. I can't see the time.
    Mr. Shellenberger [continuing]. As much for electricity as 
France, and its electricity is 10 times more carbon-intensive.
    So, I mean, this is not that complicated. If you want to 
replace fossil fuels, you need to replace them with a reliable 
source of electricity. The only scalable form of zero-carbon 
electricity is nuclear power, and it is being killed off mostly 
in Democratic States. They are just shutting down Indian Point 
in New York--a perfectly fine, safe, wonderful nuclear plant in 
New York. We are shutting down Diablo Canyon in California.
    I appreciate the efforts to do R&D on nuclear, but the 
Chinese and Russians are selling nuclear to literally two or 
three dozen countries around the world. Every country that 
worked with China and Russia will be in China and Russia's 
sphere of influence. The United States is hoping to leapfrog to 
some radically different nuclear technology, but China and 
Russia are helping those countries build the equivalent of 
large, light-water reactors that we are building in Georgia.
    So what I would do is I would say, look, we need to compete 
properly. That means that we need to compete with Chinese and 
Russian state-owned nuclear companies. We need a national 
champion. We do it differently in the United States; we have 
private companies. That would probably be something like 
Bechtel, which is involved in building two nuclear reactors in 
Georgia. After those workers get done building those two 
reactors, they could move up the road to South Carolina, 
complete construction of two reactors there in summer.
    And then, after that, we have construction crews--I mean, 
anybody that is apocalyptic about climate change should view 
the construction managers and workers at the Georgian nuclear 
plants as a national treasure, as an international treasure. 
Because it is these men and women who have the experience 
building our most complex form of energy and have the 
experience to compete with experienced Russian and Chinese 
crews all over the world.
    This should be a serious national priority. I think we are 
just sleepwalking into a disastrous situation where our 
economic rivals, but also our global security rivals, are 
pursuing nuclear aggressively while we are withdrawing from it, 
not just globally but also domestically.
    And then I would just say one final thing, Congressman, is 
that, clearly, the winning combination for energy dominance is 
to do what the Russians and the United Arab Emirates are 
planning on doing, which is to build nuclear plants to replace 
natural gas and fossil fuel usage at home, and then you export 
your natural gas abroad. That gives additional geopolitical 
power and significant revenue for American businesses and 
workers.
    Mr. Graves. And reduces global emissions.
    Mr. Shellenberger. And significantly reduces global 
emissions. I mean, the great news is that there is so much 
abundant natural gas there is no reason that we are going to 
need to see any significant increase in coal burning over the 
next century.
    Mr. Graves. Thank you.
    And a last quick question--thank you very much, Mr. 
Shellenberger--for Mr. Walsh. I, too, share a lot of the 
objectives that Mr. Walsh communicated. But, in looking at the 
strategy--Mr. Walsh, you largely represent labor.
    Number one, the Biden climate plan, which largely reflects 
the one the committee put forth, it didn't include any labor 
representatives, any business representatives in the team that 
was devising that plan, putting it together.
    Secondly, right now, we are 100--I want to remind folks--if 
you can go on mute, that would be great. I want to remind 
folks, in China, we are dependent upon China for 17 critical 
minerals today. Eighty percent of the rare earths we are 
dependent upon China for.
    Do you believe that labor should have been represented on 
the Biden task force?
    And, number two, do you believe that we should increase our 
domestic production of these critical and rare earths here in 
the United States to ensure that we are creating jobs right 
here in America?
    Mr. Walsh. Thank you for the two-part question, 
Representative Graves. Let me attempt to address the first one, 
and hopefully I will have time for the second.
    So I believe you are referring to the Biden Unity Task 
Force. I am trying to remember now who was on that task force, 
but, if I remember correctly, a task force that includes 
Representative McEachin, Chair Castor, Representative Lamb of 
Pennsylvania, and Representative Ocasio-Cortez represents a 
pretty good diversity of viewpoints within the Democratic 
Party.
    I think that the breadth of perspective is reflected in 
their recommendations, which, again, I am trying to remember 
off the top of my head, but they include protecting clean air 
and clean water in our public lands, strengthening 
environmental justice, rebuilding our infrastructure, 
dramatically expanding clean-energy deployment, ensuring job 
quality in clean energy sectors. These are broadly popular 
positions with the American public, and not just----
    Mr. Graves. Sure. And just to clarify the record, there 
were four environmentalists that were on the task force in 
addition to folks you mentioned, yet no labor or business 
representatives. But please continue.
    Mr. Walsh [continuing]. With----
    Ms. Castor. The time has expired. But it gives me an 
opportunity to thank Ranking Member Graves for his concern over 
the Democratic platform. We usually don't talk politics on 
these calls. But don't worry. Yesterday, the platform committee 
passed the platform, and it was rife with labor 
representatives. I will send you over the list.
    And this also gives me an opportunity--I was going to hold 
this unanimous consent request until later, but I think it is 
important to do now to make sure it is on the record, in 
response to claims that renewables increase energy costs.
    The International Renewable Energy Agency recently reported 
that electricity costs from renewables, such as solar and wind, 
have decreased dramatically over the last decade, resulting in 
renewable power generation technologies becoming the least cost 
new technology, new capacity options in almost every part of 
the world.
    Moreover, on average, building new solar voltaic and on-
shore wind power costs less than operating many existing coal 
plants.
    So, without objection, I would like to enter into the 
record the IRENA report titled ``Renewable Power Generation 
Costs in 2019.''
    Mr. Graves. Madam Chair, reserving the right to object, as 
I recall, at our last hearing, there was an objection on our 
unanimous consent requests in order to review those documents. 
And so I would like to allow the minority the same right for 
these documents, if you don't mind.
    And if those are the most cost-competitive, then perhaps we 
could remove the PTC and ITC.
    Ms. Castor. I think it would be very helpful if you would 
read the report.
    So, at this time, I will recognize Mr. Lujan for 5 minutes.
    Mr. Lujan. Thank you so much, Madam Chair.
    Mr. Walsh, do Americans have to choose between creating 
good jobs and protecting the environment?
    Mr. Walsh. Thank you for the question, Congressman Lujan.
    No, they do not. That is, in fact, a false choice. We can 
and we must have both.
    There are numerous instances in the committee's report that 
I think show this powerfully. I think it is particularly 
interesting to look at some of the job creation estimates 
associated with reaching a 90-percent or 100-percent carbon-
free grid by 2040, right, where we look at job estimates that 
are in the neighborhood of half a million annually. Those are 
significant.
    We also have to pay attention to job quality. We have to 
protect the rights of workers to organize. We need to include 
very clear prevailing wage and Buy America standards. We don't 
do that well enough to date, and we need to do it better, 
particularly in our use of tax credit policy.
    But we can most certainly create good jobs, sustain good 
jobs, and protect our climate and create a living environment 
for everybody.
    Mr. Lujan. Mr. Walsh, can you share some examples of good, 
union jobs in the clean energy sector?
    Mr. Walsh. Well, there are many. One of my favorite 
examples is the offshore wind farm, the first grid-connected 
offshore wind farm in the country, off of the State of Rhode 
Island, at Block Island. That was a very small wind farm; it is 
now producing 50 megawatts. But it created jobs for 300 
building trade workers across 10 different local unions under a 
project labor agreement.
    Keep in mind, that is a very small project, whereas we now 
have states up and down the mid-Atlantic and northeastern coast 
that have teed up commitments for 20 gigawatts of offshore 
wind. The job creation estimates of that on an annual basis 
range anywhere from 122,000 to a little over 200,000 jobs per 
year.
    Mr. Lujan. Appreciate that. Thank you, Mr. Walsh.
    Dr. Baptista, I am one of the co-authors of the Clean 
Energy Standard Act. I was proud to partner with my colleagues 
in the House and with United States Senator Tina Smith. We know 
that a nationwide clean electricity standard also means less 
air pollution and healthier communities and longer lives.
    Dr. Baptista, what can America do to ensure that 
underserved frontline communities, who we know are suffering 
from air pollution, benefit from a nationwide clean energy 
standard?
    Dr. Baptista. Thank you, Representative Lujan.
    I believe that when we shift to clean energy sources, like 
wind and solar, in our energy production, we also have the very 
immediate benefits of reducing co-pollutants, those pollutants 
like particulate matter that have health harming impacts in 
near-adjacent communities to these energy-producing facilities.
    And when we look across the country, we know that much of 
the infrastructure, the current infrastructure, fossil fuel 
infrastructure in the country resides in communities of color 
and low-wealth communities, who are impacted not only by the 
global greenhouse gases that come from traditional fossil fuel 
energy production but the co-pollutants that have immediate 
health impacts on those communities.
    And so, when we talk about a national clean energy standard 
and the shifting of our energy production to cleaner sources, 
like wind and solar, what we see is a concomitant reduction in 
air pollutants that harm people today. So this is very, very 
important that we insist on the driving down not only of 
CO<INF>2</INF> but of these co-pollutants that have health 
impacts on local communities.
    And, furthermore, we know that, as we shift to renewable 
energy sources, there are also opportunities created in 
communities of color and low-income communities that have 
historically not had the same opportunities for employment in 
these traditional industries. And new opportunities can open up 
for both economic development and an improvement in air quality 
and public health for communities that have been hard-hit by 
economic and environmental harms in the past.
    Mr. Lujan. Thank you, Dr. Baptista.
    Madam Chair, as the clock winds down here, it is good to 
hear the ranking member's support for union jobs across the 
country.
    I look forward to partnering with you, Mr. Graves, and 
seeing what pro-union legislation we can work on together.
    My father, my late father, was a union ironworker. My 
brother is IBEW; my grandfather, a union carpenter. So it is 
good to see that we can find some bipartisan support there, 
Madam Chair, and do look forward to working with all my 
colleagues as we move forward.
    Thank you to all the panelists.
    Mr. Graves. Absolutely.
    Ms. Castor. Thank you, Mr. Lujan.
    And, Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Well, thank you, Madam Chair.
    And, Mr. Lujan, thank you very much for that. My father was 
a union paper maker. So it is not something that is unique to 
just Democrats; it is also something that Republicans enjoy as 
well.
    Madam Chair and members of the panel, it seems that we have 
been focusing a lot on the economics of this and the economics 
of the clean energy. And I am a little bit confused here when I 
hear the chairlady mention that renewable energy is so much 
cheaper than traditional energy and then I hear the ranking 
member cite examples of how much more expensive in California 
the petroleum is, how much more expensive the energy is, and 
the two of them just don't seem to jive. So I am a little bit 
confused there.
    But I do want to mention that the majority staff's report 
that came out, it is obvious it would make it even more 
expensive and difficult in the U.S. to be competitive with 
energy prices than it would elsewhere. And that means that more 
jobs would go to China and that means that more jobs would go 
to areas that are not as environmentally conscious as we are 
here in the U.S.
    In fact, it is estimated that, within the next decade, 90 
percent of all the emissions will come from outside the U.S. 
And one of the ways that the majority staff's report suggests 
that we should counter that is with the carbon tax that 
advocates for border adjustment mechanisms, such as the carbon 
tax, so that we can level the playing field.
     I wanted to ask you, Mr. Shellenberger, do you think that 
that is really an effective way to encourage other nations to 
reduce their emissions?
    Mr. Shellenberger. Yeah, thank you. And I also would like 
to address that, because there is--first of all, if solar and 
wind are cheaper than existing energy sources, why would they 
need subsidies? Why would they need to be mandated? I think 
that somebody needs to address that issue. In other words, why 
would we spend $2 trillion on solar and wind, and the 
transmission lines, if they are already cheaper than existing 
energy sources?
    The second issue is that they are not. And so what they are 
measuring is, if you take a solar panel, buy a solar panel from 
China and you measure the cost of that electricity at that 
moment, yes, it is cheaper than the existing grid, but that 
solar panel doesn't provide reliable electricity.
    And so the economic and environmental costs of industrial 
solar and wind projects are externalized, first, onto the 
natural environment--you are talking 300 to 400 times more 
land--second, onto ratepayers, who have to pay to have other 
power plants operating or some other kind of way to store that 
electricity so you can have reliable electricity.
    That is the mechanism that the University of Chicago and 
other analysts have all identified as why renewables-heavy 
states and countries, like California and Germany, have much 
more expensive electricity.
    On the issue of the carbon tax, you know, I personally 
would have no problem with a very low price on carbon, you 
know, somewhere between $1 and $5 per ton, if that money were 
used to benefit something positive. Because, you know, it is 
not a bad thing to tax bads and invest in goods. But that is 
not going to drive energy transitions.
    What drives energy transitions, whether from wood to coal 
or wood to hydroelectricity or coal to natural gas, is the same 
thing that drove the energy transition from coal to natural gas 
in the United States, which is that the cost of natural gas 
came down because we opened up shales for fracking and so 
natural gas became cheaper than coal. That is the mechanism. We 
didn't subsidize natural gas into becoming cheaper than coal. 
We also didn't tax coal to becoming much more expensive than 
natural gas.
    So I don't think we need to be super rigid about it. I 
mean, if there were some broader compromise where there was 
some price on carbon that benefited positive things, great. But 
I think it is silly to imagine that making fossil fuels 
slightly more expensive is going to somehow make the difference 
between it and significantly cleaner sources of energy.
    Mr. Carter. Good.
    Mr. Shellenberger. If you want a national nuclear program, 
we need a national nuclear program, full stop. If we want to 
transition from coal to natural gas, we need to make natural 
gas cheaper.
    Mr. Carter. I want to jump on that. I have just a few 
seconds left. But you mentioned the nuclear plants, and you 
mentioned in Georgia. It is right above my district in Georgia.
    And my question is, what is the biggest hurdle to nuclear 
energy in America? Why is it that even environmentalists are 
opposed to nuclear energy, when we know that it is green, we 
know that it is one of the cleanest forms of energy out there?
    Mr. Shellenberger. Well, I think one of the big reasons is 
because, if you do a lot of nuclear power, you don't need any 
renewables. I mean, France shows that you can do 75 percent 
nuclear of your electricity grid. Like I said, France's 
electricity is 10 times less carbon intensive than Germany's, 
and they spend a little bit more than half as much for their 
electricity. These are two real world cases that last over 
decades.
    So, if you are absolutely in love with renewables and you 
think they are a way to harmonize human civilization with the 
natural world, which they are not, then nuclear is a threat to 
that vision. If you are trying to get control over the energy 
economy, nuclear is a threat to that vision.
    There are still lingering concerns about nuclear weapons, 
but the fact of the matter is, the United States already has 
nuclear capability. It is not like it is going to change that.
    So there is also--in my book, ``Apocalypse Never,'' I 
describe the history of how the Democrats have opposed nuclear 
power for a long time for, I think, reasons that don't have 
much to do with the environment at all.
    Mr. Carter. Okay.
    I am out of time. Thank you for your indulgence, Madam 
Chair. Thank you, and I yield back.
    Ms. Castor. Well, thank you, Mr. Carter.
    And two things that the gentleman from Georgia forgot: one, 
all the timber in your state and all of the solar energy as 
well.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you so much, Madam Chair.
    And thank you to all of our witnesses today.
    We are in an unprecedented moment in our nation's history. 
With coronavirus cases surging and unemployment rates climbing, 
our communities are having these long overdue conversations 
about systemic racism. But even in this moment in history when 
our communities are struggling and we have inequities that are 
exacerbated and highlighted, the climate crisis is continuing, 
and we cannot and must not wait any longer to take action.
    And I am proud of this bold, science-based, comprehensive 
climate action plan. Building a resilient, clean energy economy 
using our climate action framework is going to boost our 
economic recovery at a time when we desperately need it but 
also allow us to begin to repair the legacy of environmental 
racism and pollution that has disproportionately burdened low-
income communities and communities of color for decades.
    And I want to start with Mr. Walsh. We really appreciated 
the BlueGreen Alliance's engagement in drafting the climate 
action plan and your work to highlight the economic 
opportunities of addressing the climate crisis.
    So, as a leader on the Education and Labor Committee and 
the granddaughter of a coal miner, I know that how we 
transition to a clean energy economy and support workers is as 
important as the transition itself. So I am working on the 
recommendation that we have that you mentioned in your 
testimony, to create a national economic transition office. I 
am working on that as a stand-alone bill.
    So I want to ask, what are the most effective strategies to 
help workers prepare for those future transformations and avoid 
displacement? And how could a centralized office better help 
displaced or dislocated workers access the targeted support 
services and resources they need?
    Mr. Walsh. Thank you for the question, Congresswoman. It 
acknowledges that America is already in the middle of an energy 
transition, right? And we need to have a conversation and we 
need to enact policies that get ahead of this transition, and 
we need to do it now.
    I mentioned in my testimony the ``National Economic 
Transition Platform,'' which outlines a set of policy 
recommendations focused on communities and workers hit hard by 
the decline of the coal industry, where that transition is most 
impactful at this point.
    One of the key ideas put forward in that platform, as you 
mentioned, is the need for a new Federal office that would 
align, scale up, and target Federal resources for affected 
workers and communities and coordinate across different 
agencies within the Federal Government, particularly agencies 
that are focused on economic and workforce development.
    We think creating an office of economic transition--call it 
what you want--is really key. In addition to synchronizing and 
aligning efforts across the Federal Government, it can also 
leverage new public- and private-sector investments.
    And we also think this is an office that should be guided 
by an advisory board that is reflective of affected stakeholder 
groups and communities, including labor and local leaders.
    The recommendations to create----
    Ms. Bonamici. Absolutely.
    Mr. Walsh [continuing]. To create that kind of office are--
we also have six other recommendations, and I am happy to share 
those with you when we have more time.
    Ms. Bonamici. Terrific. Thank you so much.
    And, Dr. Baptista, I appreciate in your testimony you 
noted, ``Without an intentional focus on equity and justice, we 
will replicate the same disparities.''
    So, throughout our conversations with the Affiliated Tribes 
of Northwest Indians and the National Congress of American 
Indians, we identified exclusionary provisions in Federal 
funding programs for Tribal nations. So the climate action plan 
will remedy those gaps and also better acknowledge traditional 
lands and waters that Tribes access under their treaty rights, 
and which the Federal Government's historical injustices and 
failure to honor those rights--we need to address those as 
well.
    So how have historical failures to invest in environmental 
justice communities and other underserved populations, how have 
they exacerbated inequities? And how can Congress better 
incorporate the principles of the ``Equitable and Just National 
Climate Platform'' in making future funding decisions?
    Dr. Baptista. Thank you, Congresswoman, for the question.
    I think it is really critical that we center equity and 
justice. The ``National Equitable and Just Climate Platform'' 
tries to really drive home this point, that we can't continue 
to reproduce the same status quo policies that often leave out 
communities of color and historically disenfranchised 
communities that have not have the same access to employment 
opportunities and different economic development scenarios.
    So we want to ensure that, as we move to a renewable 
economy, as we move to greener and healthier forms of 
manufacturing and production, that the communities that have 
been the sacrifice zones and have had to live with the harms of 
environmental pollution start to reap some of those benefits.
    And how do we do that? One of the key ways that we do that 
is early consultation and input from environmental justice 
stakeholders on the ground that know these issues very well. 
There are fenceline and frontline communities around the 
country who have deep knowledge in these areas. And also by 
ensuring that we have explicit targets for employment in low- 
and moderate-income communities and people of color 
communities.
    Ms. Bonamici. Perfect. Thank you so much.
    And I yield back. Thank you, Madam Chair.
    Ms. Castor. Thank you.
    Mrs. Miller, good to see you. You are recognized for 5 
minutes.
    Mrs. Miller. Thank you, Madam Chair.
    I don't think that there is any doubt that my State of West 
Virginia has taken the brunt of bad policy, unfunded mandates, 
and the Democrat regulatory agenda, which is evidenced by the 
impact on jobs in our coal communities.
    We have been fortunate, as jobs related to natural gas have 
increased in my state. Not only has natural gas provided new 
and high-paying jobs to Appalachia, it is a vital resource to 
our energy security, our national security, and to reducing 
global emissions.
    Dr. Baptista, Ms. Soholt, and Mr. Walsh, thank you all for 
being here today. I am glad that we have experts here before 
us.
    Do you all know how many cubic meters of natural gas the EU 
consumes each year? The answer is 457.2 billion cubic meters.
    Of the natural gas that Europe consumes, do you know what 
percentage of it comes from Russia? The percentage is 38.8 
percent.
    Does anyone know what total global carbon emissions were in 
2018? Thirty-three-point-three gigatons, or 33 billion metric 
tons.
    Now, if we can help our EU allies switch from dirty and 
dangerous Russian natural gas to cleaner and more secure 
American natural gas, global emissions could fall by more than 
62 million metric tons a year.
    Given the United States emitted 5.28 billion metric tons of 
carbon a year, we could effectively offset U.S. carbon 
emissions by 1.2 percent. This may not sound like a whole lot, 
but it would be like bringing down carbon emissions by almost 
50 percent in each and every one of our congressional 
districts.
    Just last week, I introduced a bill, the ESCAPE Act, or the 
Energy Security Cooperation with Allied Partners in Europe Act, 
and it is designed to reduce the influence of Vladimir Putin on 
our allies by promoting U.S. energy exports to Europe.
    Even if you don't care about our national interests, if you 
care about climate change, you should join me on this bill, as 
Russian natural gas exports to Europe have a lifecycle emission 
profile of at least 40-percent higher than U.S. LNG. If my 
colleagues believe the climate crisis to be urgent and dire, 
then I hope they will support my bill, which will have a 
massive and immediate positive impact on global carbon 
emissions.
    I yield back.
    Ms. Castor. Thank you, Mrs. Miller.
    Next, Rep. McEachin, you are recognized for 5 minutes.
    Mr. McEachin. Thank you, Madam Chair, and thank you for 
bringing today's hearing together.
    And to our distinguished panelists, we thank you for your 
time and your expertise.
    Dr. Baptista, thank you for your very kind written 
testimony where you mentioned the work of Chairman Grijalva and 
myself. That was very kind of you. It has been a pleasure 
working with him as well as many incredible leaders, including 
the members of the ``Equitable and Just National Climate 
Platform,'' to advance priorities that reduce emissions, 
improve public health, and stimulate economic growth.
    Jason Walsh, it is very good to see you. I have had the 
privilege of working with you over the past few years on 
policies to address our climate crisis in a way that creates 
and maintains high-quality jobs and ensures a just and 
equitable transition for communities.
    As I have said many times before, nothing is more important 
than speeding our transition to a cleaner, more sustainable 
economy. It is the only way to deliver an equitable, healthy 
future. Building a clean economy will enhance economic 
opportunity, creating well-paying, family-sustaining jobs for 
those who need them most. And by reducing climate change 
pollution, it will improve public health. Additionally, it will 
give us the opportunity to address longstanding wrongs, to 
correct decades old environmental injustices that are still 
hurting communities today.
    The Federal Government has a critical role to play in this 
fight, and it is essential that we advance carefully 
constructed policies that address these longstanding injustices 
and meet the challenge of our climate crisis.
    Dr. Baptista, to that end, as we continue our transition to 
a clean energy economy, how can the Federal Government ensure 
that environmental justice communities shape investments in 
their communities? How can investments be made in partnership 
with EJ communities while reducing emissions and stimulating 
economic growth?
    Dr. Baptista. Thank you, Representative McEachin. And thank 
you so much for your leadership on environmental justice 
issues.
    We know how to do this. We know who the environmental 
justice communities are across the country. There are 
community-based organizations and nonprofits around the country 
who know their communities well and can participate as key 
stakeholders as we develop these programs in renewable energy 
and energy efficiency.
    We know that there are certain investments in energy 
efficiency and renewable energy that can create local jobs, but 
we need input early and often from those local stakeholders, 
local municipalities, and NGOs that can help guide that work 
and also direct the investment to ensure that there is greater 
access to those who have been disenfranchised and have barriers 
to employment.
    So we need to follow the model that the ``Equitable and 
Just Climate National Platform'' set for us, which is a good 
collaboration on the development of those policies and in 
setting targets for local hiring and local investments to go to 
communities that need it most.
    Mr. McEachin. Thank you.
    Madam Chair, just so you know--staff can help me out--I 
don't see the clock on my screen. I don't know if it is 
something I am doing or not, but I don't want to run over my 
time accidentally.
    Ms. Castor. You have a minute and a half.
    Mr. McEachin. Thank you.
    Doctor, what lessons have you learned throughout your work 
that can and should be applied to climate policy development at 
the Federal level?
    Dr. Baptista. I mean, I think that I am going to reiterate 
what I said in my comments, which is that equity and racial 
justice does not happen by coincidence. It has to be an 
intentional thing that we build into all of our national 
climate and energy policies.
    We need to intentionally carve out opportunities for 
improving the quality of life and reducing legacy pollution in 
communities, but also for ensuring access to the benefits of a 
transition to a cleaner economy.
    And so, without that intentional and explicit commitment to 
racial justice and equity in our national energy policies, they 
will not, you know, happen by chance. So I would recommend that 
we all focus our energies on equitable and just outcomes in 
these policies.
    Mr. McEachin. Thank you, ma'am.
    And, Madam Chair, I yield back the balance of my time, if 
any.
    Ms. Castor. Thank you, Rep. McEachin.
    Next, we will go to Rep. Palmer, if he can turn on his 
video.
    If not, we will go ahead to Mr. Levin.
    All right, let's go to Mr. Levin.
    And for those of you--to see the clock, I believe you need 
to be in grid view. So, if you see that icon and hover over it, 
it will give you an option for--I think it is the four dots 
grid view. If you click that, you will be able to see the 
clock.
    So, Mr. Levin, you are recognized for 5 minutes.
    Mr. Levin. Well, thank you very much, Chair Castor, for 
your great leadership and for this discussion today.
    Before I begin, I would just like to remind my friend Mr. 
Graves, who took it upon himself to criticize California, that, 
according to the EIA, my home state has the second lowest per 
capita carbon dioxide emissions in the nation, only behind New 
York.
    And I am very proud of that and the leadership that we have 
shown, that you can put in place strong policies to protect the 
environment and build the clean energy jobs of the future at 
the same time.
    And I would remind my friend Mr. Graves that his home State 
of Louisiana has the fifth highest per capita CO<INF>2</INF> 
emissions in the nation.
    Mr. Graves. Will the gentleman yield?
    Mr. Levin. So I hope we can agree that growing clean-energy 
jobs is really more important than ever, since unemployment----
    Mr. Graves. Will the gentleman yield?
    Mr. Levin [continuing]. Has skyrocketed due do COVID.
    With that, I will turn to some questions.
    Ms. Soholt, I have introduced bipartisan legislation called 
PLREDA, the Public Land Renewable Energy Development Act, which 
sets up a smart-from-the-start planning framework for renewable 
energy generation on our public lands.
    This approach is better for developers and better for 
consumers, ultimately helps facilitate more renewable energy 
projects. And the Natural Resources Committee has unanimously 
approved the bill, and I hope will it be considered soon on the 
House floor.
    Ms. Soholt, do you think this sort of smart-from-the-start 
approach is effective for transmission as well? And if so, how 
should it be implemented?
    Ms. Soholt. Thank you, Representative, for the question.
    First, if I may answer just briefly my fellow panelist, Mr. 
Shellenberger, and talk about unsubsidized cost of wind and 
solar compared to other fields.
    Lazard does a report every year. And wind and solar, 
unsubsidized, no ITC/PTC, are the cheapest forms of new 
generation. That report is available every year. So it does not 
comport with what we are hearing from Mr. Shellenberger today.
    As far as being unreliable, the Southwest Power Pool has 
had over 70 percent of their energy delivered to customers from 
wind just this summer. And so the fact that wind and solar are 
not reliable is not true.
    As far as the land use goes, I think what Mr. 
Shellenberger's oversized land estimates account for is that he 
is looking at the entire footprint of a wind farm, for example. 
A wind turbine takes up very little land, maybe a quarter of an 
acre, and you can farm or graze right up to the base of that 
turbine. And so the estimates about land use Mr. Shellenberger 
is talking about are far exaggerated.
    So, Representative Levin, thank you for your question.
    We have seen in the Midwest that utilities who are out 
talking to communities, Tribal lands representatives--we don't 
have a lot of Federal land in the Midwest, I will have to 
admit. That is more in other areas of the country. But I think 
what we have learned is that fighting large infrastructure, no 
matter what, is a complicated and time-consuming process.
    Anything that we can do at the beginning of the process to 
have a conversation about how to prudently site, whether it is 
a transmission line or new power generation, new renewable 
generation, is time well spent.
    Mr. Levin. Thank you for that.
    Mr. Walsh, as I am sure you know, the Trump EPA is rolling 
back the light-duty vehicle greenhouse gas emission standard 
set by the last administration. This will cost consumers at 
least $175 billion more at the pump and result in the emission 
of an additional 867 million metric tons of carbon pollution at 
least.
    Our report recommends we ratchet these standards back up as 
well as set standards for clean medium- and heavy-duty trucks. 
And, in your testimony, you mentioned that building cleaner 
cars and trucks is an important part of the clean energy 
economy that creates good jobs.
    What are the jobs impacts of rolling back the light-duty 
vehicle standards? And can you talk a bit more about the jobs 
and environmental potential of clean trucks?
    Mr. Walsh. Yes. And I will try to be brief. I know we are 
running out of time.
    The rollback of the fuel economy and greenhouse gas 
emissions standards by the Trump administration was a job 
killer. By the Administration's own estimates, we will lose 
tens of thousands of jobs that we otherwise would have had in 
automotive supply chains, building hybrids, building advanced 
fuel economy technologies both across light-duty vehicles and 
medium-duty vehicles as well.
    So it is a step back, which is why it was opposed by such a 
broad cross-section of stakeholders, including labor unions.
    Mr. Levin. Thank you.
    I am out of time, but I appreciate all your testimony and 
your being with us.
    Thank you, Chair Castor. I yield back.
    Ms. Castor. Thank you, Mr. Levin.
    Mr. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you, Madam Chair.
    I have to tell you, I am a little frustrated here. We have 
had 18 months of pretty good, pretty bipartisan hearings, with 
a recognition that climate is an emergency and we need to deal 
with facts. My colleagues across the aisle are just making 
stuff up today. You have a witness who is making stuff up.
    I would like to introduce--with unanimous consent, would 
ask to introduce into the record an article from 
climatefeedback.org entitled ``Article By Michael Shellenberger 
Mixes Accurate and Inaccurate Claims in Support of a Misleading 
and Overly Simplistic Argumentation About Climate Change.''
    Ms. Castor. Without----
    Mr. Graves. Madam Chair, I am going to reserve the right to 
object.
    Ms. Castor [continuing]. All right.
    Mr. Casten. Garret, do me a favor----
    Ms. Castor. Please have your--Mr. Casten, please have your 
staff submit the document to our repository. Thank you.
    Mr. Casten [continuing]. We will do.
    And, Ranking Member Graves, if you don't like the document, 
please read it. Read it, and then come to my office, and let's 
talk.
    Mr. Graves. Happy to do it. Thank you.
    Mr. Casten. These are scientists refuting almost everything 
that Mr. Shellenberger has said. It is from an article that he 
wrote on June 28 of this year substantially consistent with his 
testimony.
    We do not have time on this committee to make things up. I 
have spent 20 years in the clean energy industry, and Mr. 
Shellenberger doesn't understand energy markets either.
    Mr. Shellenberger, I am not going to ask you questions, 
because it would be a waste of my time.
    I am going to ask questions, though, of Ms. Soholt, because 
you have a lot of experience in the Midwest System Operator.
    I am looking right now at the MISO spot price of power, and 
it says that, at the Illinois hub, the price of power is about 
$28 a megawatt hour. As I understand it right, and I would ask 
you to confirm, that means that any generator who has a 
marginal operating cost below that level is going to operate. 
Is that about right, Ms. Soholt?
    Ms. Soholt. Yes, that is true.
    Mr. Casten. Okay. So help me understand, what is the 
marginal operating cost of a solar panel that is deciding 
whether to dispatch into that market?
    Ms. Soholt. I would not know that off the top of my head, 
but I would be glad to get you that information.
    Mr. Casten. Well, does it take any fuel to burn a solar 
panel, to----
    Ms. Soholt. It does not.
    Mr. Casten [continuing]. Run a solar panel?
    Ms. Soholt. It does not.
    Mr. Casten. Do you typically hire an operator, if you put a 
solar panel on your roof, to run it that you have to pay a 
salary to?
    Ms. Soholt. No.
    Mr. Casten. So it is darn close to zero, sounds like.
    How about a wind turbine? Does a wind turbine have a high 
margin--I am not talking about the cost of capital. A wind 
turbine, does that have a very high marginal operating cost?
    Ms. Soholt. No, Representative. Last time I checked, wind 
and sun are free.
    Mr. Casten. Okay.
    How about a nuclear plant? What is the marginal operating 
cost of a nuclear plant?
    Ms. Soholt. It would have a higher cost than $28.
    Mr. Casten. Would it be lower than a coal plant or higher 
than a coal plant?
    Ms. Soholt. Well, that is a rather complicated answer, 
because a nuke in MISO would probably be a must-run facility. 
Nuke plants do not ramp well up and down, and so they need to 
basically run flat out. And so I don't think they would be on 
the margin. Coal and gas are going to be more on the margin. 
But they would have substantially higher operating costs than 
wind or solar.
    Mr. Casten. Fair point.
    And does MISO provide any guarantee of capital recovery? If 
you build a plant, are you guaranteed to earn your target 
return on capital, or do you just make a marginal dollar, not 
every hour?
    Ms. Soholt. MISO has nothing to do with cost recovery.
    Mr. Casten. Okay.
    And the reason I ask those questions is because, when we 
passed the Energy Policy Act in 1992 and FERC Order 888, we 
created MISO, we created PJM, we created all these power 
markets, and we started dispatching assets based on the lowest 
marginal power supply.
    Ms. Soholt. Right.
    Mr. Casten. Since that time, the nuclear fleet went from 60 
to 90 percent capacity factor. We built 200,000 megawatts of 
combined cycle that was almost twice the efficiency of the 
existing gas fleet. We built about 50,000 megawatts of 
renewables.
    Now, for context, there is about 1,000 gigawatts on the 
grid. So 5 percent of the grid now is renewables, 20 percent is 
combined cycle.
    The price of power since that period has fallen by over 6 
percent, and the CO<INF>2</INF> emissions per megawatt hour 
have fallen by over 26 percent.
    For people to sit here on this committee and say the 
deployment of clean energy is driving up the cost of power are 
living in fantasy land. Just imagine what we could do if we 
didn't spend our time putting denialists and deniers before us.
    We have the opportunity to act. We have the opportunity to 
lower power prices. We have the opportunity to make the world 
cleaner. We have the opportunity to create good construction 
jobs. For goodness sake, let's do it.
    Ms. Soholt. And, Representative, if I could just add one 
final thought. You know, the wholesale power prices in MISO 
have gone down dramatically in the last 10 years, and MISO has 
over 20,000 megawatts of wind and solar online currently today.
    Utilities are purchasing wind and solar because they are 
economic, reliable resources, and they know how to run the grid 
with that robust amount of renewables on the grid.
    Mr. Casten. Thank you.
    Thank you. I yield back.
    Ms. Castor. Thank you, Mr. Casten.
    Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Well, thank you, Madam Chair.
    And I want to share the frustration that we heard from my 
colleague, Sean Casten. I had hoped for a productive 
conversation about climate solutions and the great economic 
upside of pursuing this clean energy future, and, instead, our 
friends across the aisle called someone who is not a scientist, 
not an economist. He is a guy with an anthropology degree that 
holds himself out as an expert on a whole bunch of subjects, 
but he has really not.
    And for those of us that know his shtick, as I do, sadly, 
from years of experiencing it, you know that he has spent his 
career creating, publicizing, and monetizing a totally fake 
narrative that he is some sort of a fallen angel from high 
levels of the environmental community, but he has seen the 
light, and he is now speaking truth to environmental power by 
attacking renewables and climate leadership from the 
environmental community.
    It is complete bunk. And all of us were cheapened a little 
bit, a few moments ago, when he actually gave the title of his 
book that he is out promoting. And that is really what this is 
all about. It is what it is always about. We shouldn't be 
talking about pimping one's book under the guise of 
congressional testimony.
    In any event, I am glad that the article is now going to be 
in the record from climatefeedback.org. Anyone that has 
questions about this really should read it, because you have 
six real scientists that take to task and dismantle all of the 
tropes that you heard in Mr. Shellenberger's testimony today, 
all of the tropes in the new book that he is hocking around the 
country. So have a good look at that.
    And the fact that they have dismantled and debunked these 
things means that I don't have to. So I can bring my time to 
bear on a more productive conversation with the witnesses here 
who want to help us solve the climate crisis.
    And, Ms. Soholt, I want to ask you about that, because we 
continually hear from critics that renewables are unreliable, 
that it is not always sunny, not always windy. But we are 
making incredible progress at bringing online far more 
renewables than just a few years ago people said you could do. 
In fact, I just checked my phone, and today, right now, on a 
peak summer day, California is running 50-percent renewables 
right now. That is way beyond anything that I was told as a 
State legislature less than a decade ago that we could achieve.
    Talk about the way building out a nationwide and 
interconnected transmission system is helping us advance 
renewables far beyond all these limitations that we are always 
being warned about.
    Ms. Soholt. Thank you, Representative Huffman, for the 
question.
    So, yes, I think that our utilities--I would call them 
out--they have done a fantastic job of bringing renewable 
energy online and operating the grid reliably. They have seen 
that economic benefit to customers over the long term of adding 
renewables. And I am speaking from my experience in the 
Midwest, where we have an increasing amount of renewables on 
the system.
    The reason we need to work on the Macro Grid vision is 
because we need to be able to move resources from where they 
are located to where they can be used. That is not a new 
phenomenon for the grid. It is just that we need to move the 
location specific resources to where they can be used.
    But the grid does many more things than just facilitate 
interconnection of renewables. So we are going to get extra 
benefits of grid reliability. We are going to get the extra 
benefits of reducing prices by lowering congestion costs. We 
are going to get the additional benefit of communities getting 
taxes paid by the utilities and all the jobs and economic 
development that come along with the Macro Grid.
    And so, you know, I think what I have endeavored to show in 
my testimony is that we have a three-fer here--at least a 
twofer, maybe a three-fer. We have, you know, a better 
environment through developing and dispatching renewable 
resources. We have job creation through both the grid and 
renewables. And we will be able to compete with China on that 
vision that they are on right now with having a very 
competitive U.S. through clean, low-cost, renewable 
electricity.
    But we need to work on the pieces, not only the 
infrastructure but the approval processes, the construction of 
lines. We need to tackle all of the pieces in order to have the 
benefits that flow from the Macro Grid.
    Mr. Huffman. If I could sneak a few more seconds in, Ms. 
Soholt, you have talked about the Macro Grid, but we are also 
using the built environment to generate a lot of renewables 
these days. And so the scare tactics we have heard about the 
amount of land you would need hypothetically for wind and 
solar, we have an awful lot of built environment that can be 
generating clean energy in a way that coexists beautifully with 
other uses.
    Could you speak to that?
    Ms. Soholt. Yes. Thank you, Representative. I will be 
brief.
    So I think you are talking about building efficiency and 
transportation challenges that we can tackle with electric 
vehicles to bring down emission rates. There are great promise 
in all of those things, so, absolutely, couldn't agree more.
    Mr. Huffman. And photovoltaic solar generation on top of 
buildings and parking lots, et cetera.
    Ms. Soholt. Absolutely.
    Mr. Huffman. So thank you very much.
    I yield back.
    Ms. Castor. Thank you.
    Representative Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair.
    And I, too, want to thank the panel for being here and 
sharing your expertise and doing the work that you do every 
single day to save our planet. So we appreciate it very, very 
much.
    Ms. Soholt, again, on the grid and expansion of the grid--
and you mentioned that China is going ahead. China gets to do 
whatever they want to do because they are a communist country, 
and they don't, you know, have environmental impact studies, et 
cetera, that they have to really sort of deal with.
    And I know one of your recommendations in terms of 
expanding the grid is about, you know, removing transmission 
barriers. So, you know, we had a whole hearing on this 6, 8 
months or so ago. And, you know, just tell me how you remove 
transmission barriers in our country.
    I just think that, you know, as we have tried to expand the 
grid and connect East and West, you know, it is a process that 
takes forever, and, in many cases, the end result is that it 
doesn't happen. So if you could enlighten me.
    Ms. Soholt. Sure. Thank you, Representative Brownley, for 
the question. So we need to do a couple things.
    We need some additional good direction from the Federal 
Energy Regulatory Commission on transmission planning across 
the seams. We have a big challenge right now with connecting 
the various power pools together to be able to plan and permit 
and build transmission across those seams. And the real benefit 
of doing that is that we are going to be able to deliver 
savings and cost-effective clean energy for customers. So it is 
all about the customer savings as well as the environment, and 
as well as the other benefits that flow. So we need additional 
direction from FERC on planning.
    We may need some help from Congress on siting transmission. 
I think that utilities and States have done a lot to try to 
address siting issues. Utilities are really getting out early 
and often to talk to communities about why additional power 
lines are needed. We are trying to be very judicious about the 
type of lines that are constructed, using our grid the best we 
can before we build new, and then using very little new right-
of-way, if possible.
    So there are different levels of things, but--so I would 
say, in the planning process, there are barriers that we have 
to remove. In the permitting process, we have challenges. And, 
you know, Congress needs to work with the states to really 
understand how we can tackle some of the siting and routing 
issues. And then, you know, we are going to have to figure out 
cost delegation policy among the beneficiaries of transmission.
    So it is a challenging dilemma to solve, but the benefits 
are simply so great from building the Macro Grid.
    Ms. Brownley. Yeah. Yeah.
    So I understand the siting challenges. Give me an example 
of what some of the planning barriers are with regards to FERC. 
What do you mean by that?
    Ms. Soholt. Boy, we are going into the weeds here, 
Representative.
    So, when we have two regions who are trying to look at what 
should be constructed across what we call a seam, they would 
each do an individual study. And what we need to be able to 
have them do is both use the same inputs----
    Ms. Brownley. Yeah.
    Ms. Soholt [continuing]. So that they can come up with the 
same solutions and work on that together.
    That doesn't always happen. And so we need some reform to 
allow the two power pools to work together more effectively.
    But the proof is really in, are we getting anything built 
across those seams? And, so far, we are not seeing very much 
progress.
    Ms. Brownley. Thank you. Thank you very much.
    My time is about to run out, but, Dr. Baptista, I wanted to 
ask you, you know, as we attempt to try to turn our report 
recommendations into actual legislation, are there policy tools 
that are better, I guess, at prioritizing the needs of 
environmental justice communities than others?
    Dr. Baptista. Well, I think, in terms of tools, much of 
what we looked at in the national climate platform looked at, 
you know, where are the existing programs that actually have 
done this work well in terms of environmental justice?
    And, for example, the U.S. EPA's EJ Small Grants Program, 
the Weatherization Assistance Program, you know, some of the 
job training programs that I mentioned, those are programs that 
have effectively reached environmental justice communities and 
have been able to collaborate with those stakeholders on the 
ground and create jobs and also return benefits to those 
communities through collaborative processes, not just 
investments.
    So I would suggest that we look at some of those existing 
policies and programs and look for not only expanding those but 
to model and replicate in other energy and climate policies 
that the plan puts forward.
    Ms. Brownley. Thank you very much.
    And I apologize for going over my time, Madam Chairwoman, 
but I yield back.
    Ms. Castor. Well, thank you, Rep. Brownley.
    And I would like to thank all the witnesses for joining us 
today.
    And now we are going to return to a few housekeeping 
matters.
    Rep. Graves, you had two--you had reserved the right to 
object on two previous UC requests. One is the IRENA report on 
the cost of renewables, and the second is on Rep. Casten's 
Climate Feedback article. Are you going to maintain your 
objections on those?
    Mr. Graves. Could you remind me, Madam Chair, on the 
objection you had on our documents, were those included in the 
record of the hearing, in the last hearing we had?
    Ms. Castor. Yes, they were.
    Mr. Graves. Okay. In that case, then that is fine. And I 
will review the document that Mr. Casten mentioned.
    Ms. Castor. Great.
    So, without objection, those two previous documents are 
admitted under unanimous consent.
    [The information follows:]

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                             July 28, 2020

ATT ACHMENT: IRENA (2020), Renewable Power Generation Costs in 2019, 
International Renewable Energy Agency, Abu Dhabi.

The report is retained in the committee files and available at:

       https://www.irena.org/-/media/Files/IRENA/Agency/Publication/
2020/Jun/IRENA
       _Power_Generation_Costs_2019.pdf

                       Submission for the Record

                       Representative Sean Casten

                 Select Committee on the Climate Crisis

                             July 28, 2020

ATT ACHMENT: Swain, D., Ceballos, G., Francis, J., Emanuel, K., Sriver, 
R., Doerr, S., and Hausfather, Z. (N. Forrester, Ed.). ``Article by 
Michael Shellenberger mixes accurate and inaccurate claims in support 
of a misleading and overly simplistic argumentation about climate 
change,'' Climate Feedback, 2020, 
July 13.

The article is retained in the committee files and available at:

      https://climatefeedback.org/evaluation/article-by-michael-
shellenberger-mixes-
      accurate-and-inaccurate-claims-in-support-of-a-misleading-and-
overly-simplistic-
      argumentation-about-climate-change/

    Ms. Castor. I would also like to ask unanimous consent to 
include in the hearing record a letter from the National 
Audubon Society that clarifies that wind turbines are not the 
greatest threat that birds face today. Actually, the letter 
says: ``In short, wind turbines are not the greatest threat to 
birds today. Climate change is. Audubon's research has shown 
that two-thirds of North American bird species are at risk of 
extinction from global temperature rise.''
    Mr. Graves. Madam Chair, reserving the right to object, is 
this the letter that states that there are half a million 
eagles and hawks that are killed as a result of wind energy and 
that----
    Ms. Castor. This is the July 27 letter that is in the 
portal.
    Mr. Graves [continuing]. Okay. Thank you. I lift my 
objection.
    Ms. Castor. Thank you.
    So, without objection, the Audubon Society letter is 
entered into the record.
    [The information follows:]

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                             July 28, 2020

The Honorable Kathy Castor
Chair, House Select Committee on the Climate Crisis
H2-359 Ford Building
Washington, DC 20515

The Honorable Garret Graves
Ranking Member, House Select Committee on the Climate Crisis
H2-359 Ford Building
Washington, DC 20515

July 27, 2020

    Re: Setting the Record Straight on Wind Power and Birds

Dear Chair Castor and Ranking Member Graves:
    On behalf of the National Audubon Society and its more than 1.7 
million members, I would like to address some of the 
mischaracterizations around wind power that one of your witnesses has 
previously raised, and is likely to raise again in today's hearing on 
``Solving the Climate Crisis: Building a Vibrant and Just Clean Energy 
Economy.'' In short, wind turbines are not the greatest threat birds 
face today; climate change is. Audubon's research\1\ has shown that 
two-thirds of North American bird species are at risk of extinction 
from global temperature rise. To stave off the worst impacts of climate 
change, and to protect the ecosystems birds depend on, we need to take 
advantage of all forms of clean, cost-effective, renewable energy, 
including onshore and offshore wind power. Transforming the energy 
sector to 100 percent clean energy--part of our goal to reach net-zero 
emissions economy-wide by 2050--necessitates widespread deployment of 
industrial scale wind, solar, geothermal, storage, and the transmission 
needed to bring that energy to market. Audubon's policy is to work with 
the industry, agencies, our partners, and our chapter network to 
achieve that goal.
---------------------------------------------------------------------------
    \1\ https://www.audubon.org/climate/survivalbydegrees
---------------------------------------------------------------------------
    All forms of energy--including wind power--have direct and indirect 
impacts on birds. While wind energy helps birds on a global scale by 
curbing climate change, wind power facilities can harm birds through 
direct collisions with turbines and other associated structures, 
including power lines. But it's important to put the risks posed by 
wind turbines in perspective. An estimated 140,000 to 500,000 bird 
deaths occur per year due to turbine collisions, which is substantial, 
but significantly less than deaths caused by oil pits and 
communications towers.\2\
---------------------------------------------------------------------------
    \2\ https://www.fws.gov/birds/bird-enthusiasts/threats-to-birds.php
---------------------------------------------------------------------------
    Beyond direct collisions, wind power facilities can also affect 
birds by degrading or destroying habitat, causing disturbance and 
displacement, and disrupting important ecological links. Placing wind 
projects in the path of migratory routes makes this problem worse. It 
is possible to mitigate this problem, however, by consulting with 
wildlife experts and ecological data to design projects that minimize 
these impacts. Wind power is critical to reducing greenhouse gas 
emissions and other forms of air pollution from fossil fuels--pollution 
that disproportionately affects low-income communities and communities 
of color.\3\ Any level-headed analysis of wind power must look at the 
whole picture, which is why Audubon strongly supports wind energy that 
is sited and operated properly to avoid, minimize, and mitigate 
effectively for the impacts on birds, other wildlife, and the places 
they need now and in the future.
---------------------------------------------------------------------------
    \3\ https://www.naacp.org/climate-justice-resources/fumes-across-
fence-line/
---------------------------------------------------------------------------
    Audubon's role is to make sure that key species and high 
conservation areas for birds are protected as much as possible and in 
accordance with federal law. To that end, rather than knee-jerk 
opposition to building new wind farms, we encourage and support the 
deployment of additional wind energy that takes the following common-
sense and statutorily required precautions to minimize or avoid harm to 
birds and other wildlife:
    <bullet>  Proper siting and operation of wind farms and equipment, 
including transmission lines,\4\ that follow federal\5\ and state 
guidelines
---------------------------------------------------------------------------
    \4\ https://www.audubon.org/news/transmission-lines-and-birds
    \5\ https://www.fws.gov/ecological-services/es-library/pdfs/
WEG_final.pdf
---------------------------------------------------------------------------
    <bullet>  Development of new technologies\6\ that help minimize 
harm to birds and other wildlife
---------------------------------------------------------------------------
    \6\ https://www.audubon.org/magazine/spring-2018/how-new-
technology-making-wind-farms-safer-birds
---------------------------------------------------------------------------
    <bullet>  Consultation with wildlife experts, including Audubon 
staff and chapters, to help inform ecological studies and siting 
decisions,\7\ and to support efforts to improve wind siting and 
technological solutions to reduce harm to birds
---------------------------------------------------------------------------
    \7\ https://www.nwf.org/-/media/Documents/PDFs/NWF-Reports/2019/
Responsible-Wind-Power-Wildlife.ashx
---------------------------------------------------------------------------
    <bullet>  Strong enforcement of existing laws that protect 
wildlife, including the Endangered Species Act, the Bald and Golden 
Eagle Protection Act, and the Migratory Bird Treaty Act\8\
---------------------------------------------------------------------------
    \8\ https://www.audubon.org/news/more-500-organizations-all-50-
states-urge-congress-defend-bird-protection-law

    This last point is critical, as we cannot protect birds and their 
habitats if we don't enforce the laws we have put in place to do just 
that. The MBTA is credited with saving many iconic species from 
extinction, and today, the MBTA protects most of the country's native 
bird species--including songbirds, shorebirds, raptors, wading birds, 
and more--from unauthorized taking or killing. Unfortunately, the 
Administration's legal opinion and proposed rule that interprets the 
MBTA to only apply to purposeful take has put at risk the significant 
progress that stakeholders have made in advancing bird conservation 
related to incidental taking.
    Under the Act's authority, the Fish and Wildlife Service (FWS) and 
many industries have come to agreement on simple measures that protect 
birds, including the Land-Based Wind Energy Guidelines. We appreciate 
that the recent report from members of this Committee has recommended 
the passage of the Migratory Bird Protection Act to help ensure that 
there continues to be incentives to develop and implement these best 
practices, and at the same time, create additional legal certainty.
    To ensure we continue to make every effort to mitigate the impact 
to birds of wind turbines--indeed, the impacts from all forms of 
infrastructure--we must follow the letter and the spirit of laws like 
the MBTA, along with other bedrock environmental laws such as the 
Endangered Species Act and the National Environmental Protection Act. 
Weakening safeguards and limiting opportunity for public comment on 
major infrastructure projects will ultimately lead to worse outcomes 
not just for birds, but for the wind energy industry as well.
    On behalf of the National Audubon Society, I want to thank you and 
your staff for holding this hearing, and for all the important work 
that the Select Committee has done to date. Audubon is ready to work 
with this Committee and others to find common ground on clean energy 
and environmental protection, to help protect birds and the places they 
need, today and tomorrow.

Sincerely,

Sarah Greenberger
Senior Vice President, Conservation Policy
National Audubon Society

    Ms. Castor. And, finally, we have heard a great deal about 
the recommendations in the ``Solving the Climate Crisis'' 
majority staff report today. I have submitted the link to the 
report to our repository, and I ask unanimous consent to 
include it in today's hearing record.
    Without objection, it will be inserted.
    [The information follows:]

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                             July 28, 2020

ATT ACHMENT: (June 2020), Solving the Climate Crisis: The Congressional 
Action Plan for a Clean Energy Economy and a Healthy, Resilient, and 
Just America, House Select Committee on the Climate Crisis Majority 
Staff, Washington, DC.

The report is retained in the committee files and available at:

      https://docs.house.gov/meetings/CN/CN00/CPRT-116-CN00-D001.pdf

    Ms. Castor. So thank you all very much. It is good to see 
everybody. I wish we could do this in person. I look forward to 
our next hearing. Thank you so much.
    We are adjourned.
    Mr. Graves. Madam Chair.
    Ms. Castor. Mr. Graves.
    Mr. Graves. Parliamentary inquiry. I believe that Mr. 
Huffman, Mr. Casten, and Mr. Levin all effectively accused us 
of not telling the truth. Further, he dragged one of the 
witnesses through the mud.
    Ms. Castor. And what is----
    Mr. Graves. I would just like to ask----
    Ms. Castor [continuing]. Your parliamentary inquiry?
    Mr. Graves [continuing]. Would it be appropriate to ask 
unanimous consent for the witness who got dragged through the 
mud to be able to respond to the allegations that were made 
against him?
    Mr. Huffman. He can do that on his book tour.
    Ms. Castor. He is free to do that in the public square of 
ideas.
    So thank you all very much. We are adjourned.
    Mr. Graves. That is entirely inappropriate.
    [Whereupon, at 3:49 p.m., the committee was adjourned.]

                 United States House of Representatives

                 Select Committee on the Climate Crisis

                        Hearing on July 28, 2020

                     ``Solving the Climate Crisis:

           Building a Vibrant and Just Clean Energy Economy''

                        Questions for the Record

                            Dr. Ana Baptista

            Assistant Professor of Professional Practice and

    Associate Director of the Tishman Environment and Design Center

                             The New School

         On Behalf of New Jersey Environmental Justice Alliance

                and the Equitable and Just Climate Forum

                       the honorable kathy castor
    1. Communities across the nation face the compound crises of 
reduced revenues, increased costs, and aging infrastructure that can 
exacerbate public health threats. In your testimony, you call for 
increased investment in climate resilient water infrastructure to 
address unsafe drinking water and climate-related flooding, sea level 
rise, and drought. What steps should the federal government take to 
ensure that federal infrastructure programs identify the needs of 
vulnerable communities and engage workers, firms, and community 
organizations in infrastructure planning, siting and design? How can 
Congress ensure that federal disaster recovery projects in vulnerable 
communities engage local workers and firms to build back better?

    In order to ensure that federal government actions are responsive 
to community needs, robust stakeholder engagement processes are 
essential. Processes to gather input on needs of vulnerable communities 
should include multiple opportunities and methods through which to 
gather critical information. Local knowledge should be incorporated 
into planning, siting and design of federal infrastructure programs and 
disaster recovery projects.
    The unequal impacts of climate change have been long understudied 
and it is imperative that this is remedied. As the federal government 
designs research projects related to disaster recovery and 
infrastructure programs, these projects must also collect equity data 
and incorporate this analysis into planning, siting and design.
    One way that the unequal impacts of climate change can be addressed 
is to ensure that workers from the most impacted communities have 
access to the employment opportunities from disaster recovery and 
infrastructure programs. We also know that in a transition to a cleaner 
economy more jobs can be generated that provide opportunities for 
communities. The Clean Energy Future report found that ``clean energy'' 
jobs require more workers in sectors such as energy efficiency 
programs, renewable energy production, and auto manufacturing (making 
electric cars). Net job gains increase over time, starting at a little 
under 200,000 per year in 2016-2020, and rising to 800,000 per year in 
2046-2050. The report can be found on the Reference Page of the Clean 
Energy Future report. These projected renewable energy and energy 
efficiency jobs' increases do not ensure that the economic benefits 
will go to vulnerable communities. Therefore, it is important for 
Congress to include policies that directly target benefits for these 
impacted communities.
    In order to engage local workers and build back better in 
vulnerable communities, Congress can include provisions to employ local 
workers using guidelines that can be embedded or given preference in 
programs which receive federal funding such as: community benefits 
agreements, first source hiring guidelines living wage, paid sick days, 
preferences for Minority-Owned Business Enterprises and Women-Owned 
Business Enterprises (MBE/WBE) and Ban the Box.
    The federal government should also ensure that local community-
based organizations, faith based and civic groups are able to access 
disaster relief funds, job training and placement opportunities that 
can best connect residents in underserved communities with jobs in 
rebuilding infrastructure and much needed disaster recovery services. 
The Illinois Future Energy Jobs Act\1\ (FEJA) is a good model for ways 
to ensure that the local community is integrated throughout the 
development of the policy, from drafting to implementation.
---------------------------------------------------------------------------
    \1\ https://ilcleanjobs.org/who-we-are/energy-jobs-act/

    2. In your testimony, you call for mobilization of new investment 
in safe and healthy communities through the creation of a National 
Climate Bank, with at least 60 percent of the Bank capital to be 
invested in tribal communities, low-income communities, and communities 
of color. What additional metrics and criteria should Congress consider 
as conditions for eligibility or prioritization of investments to 
---------------------------------------------------------------------------
ensure just, sustainable, and resilient infrastructure investments?

    To design a National Climate Bank that will deliver real benefits 
to low income communities, tribal communities and communities of color, 
the Bank must have criteria to support projects that are community-
driven and reflect the needs of the community. In addition, the Bank 
must have criteria to ensure that project developers work with local 
officials and community leaders to design and implement strategies to 
reduce the risk of long-time residents being displaced from their 
communities as neighborhood improvements drive up rents. These 
strategies could include an expansion of affordable housing; more 
inclusionary zoning that breaks down long-standing structural barriers 
and allows for greater housing density; community land trusts to 
support locally owned housing and business assets; and job training 
programs to support access to good careers and jobs.
    Specifically, the Bank should include the following project 
criteria to meet social, environmental, and economic measures:
    <bullet>  Lower energy use and costs for residents
    <bullet>  Reduce local air pollution and greenhouse gas emissions
    <bullet>  Reduce public health risks or damages from more intense 
heat waves, hurricanes, flooding, other extreme weather events, and sea 
level rise for residents and businesses
    <bullet>  Address the needs of the community
    <bullet>  Support socio-economic mobility, equitable economic 
opportunities and affordable access to good jobs, schools, child care, 
and community services for low-income households, communities of color, 
tribal communities, women, and/or the disabled
    <bullet>  Create good jobs with fair wages and support the local 
economy
    <bullet>  Reduce the risks that low-income residents are displaced 
from their communities by climate change threats and neighborhood 
improvements that drive up rents
    For more information on suggested project criteria and other design 
recommendations for the National Climate Bank, please see the following 
reports on the reference page; Florida Future Fund, Building Resilient 
Infrastructure and Communities Across Florida, tate Future Funds: 
Jumpstarting Investments in Low-Carbon And Resilient Energy and 
Transportation Infrastructure, Three Bold Actions Congress Should Take 
to Equitably Address Weather and Climate Disasters.

    3. One of the hearing witnesses, Michael Shellenberger, testified 
that nuclear power is ``the safest way to make electricity.'' Can you 
comment on some of the environmental justice concerns around nuclear 
power in the United States, including the history of uranium mining?

    Nuclear energy is fading in importance globally. The peak in 
nuclear power's share of global electricity generation was 17.5 percent 
in 1996. Since then, this fraction has steadily declined reaching 10.1 
percent in 2018 and the downward trend is expected to continue. The 
most important reason for the decline is that nuclear plants are no 
longer financially viable. In the last decade, it has become clear that 
not just constructing new reactors, but just operating one has ceased 
to make economic sense. This is because alternatives to nuclear energy, 
in particular renewable sources of electricity like wind and solar 
energy, have become drastically cheaper. It is for this reason that 
many utilities in the United States have required government subsidies 
to keep operating. Nuclear plants have a long track record of proving 
more expensive than initially projected. New nuclear reactor designs 
too are likely to be much more expensive in reality than what studies 
project. What are called Small Modular Reactors (SMRs) start off with 
an economic disadvantage because they lose out on economies of scale. 
SMR proponents hope that this can be compensated through mass 
manufacture and learning, but even under optimistic assumptions about 
the rates of learning, hundreds if not thousands of SMRs would have to 
be constructed before they break even in costs with large reactors, 
which are themselves not economical.
    These economic challenges add to other well-known problems 
associated with nuclear energy, in particular, the absence of any 
demonstrated solutions to managing radioactive waste in the long run 
and the potential for catastrophic accidents. No reactor design is 
immune to these problems. Efforts to ameliorate one of these problems 
typically makes other problems worse. Finally, inasmuch as intermittent 
renewables such as solar photovoltaics and wind turbines are becoming a 
more important part of the electricity supply, technologies like 
nuclear power that are best suited for baseload power are going to 
become more redundant. Instead, the need is for flexible sources of 
power and storage capacity. For all these reasons, and more, it does 
not make sense to embark on nuclear energy.
    The legacy of nuclear power plants in the United States also speaks 
to environmental injustice; from sourcing of the uranium, to siting of 
the plant, to disposal of the waste. Nuclear Power Plants (NPP) and the 
subsequent toxic nuclear waste cause ``transgenerational justice issues 
of unprecedented duration in comparison to any other industry'' (Dean 
Kyne and Bob Bolin 2016 p.1). Indigenous communities have borne the 
brunt of nuclear power's infrastructure in the form of the uranium 
mining, nuclear test sites and the disposal of nuclear waste which have 
left a legacy of pollution and public health harm in these 
environmental justice communities.
    Please see the Reference Page for additional information.

    4. How can Congress best solicit the input and feedback from 
environmental justice communities on climate and clean energy policy? 
What would the ideal stakeholder engagement process look like during 
the development of legislation?

    Having a variety of opportunities for stakeholder engagement is 
important to solicit input and feedback from environmental justice 
communities. These opportunities should include systems to support 
stakeholder engagement in places where there is little to no 
technology. Opportunities for verbal and written feedback, as well as a 
variety of public meeting times during and outside of business hours 
are helpful. Information should also be provided in language accessible 
to the communities of interest and sufficient time should be allocated 
for public comments and feedback. Processes like those used to elicit 
input for the House Select Committee's majority staff report and 
Congressman McEachin and Chairman Grijalva's EJ For All Act are both 
great examples of how to engage stakeholders in legislative processes. 
These processes were interactive, took on multiple forms, were 
conducted with enough early consultation to allow for productive and 
meaningful discussions and included the feedback given from 
stakeholders into the policy design. Often stakeholders are only given 
an opportunity for feedback when a draft is completed, but having a 
more interactive process, with early consultation and a wide breadth of 
input supports a wider stakeholder engagement and ultimately a stronger 
policy.
    Please see the Reference Page for additional information for the 
benefits of participatory policy making.
                               references
    1. Engage Workers, and Ensure that Vulnerable Communities Benefit

    CBAs: Definitions, Values, and Legal Enforceability, by Julian 
Gross, The Partnership for Working Families, January 2008, available 
at: https://www.forworkingfamilies.org/resources/publications/cbas-
definitions-values-and-legal-enforceability
    Clean Energy Future, Introduction and conclusion are by Labor 
Network for Sustainabil- 
ity; the body of the report is by Synapse Energy Economics, 2015, 
available at: https://www.labor4sustainability.org/wp-content/uploads/
2015/10/cleanenergy&lowbar;10212015&lowbar;main.pdf
    Delivering Community Benefits Through Economic Development: A Guide 
for Elected and Appointed Officials, by Benjamin S. Beach, The 
Partnership for Working Families, December 2014, available at: https://
www.forworkingfamilies.org/resources/publications/cba-elected-officials
    Future Energy Jobs Act, available at https://
www.futureenergyjobsact.com/about
    Illinois energy bill: After race to the finish, what does it all 
mean?, by Kari Lydersen, Energy News Network, December 2016, available 
at: https://energynews.us/2016/12/08/midwest/illinois-energy-bill-
after-race-to-the-finish-what-does-it-all-mean/

    2. National Climate Bank

    Florida Future Fund, Building Resilient Infrastructure and 
Communities Across Florida, by Cathleen Kelly, Miranda Peterson, 
Guillermo Ortiz, and Yoca Arditi-Rocha, the Center for American 
Progress and the CLEO Institute, September 8, 2018, available at: 
https://www.americanprogress.org/issues/green/reports/2018/09/05/
457440/florida-future-fund/
    State Future Funds: Jumpstarting Investments in Low-Carbon And 
Resilient Energy and Transportation Infrastructure, by Cathleen Kelly, 
the Center for American Progress, June 2015, available at:              

https://cdn.americanprogress.org/wp-content/uploads/2015/06/
StateFutureFunds-report6.22.pdf
    Three Bold Actions Congress Should Take to Equitably Address 
Weather and Climate Disasters, by Guillermo Ortiz and Cathleen Kelly, 
the Center for American Progress, January 30, 2020, available at: 
https://www.americanprogress.org/issues/green/news/2020/01/30/479843/3-
bold-actions-congress-take-equitably-address-weather-climate-disasters

    3. Risks from Nuclear Energy

    Eyes Wide Shut: Problems with the Utah Associated Municipal Power 
Systems Proposal to Construct NuScale Small Modular Nuclear Reactors, 
by M. V. Ramana, Oregon Physicians for Social Responsibility, September 
2020, available at https://     
d3n8a8pro7vhmx.cloudfront.net/oregonpsrorg/pages/1625/attachments/
original/1598897964/Eyes
WideShutReport_Final-30August2020.pdf?1598897964
    Emerging Environmental Justice Issues in Nuclear Power and 
Radioactive Contamination, by Dean Kyne and Bob Bolin, 2016, Int. J. 
Environ. Res. Public Health, 13(7), available at: https://www.mdpi.com/
1660-4601/13/7/700/htm
    Environmental Justice and American Indian Tribal Sovereignty: Case 
Study of a Land-Use Conflict in Skull Valley, Utah, by Noriko Ishiyama, 
February 2003, available at: https://onlinelibrary.wiley.com/doi/abs/
10.1111/1467-8330.00305
    For The Navajo Nation, Uranium Mining's Deadly Legacy Lingers, by 
Laurel Morales, April 2016, National Public Radio, available at:        
  
https://www.npr.org/sections/health-shots/2016/04/10/473547227/for-the-
navajo-nation-uranium-minings-deadly-legacy-lingers
    From wasteland to waste site: the role of discourse in nuclear 
power's environmental injustices, by Danielle Endres, 2009, Vol. 14 
Issue 10, p917-937, available at: https://www.tandfonline.com/doi/abs/
10.1080/13549830903244409
    The Courage to Challenge the Nuclear World Order, by M. V. Ramana 
and Zia Mian, Economic and Political Weekly, December 2017, available 
at https://www.epw.in/journal/2017/48/commentary/courage-challenge-
nuclear-world-order.html
    Technical and social problems of nuclear waste, by M. V. 
RamanaWIREs Energy and Environment, 2018, available at https://
onlinelibrary.wiley.com/doi/abs/10.1002/wene.289
    Yellow Dirt: A Poisoned Land and the Betrayal of the Navajos Judy 
Pasternak, 2011 by Free Press, Simon & Schuster, Inc; Reviewed by Kelly 
Ann Nestor, Villanova University, Book Review is available at: https:// 
           
www.igi-global.com/
pdf.aspx?tid%3D179906%26ptid%3D132248%26ctid%3D17%26t%3Dyellow+ 
dirt%3A+a+poisoned+land+and+the+betrayal+of+the+navajos%26isxn%3D9781466
694071

    4. Community Engagement and Participatory Policy

    Citizens, Experts, and the Environment: The Politics of Local 
Knowledge, Frank Fischer, 2000,Durham, North Carolina: Duke University 
Press.
    Defining Environmental Justice: Theories, Movements, and Nature, 
David, Schlosberg, 2007, New York: Oxford University Press. p.69
    Achieving Justice Through Public Participation: Measuring the 
Effectiveness of New York's Enhanced Public Participation Plan for 
Environmental Justice Communities, by Alma Lowry, 2013, available at:   
          
https://surface.syr.edu/cgi/
viewcontent.cgi?article=1181&context=socsci_etd

                        Questions for the Record

                            Mr. Jason Walsh

                           Executive Director

                           BlueGreen Alliance

                       the honorable kathy castor
    1. Building thriving communities and a just, clean energy economy 
will be accelerated through leadership at the state, regional, and 
federal levels. In your testimony, you highlighted the potential for 
progress in the State of Colorado through passage of H.B. 1314 and 
implementation of the Colorado Just Transition plan. How can Congress 
incentivize other states to show similar leadership and ensure that 
states and communities have a strong federal partner in their planning 
and investments to diversify their economies, advance community 
resilience, and support workers through transition?

    The state of Colorado has advanced legislation that provides a 
model for achieving these goals. It passed landmark legislation, House 
Bill 1314, during the 2019 legislative session. The legislation, which 
was envisioned and championed by the BlueGreen Alliance and our 
partners, created the first State Office of Just Transition, and 
mandated creation of a statewide Just Transition plan for coal workers 
and communities.
    The Colorado Just Transition plan recommends structural 
improvements to how the state supports rural communities where coal 
mining or power plants are likely to close. Key to Colorado's plan will 
be developing worker support programs that assist impacted workers in 
transition to new work. Several states are watching Colorado's 
implementation of HB 1314, and considering similar initiatives, but any 
plan advanced by forward-looking states will have to be supported and 
supplemented by additional Federal resources. Federal funding, 
especially as the COVID-19 pandemic stretches already thin state and 
local budgets, will be vital to giving coal communities the resources 
and tools they need to diversify their economies and support their 
workers through transition.
    America is in the middle of an energy transition. We need to have a 
conversation about getting ahead of this transition, and we need to do 
this now. That's why--alongside partners and allies from coal 
communities across the country--the BlueGreen Alliance participated in 
the development of the National Economic Transition platform, which 
outlines a policy framework and priorities to invest in communities and 
workers hit hard by the decline of the coal industry.
    One of the key ideas put forward in this platform is the need for a 
new federal transition program that would target and expand resources 
for affected communities and workers and coordinate across sectors and 
agencies. We think creating an Office of Economic Transition is key 
here--to help synchronize ongoing efforts across the federal government 
and leverage new public and private sector investments. We think this 
office should be guided by an advisory board reflective of affected 
stakeholder groups and communities, including labor and local leaders.
    The platform puts forward seven pillars that are critical to this 
effort:
      1.  Investing in local leaders and long-term economic development 
planning.
      2.  Expand investments in entrepreneurship and small-businesses 
in new sectors to help communities diversify and strengthen their 
economies.
      3.  Providing a bridge of support and pathways to quality in-
demand, family-sustaining jobs for workers, including paid training, 
guaranteed pensions, relocation assistance, healthcare support, a 
bridge of wage differential and replacement, and ensuring miners 
suffering from black lung disease receive the benefits to which they 
are entitled.
      4.  Reclaiming and remediating coal sites to create jobs while 
cleaning up the environment.
      5.  Improving inadequate physical and social infrastructure.
      6.  Addressing the impact of coal company bankruptcies on 
workers, communities, and the environment. And
      7.  Coordinating across programs to ensure communities have 
access to the resources they need. Launching an interagency grants 
program helps ensure affected stakeholders have a voice and empowers 
local communities with federal resources.
    More detailed information about how to ensure a just transition for 
communities can be found in the National Economic Transition Platform.

    2. The Select Committee Democrats' majority report calls for 
developing a national strategy for securing critical minerals in the 
clean energy and electric vehicle supply chain in an environmentally 
and socially responsible way. Your coalition of environmental and labor 
groups has been grappling with this question. What does the BlueGreen 
Alliance propose to secure the critical materials necessary for a clean 
economy?

    Numerous metals and minerals are essential components in the 
transition to a low-carbon and clean energy future. A May 2020 World 
Bank report found that production of minerals such as lithium and 
cobalt may need to increase by nearly 500% by 2050 to meet the growing 
demand for clean energy technologies. The same report estimates that 
over 3 billion tons of minerals and metals will be needed for energy 
storage and solar/wind power generation.\1\ The U.S. currently lacks a 
secure domestic supply of many of these critical materials, as well as 
a strategy to responsibly mine these materials domestically. To secure 
critical materials necessary for a clean economy, and to do so in a way 
that is environmentally, economically, and socially responsible, the 
BlueGreen Alliance has proposed the following necessary steps:
---------------------------------------------------------------------------
    \1\ http://pubdocs.worldbank.org/en/961711588875536384/Minerals-
for-Climate-Action-The- Mineral-Intensity-of-the-Clean-Energy-
Transition.pdf
---------------------------------------------------------------------------
        <bullet>  Develop a comprehensive national critical minerals 
strategy guided by a commitment to environmentally, economically, and 
socially responsible production, reclamation and recycling domestically 
and worldwide by:
          <bullet>  Identifying R&D for recycling and replacements of 
critical minerals, as well as chemistry, fundamental material science, 
and applied R&D for processing and manufacturing of critical minerals.
          <bullet>  Design this R&D strategy in coordination with 
existing efforts by the Critical Materials Institute (CMI), DOE Office 
of Science, NOAA Office of Ocean Exploration and Research, NIST, DoD, 
EPA, and National Laboratories.
          <bullet>  Develop a federal program within CMI that supports 
the private sector in demonstration, evaluation, testing, and 
certification of substitution or alternative materials.
          <bullet>  Develop a roadmap that identifies key R&D needs and 
coordinates on-going activities for source diversification, and more 
efficient use and recycling.
          <bullet>  Complete technical and economic feasibility studies 
of the production of critical minerals and related materials from 
secondary/unconventional sources.
          <bullet>  Establish new public-private partnerships and 
leverage existing partnerships to address underlying scientific and 
early-stage applied research.
          <bullet>  Ensure funding for hard rock mining reclamation.
        <bullet>  Incentivize and enhance use of responsibly produced 
critical minerals and metals by
          <bullet>  Utilizing trade, procurement and other measures to 
enhance domestic and international supply chain accountability.
          <bullet>  Set and raise minimum environmental and labor 
standards for critical minerals mining.
          <bullet>  Develop and adopt a certification process that 
address supply chain accountability and corporate, environmental and 
social responsibility.
          <bullet>  Ensure U.S. strategic energy, materials and 
technology stockpiles are domestically or responsibly sourced.
        <bullet>  Jump-start domestic projects to recycle key strategic 
materials and reduce reliance on these materials in clean technology 
production in conjunction with deployment of innovative circular 
economy processes and products.
          <bullet>  Investment to spur full-scale domestic projects to 
responsibly reuse and recycle strategic minerals and materials as one 
of several priorities for an industrial bank or revolving loan fund.
          <bullet>  Provide and enhance funding through existing loan, 
grant, tax, and other clean energy investment incentives for deployment 
of responsible recycling, and expand or create a new clean technology 
tax credit for responsible critical materials recycling and 
reclamation.
          <bullet>  Create a critical materials recycling insurance or 
investment guarantee program.
    More detailed information on the BlueGreen Alliance's 
recommendations to responsibly mine, reclaim, and recycle critical 
materials can be found in our Manufacturing Agenda.

    3. The BlueGreen Alliance's Manufacturing Agenda calls for 
investing ``at scale'' in a new generation of American manufacturing. 
What are the key components of that investment?

    Worldwide, nations and regions are rushing to capture the economic 
gains from rapidly growing demand for clean technology. Even as the 
U.S. joins other nations in deploying clean technology, our ability to 
manufacture these technologies is not keeping pace, as we are dependent 
on other nations for critical subcomponents or technology. Failure to 
build the next generation of clean technology here in the U.S. 
threatens future jobs and the economy.
    We must make a significant national investment now to jumpstart 
domestic clean technology manufacturing, secure critical supply chains 
in the U.S., transform energy--intensive manufacturing in line with 
achieving net-zero emissions economy-wide by mid-century, and ensure a 
new generation of clean and safe industrial development in America. We 
propose the following steps necessary to invest at scale in American 
manufacturing:
        <bullet>  Establish and capitalize a major new industrial 
transformation bank and/or revolving loan fund to support key domestic 
clean technology manufacturing priorities and large-scale industrial 
transformation and emissions reduction.
        <bullet>  Make an increased, sustained, and coordinated 
investment in three critical areas:
          <bullet>  Domestic clean technology supply chains. Convert, 
retool, or establish clean technology manufacturing facilities in the 
United States, sufficient to recapture leadership in critical clean 
energy, transportation, infrastructure, efficiency, and climate 
resilience technology and advanced materials production.
          <bullet>  Industrial transformation. Modernize and cut 
emissions from domestic energy-intensive manufacturing, including 
implementing innovative and efficient processes across heavy industry 
and materials production.
          <bullet>  Responsible mining. Establish environmentally, 
economically and socially responsible production, recycling, and 
reclamation of minerals and materials critical to the clean economy.
        <bullet>  Invest in, expand, and refocus existing DOE energy 
and manufacturing loan programs to establish and strengthen domestic 
clean technology manufacturing and supply chains, and to deploy first-
in-class, innovative, and large-scale industrial efficiency and 
emissions reduction projects.
          <bullet>  Fund and prioritize manufacturing conversion grants 
to secure and transition existing facilities to manufacture emerging 
clean technology, and to establish and grow domestic clean technology 
supply chains.
          <bullet>  Enhance tax credits/grants in lieu of credits 
available to promote domestic clean technology manufacturing and supply 
chains.
          <bullet>  Enhance tax credits available to spur industrial 
emissions reductions.
          <bullet>  Spur far broader adoption of established efficiency 
technologies, CHP and WHP systems through tax incentives and grants in 
conjunction with enhanced technical and deployment assistance.
    In addition, we need to:
        <bullet>  Greatly increase U.S. funding for research, 
development, and demonstration (RD&D)--as well as for deployment, as 
discussed in Pillar 1--to levels commensurate with competitor nations 
and to meet ambitious clean technology leadership and industrial 
transformation objectives.
        <bullet>  Establish a new DOE Office of Industrial 
Transformation charged with leading and coordinating DOE's efforts on 
industrial innovation and competitiveness consistent with the goal of 
achieving net-zero greenhouse gas emissions economy-wide by 2050.
        <bullet>  Execute a robust industrial transformation program, 
including technology development, demonstration, and deployment.
        <bullet>  Coordinate, fund, and execute a program to develop 
robust and comprehensive supply chains for critical clean technologies 
in the United States within ten years.
        <bullet>  Establish a permanent jobs, labor, and energy 
workforce program modeled on the Energy Jobs Strategy Council in the 
office of the Secretary of Energy, working in collaboration with DOL 
and DOT, and with the Office of Economic Impact, Diversity, and 
Employment, that specifically targets the labor and workforce needs in 
a transition to a clean energy, technology, and net-zero GHG economy.
        <bullet>  Enhance public benefit from publicly funded research 
and innovation, and
        <bullet>  Ensure domestic clean economy manufacturing 
objectives are elevated as a primary focus of a proposed National 
Institute of Manufacturing. In the event that all U.S. efforts related 
to manufacturing across government agencies are coordinated through a 
new National Institute of Manufacturing, a primary objective of the 
Institute should be positioning U.S. manufacturing and workers to lead 
in the global transition to a clean and net-zero carbon economy.
    More detailed information on the BlueGreen Alliance's 
recommendations to invest at scale to transform American manufacturing 
can be found in our Manufacturing Agenda.

    4. How can Congress ensure that taxpayer-funded R&D leads to a more 
robust manufacturing sector and clean energy supply chain in the United 
States?

    In the global race to lead in the next generation of clean 
technology, the U.S. is under-investing in innovation--from basic 
research through translation of innovation into domestic production of 
innovative technology. We know that investing in R&D works--U.S. 
government investments in innovation have launched technological 
transformations that led the world and underpinned prosperity and 
growth.
    In order to ensure that taxpayer-funded R&D leads to a more robust 
manufacturing sector and clean energy supply chain, the BlueGreen 
Alliance recommends:
        <bullet>  Funding and focusing R&D to ensure U.S. innovation is 
translated into domestic manufacturing and supply chains; Enhance 
demonstration and technical assistance; sustain successful clean energy 
and technology programs--from basic research, to commercialization 
partnerships, to manufacturing and deployment support--and put an 
enhanced focus on emerging low-and zero-carbon technologies and 
processes, and on labor and community-friendly innovation
        <bullet>  Enhance demonstration and technical assistance.
        <bullet>  Sustain successful clean energy and technology 
programs, from basic research, to commercialization partnerships, to 
manufacturing and deployment support, and
        <bullet>  Putting an enhanced focus on emerging low-and zero-
carbon technologies and processes, and on labor and community-friendly 
innovation.
    In addition, innovating to transform U.S. industry should include:
        <bullet>  Establishing a new Office of Industrial 
Transformation at DOE to lead and coordinate DOE's efforts on 
industrial innovation and competitiveness consistent with the goal of 
achieving net-zero ghg emissions economy-wide by 2050.
        <bullet>  Executing a robust industrial transformation program, 
including technology development, demonstration, and deployment in 
fuel, feedstock and infrastructure innovation, and circular economy 
processes and materials redesign.
        <bullet>  Coordinating, funding, and executing a program to 
develop robust and comprehensive supply chains for critical clean 
technologies in the U.S. within 10 years.
        <bullet>  Establishing a permanent jobs, labor, and energy 
workforce program modeled on the Energy Jobs Strategy Council in office 
of the Secretary of Energy to target the labor and workforce needs in a 
transition to a clean energy economy.
        <bullet>  Enhancing public benefit from publicly funded 
research and innovation, and
        <bullet>  Ensuring domestic clean economy manufacturing 
objectives are elevated as a primary focus of a proposed National 
Institute of Manufacturing.
    We must also ensure that R&D investments are translated into good, 
family-sustaining manufacturing jobs. We can do this by updating and 
enhancing long-standing Buy America/nand other procurement standards--
and ensuring labor and domestic content standards apply to all major 
public investments in clean technology deployment. These provisions can 
play a critical role not only in strengthening domestic manufacturing 
and jobs in emerging technology, but in building public support and 
momentum for the clean economy.
    More detailed information on the BlueGreen Alliance's 
recommendations to ensure R&D is translated into a more robust American 
manufacturing sector and clean energy supply chain can be found in our 
Manufacturing Agenda.

    5. How can the federal government use procurement to support a 
strong, clean, fair manufacturing economy across the United States?

    Public procurement can play a crucial role in creating demand and a 
robust market for clean and advanced technology in America, in spurring 
domestic manufacturing of that technology, and in setting a high 
standard for the jobs and community benefits our public investments 
support. They also play an important role in spurring near-term demand 
for clean technologies and low-carbon products, and sustaining 
strategic investments in U.S. manufacturing even when economic times 
are tough or in the face of other market uncertainty. In order to use 
procurement to support a clean, fair, and strong manufacturing economy 
in the U.S., we need to:
        <bullet>  Utilize direct federal--and state and municipal--
procurement to spur demand for clean, fair, safe, and domestically 
manufactured clean technology, including for example, boosting 
government purchases of clean vehicle fleets and net zero building 
technology, innovative community resilience and disaster response 
technology, and innovative domestic energy and grid technology 
adoption--all in conjunction with domestic content requirements.
        <bullet>  Review U.S. strategic energy, materials, and 
technology stockpiles and, if necessary, reform them to ensure they 
support the need for rapid clean energy technology deployment and 
domestic manufacturing development, and industrial emissions reduction.
        <bullet>  Improve and extend Buy America/n and ensure its 
effective application to manufactured goods, clean technologies, and 
materials.
        <bullet>  Utilize soundly crafted Buy Clean procurement 
policies to incentivize and reward clean, low carbon production of 
energy intensive materials.
        <bullet>  Utilize ``Fair and Responsible'' procurement 
approaches to enhance labor standards, workers' rights, career 
pathways, equity, and community benefits--and ensure their 
applicability to manufacturing and manufacturing supply chain.
        <bullet>  Ensure all major public spending on clean technology 
deployment--such as tax incentives, loans, grants, and bonds--also 
support high labor standards and domestic manufacturing throughout the 
supply chain.
        <bullet>  Develop and enact the globally leading energy, 
emissions, and pollution standards necessary to drive demand for clean 
technology production in the United States. Strong domestic energy and 
emissions standards and a proactive manufacturing agenda go hand in 
hand to support and sustain manufacturing and manufacturing jobs in the 
United States.
    Updating and enhancing long-standing Buy America/n and other 
procurement standards--and ensuring labor and domestic content 
standards apply to all major public investments in clean technology 
deployment--can play a critical role not only in strengthening domestic 
manufacturing and jobs in emerging technology, but in building public 
support and momentum for the clean economy.
    In addition, we recommend instituting Buy Clean procurement 
standards to ensure that federal spending is directed towards the 
cleanest, lowest-carbon products. Buy Clean standards promote spending 
taxpayer dollars on infrastructure supplies and materials that are 
manufactured in a cleaner, more efficient, and climate friendly 
manner--rewarding companies that are doing things the right way and 
putting a break on leakage and offshoring of emissions and jobs across 
the supply chain.
    More detailed information on the BlueGreen Alliance's 
recommendations to utilize procurement to spur demand and support a 
strong, clean, and fair manufacturing economy can be found in our 
Manufacturing Agenda.
                               references
    BlueGreen Alliance. Manufacturing Agenda: A National Blueprint for 
Clean Technology Manufacturing and Leadership and Industrial 
Transformation. June 2020. Available at: http://
www.bluegreenalliance.org/wp-content/uploads/2020/06/
2020&lowbar;BGA&lowbar;Manufacturing&lowbar;Agenda-vFINAL.pdf
    Just Transition Fund. National Economic Transition Platform. 2020. 
Available at: https://nationaleconomictransition.org/

                        Questions for the Record

                       Mr. Michael Shellenberger

                         Founder and President

                         Environmental Progress

                      the honorable garret graves
    1. At the hearing, you were accused of ``making stuff up'' and not 
having expertise on climate and energy policy. Unfortunately, you were 
not given the opportunity to respond to those attacks. For the record, 
would you like to respond to those accusations and to any others that 
were lodged against you during the hearing?

    Shortly after giving expert testimony to the committee, I had the 
startling experience of being attacked by Representatives Sean Casten 
of Illinois and Jared Huffman of California who used the whole of their 
allotted time to claim that I am not a real environmentalist, that I am 
not a qualified expert, and that I am motivated by money.
    Had I been given a chance to respond, I would have noted that I 
have been a climate activist for 20 years and an energy expert for 15 
years. In the early 2000s I co-created and advocated for the 
predecessor to the Green New Deal, the New Apollo Project, which 
President Barack Obama implemented as his $90 billion green stimulus.
    My new book, Apocalypse Never, has received strong praise from 
leading environmental scientists and scholars, including the father of 
modern climate science, Tom Wigley, who said, ``This may be the most 
important book on the environment ever written.'' And in early 2020, 
the United Nations Intergovernmental Panel on Climate Change invited me 
to serve as an expert reviewer.
    Finally, I would have noted, I have always been financially 
independent of industry interests and disclose my donors on my 
organization's web site.
    But I wasn't given the chance to say any of that. After Casten and 
Huffman lied about me, Rep. Garret Graves asked the committee's 
chairperson, Rep. Kathy Castor of Florida, to let me respond. She 
refused and abruptly ended the hearing.

    2. Ms. Beth Soholt, Executive Director of the Clean Grid Alliance, 
disagreed with your testimony on the competitiveness of wind and solar 
energy. Specifically, she claimed that unsubsidized wind and solar are 
the cheapest and most reliable forms of energy. Would you like to 
respond?

    Renewable energy advocates propose spending hundreds of billions of 
public and ratepayer money on renewable energy, new transmission lines, 
energy efficiency, mass transit, electric vehicles, carbon capture and 
storage, and advanced nuclear energy. They argue that these federal 
investments will result in millions of good jobs with high pay, and 
also pay for themselves through higher economic growth.\1\
    But similar programs over the last decade did not result in the 
benefits being promised. During the first decade of this century I 
advocated a suite of policies nearly identical to the ones currently 
being proposed and watched them fail to create a new manufacturing 
capacity, good jobs with high pay, or higher economic growth.
    Rather, they resulted in low-wage service sector jobs, greater 
dependence on imported Chinese technologies, and higher energy costs. 
And they resulted in higher electricity prices and the net transfer of 
wealth from lower to upper income citizens.
    A former Obama administration economist at the University of 
Chicago found last year that consumers in states with renewable energy 
mandates paid $125 billion more for electricity in the seven years 
after passage than they would have otherwise.\2\
    Renewables contributed to electricity prices rising six times more 
in California than in the rest of the US since 2011, the state's 
``take-off'' year for rapid growth in wind and solar, a price rise that 
occurred despite the state's reliance during the same years on 
persistently-low-priced natural gas.\3\
    Renewables have the same impact everywhere in the world. They have 
caused electricity prices to rise 50 percent in Germany since 2007, the 
first year it got more than 10 percent of its power from subsidized 
wind, solar, and biomass. By 2019, German household electricity prices 
were 45 percent higher than the European average.\4\
    Despite investing nearly a half-trillion dollars, Germany still 
generated just 42 percent of its electricity from non-hydro renewables 
last year, as compared to the 72 percent France generated from 
nuclear.\5\ If Germany didn't count emissions-producing and land-
intensive fuels like biomass and biofuels as renewable, which most 
environmental groups, even Greenpeace, believe it shouldn't, the share 
of its electricity from non-emitting, non-hydro renewables is just 34 
percent.\6\
    Solar and wind make electricity more expensive because they are 
unreliable, requiring 100 percent backup, and energy-dilute, requiring 
extensive land, transmission lines, and mining. Solar and wind 
developers do not pay for the costs they create but rather pass them on 
to electricity consumers and other producers.\7\
    Interest in massively subsidizing renewables comes at a time when 
industrial renewable energy projects are being blocked around the 
world, as even their boosters now admit. ``Biden plots $2tn green 
revolution but faces wind and solar backlash,'' read recent Guardian 
headline. ``New York's bold green plans hit opposition,'' reported 
Financial Times on September 1, 2020.
    Ask yourself why, if renewables are cheaper than existing grid 
electricity, do solar and wind developers require $2 trillion from 
American taxpayers in the form of subsidies?
    And why, if renewables are so cheap, do they make electricity so 
expensive?
    Clean Grid Alliance, for the record, is an industrial wind-energy 
funded organization with a direct financial interest in promoting the 
continued subsidization of wind energy.

    3. Many of the policies contained in the Biden proposal and the 
majority staff report of the committee closely mirror the approach in 
California--both in targets and in scope.

Can you tell us a little bit about your experience in California about 
the impacts of the state's climate policies on jobs, access to jobs, 
housing cost and costs--particularly on those who can least afford it--
and communities of color?

    Renewable energy advocates are basing their climate agenda on what 
California, my home state, did, but our electricity rates since 2011 
rose six times more than they did in the rest of the US, thanks mainly 
to the deployment of renewables and the infrastructure they require, 
such as transmission lines. And now, California's big bet on 
renewables, and shunning of natural gas and nuclear, is directly 
responsible for the state's electricity shortages.
    The immediate cause of California's blackouts is a mismatch between 
electricity supply and demand. Higher temperatures have led to greater 
demand for air conditioning. And California has less electricity, 
including from wind energy, available.
    The underlying reason blackouts are occurring is because California 
lacks reliable, in-state supply. And the reason for that is California 
has been closing both natural gas and nuclear power plants.
    ``People wonder how we made it through the heat wave of 2006,'' 
said California's electricity grid manager, Caliso's Steven Berberich. 
``The answer is that there was a lot more generating capacity in 2006 
than in 2020. . . . We had San Onofre [nuclear plant] of 2,200 MW, and 
a number of other plants, totalling thousands of MW not there today.'' 
\8\
    Despite these capacity shortfalls, the state is moving ahead with 
plans to remove 2,200-MW of reliable electricity from the grid. That's 
the amount of power produced by Diablo Canyon nuclear power plant, 
which will be closed in stages in 2024 and 2025.
    Renewables advocates have long pointed to batteries as the way to 
integrate unreliable renewables onto the grid. Yes, renewables are 
unreliable, they admit. But if we can store energy collected during 
periods of peak capacity, we can parcel it out during periods of peak 
demand.
    However, batteries are simply not up to the task. One of the 
largest lithium battery storage centers in the world is in Escondido, 
California. It can only store enough power to service 24,000 of 
California's 13,000,000 households.
    And it can only do so for four hours. If demand surges for the 
better part of a day, the system will fail. Indeed, for renewables to 
work, batteries would need to be able to store the power for weeks and 
perhaps even months.
    ``Batteries don't generate any power,'' said Berberich. ``And 
during extended cloud cover over solar fields, we will be in load 
shedding. We have told the Commissioners again and that solar will need 
to be overbuilt to serve load and charge batteries at same time.''
    People don't sit idly by when electrical systems fail or when 
reliability flags. Instead, businesses and individuals reach for tried 
and true methods of powering their day-to-day lives.

    4. Last month Mary Nichols, the head of the California agency 
tasked with climate policies tweeted out:

       ``I can't breathe'' speaks to police violence, but it also 
applies to the struggle for clean air. Environmental racism is just one 
form of racism. It's all toxic. Government needs to clean it up in 
words and deed. We who do climate and environmental policy can and must 
do more.''

     She quickly deleted that text, but The Two Hundred tweeted in 
response:

       ``She wants to cry out ``environmental racism'' when the Enviro 
ideas SHE pushes as President of (CARB) leave the most marginalized 
communities in California to foot the bill AND pushes low-income 
families out of their neighborhoods'' They go on to say ``that is why 
we filed a lawsuit against her racist policies.''

What do you think will be the impact of nationalizing California 
climate policies on jobs throughout the country, particularly the 
impact on low income folks and communities of color?

    Poor people and people of color are disproportionately impacted by 
climate policies that restrict energy consumption.
    In May, a California civil rights coalition filed a lawsuit against 
the state to prevent implementation of climate law aimed at reducing 
driving. The coalition calculates that the proposed law will increase 
the cost of a home by anywhere from $40,000 to $400,000.
    ``Latino, African American, and Asian American families,'' the 
coalition wrote in a letter to the governor, ``are disproportionately 
victimized by the confluence of massively destructive state, regional 
and local housing policy choices.'' \9\
    Consider what happened after California closed the San Onofre 
nuclear plant in 2013. Both carbon emissions and air pollution spiked. 
And air pollution disproportionately harms poor people. This is 
especially true in Los Angeles, where poor people of color have borne 
the brunt of increased pollution.
    From 2011 to 2018, California's industrial electricity prices rose 
32 percent, while the average price in the other 49 states fell one 
percent. The good manufacturing jobs in renewables are mostly in China, 
which makes most of the world's solar panels, including America's, 
while the US is stuck with temporary low-wage service jobs installing 
solar panels and wind turbines, and doing energy efficiency retrofits.
    Now, faced with the electricity supply crisis, Gov. Newsom has 
suspended air-pollution regulations, which may increase the use of 
diesel generators, and worsen air pollution in the inner-city.
    Advocates for renewables claim that solar and wind projects were 
somehow part of the battle for environmental justice. In reality, solar 
and wind projects are imposed on poorer communities and successfully 
resisted by wealthier ones.
    In fact, a major new report found nearly 200 cases of human rights 
violations when renewable energy projects were imposed on poor 
communities. In Hawaii and Nebraska, indigenous leaders are resisting 
wind energy projects that threaten native bird species, including the 
nene and whooping crane, whose number one cause of mortality is 
transmission lines.

    5. You're an activist for civil nuclear power--not only because of 
its air quality and greenhouse gas emissions benefits, but because of 
the national security benefits to the United States of having a robust 
fleet of reactors.

Do you believe that the nuclear-related package in the majority staff 
would help or harm the U.S. civil nuclear program? And in general, what 
would be the impact on greenhouse gas emissions?

    The Green New Deal proposed by Rep. Alexandria Ocasio-Cortez and 
others last year called for the closure of US nuclear power plants. The 
written statement distributed by the office of Rep. Ocasio-Cortez said, 
``the plan is to transition off of nuclear.''\10\
    And yet study after study finds that closing nuclear plants 
increases air pollution and harms public health.
    A 2017 study in Nature Energy found that the temporary closure of 
two nuclear plants led directly to lower birth weights, a key indicator 
of poor health outcomes later in life.\11\ The study found that 
reduction in birth weight as small as 5.4 percent can result in a lower 
intelligence quotient and lower income, as well as higher rates of 
illness, stunted growth, and neurodevelopmental problems.\12\
    In response to the Fukushima nuclear accident, the Japanese 
government shut down its nuclear plants and replaced them with fossil 
fuels. As a result, the cost of electricity went up, resulting in the 
deaths of a minimum of 1,280 people from the cold between 2011 and 
2014.\13\ In addition, scientists estimate that Japan's nuclear plant 
closures resulted in more than four thousand (avoidable) air pollution 
deaths per year.\14\
    Unreliable electricity from solar and wind energies has been unable 
to compensate for the loss of reliable, near-zero pollution nuclear 
energy. A 2016 study found that the electricity lost from the closure 
of the San Onofre nuclear plant was mostly replaced by burning natural 
gas, which increased air pollution in southern California and raised 
the costs of generating electricity from natural gas by $350 
million.\15\
    In 2005, Vermont legislators promised to reduce emissions 25 
percent below 1990 levels by 2012, but instead the state's emissions 
rose 16.3 percent, over twice as much as national emissions rose during 
the same period, in part due to the closure of the state's sole nuclear 
plant under pressure from climate activists, and in part due to the 
inability of unreliable solar and wind to replace lost nuclear energy 
electrical generation.\16\
    New York State is in the process of closing Indian Point nuclear 
power plant and replacing it with fossil fuels. Under pressure from 
elected leaders, Indian Point's operator closed one of its two reactors 
in April of this year, and intends to close the other one in April 
2021. In May, a few weeks after calling for a phase-out of nuclear 
energy, Rep. Ocasio-Cortez said she wanted to leave ``the door open on 
nuclear,'' \17\ but five months later called for closing Indian Point 
nuclear plant.\18\ Environmental and climate justice advocates are 
protesting its closure.\19\ They point to a Harvard University study, 
which found that higher air pollution results in higher coronavirus 
death rates.\20\
    The US could lose half to two-thirds of its nuclear energy over the 
next decade. By 2025, the US will close twelve reactors, which 
constitute 10.5 gigawatts of low-carbon power.\21\ This should be 
extremely troubling for anyone who cares about air pollution and 
climate change. Deep decarbonization of US energy supply will require 
receiving 100 percent of electricity from zero-emissions sources as 
well as replacing all natural gas and petroleum used in transportation, 
cooking, and heating, which constitute roughly two-thirds of total 
primary energy. The cheapest and fastest way to achieve this 
decarbonization is to add nuclear reactors at existing nuclear power 
plants. Closing those plants will foreclose that future option.
    Recently, in a major blow to the US nuclear-energy industry, China 
is reportedly helping Saudi Arabia create a facility to produce uranium 
``yellowcake'' from uranium ore. The deal is further evidence that 
America's anti-nuclear energy policies are pushing US allies into the 
arms of our illiberal and undemocratic rivals.
    Nations that partner with Russia or China to build nuclear plants 
are effectively absorbed into their sphere of influence. The line 
between soft power and hard power runs through nuclear energy. On the 
one side is cheap and clean electricity. On the other, a stepping stone 
to a weapons program.
    Some nuclear-industry officials hope that the US will, in the 
future, ``leapfrog'' over China and Russia with smaller ``modular'' 
reactor designs, micro-reactors, and radical new reactor-coolant 
combinations such as those being pursued by Bill Gates. But China and 
Russia are already far ahead on building and selling small, modular and 
radical designs, as well as the standard water-cooled ones most nations 
have chosen since the 1950s.
    The China-Saudi deal should serve as a wake-up call to Congress and 
the national-security and nonproliferation community. It's time for the 
United States to realign its policies with the NPT and take action to 
compete with the Chinese and Russians.
    Nations looking to build nuclear plants will choose partners with 
experience building them. To compete, the US must make global nuclear-
energy superiority a national security goal. This starts with either 
designating a new ``national champion'' nuclear building firm or 
creating a state-owned nuclear company capable of competing with 
Russian and Chinese firms.
    As part of this effort, Congress should make sure all of today's 
reactors, including recently shuttered ones, stay open for at least 80 
years. It should also consider amending the Atomic Energy Act to let 
the US help nations develop uranium-enrichment facilities, just as 
China and Russia do now.
    Nuclear power plants, which can operate for 80 years or longer, 
require high-wage, high-skilled, and permanent jobs for multiple 
generations, and yet Democratic policymakers are seeking to shut down 
nuclear power plants in the U.S.
    Congress and the White House must act thoughtfully and 
deliberately--but also decisively-- before it's too late.

    6. Why do you think many climate activists oppose fossil fuel 
technology innovation when it comes to solving the problem of climate 
change?

    It is sometimes claimed that environmental or climate policies are 
required for lower pollution, but recent events show that not to be the 
case. US electricity sector emissions decreased 34 percent from 2005 to 
2019, including an astonishing 10 percent in 2019, which is the largest 
year-on-year decline in history.\22\ By contrast, the Obama 
administration's proposed carbon regulation of the power sector, the 
``Clean Power Plan,'' proposed emissions reductions of 32 percent-- by 
2030.\23\ Thanks in large measure to natural gas replacing coal, the 
International Energy Agency (IEA) forecasts carbon emissions in 2040 to 
be lower than in almost all of the IPCC scenarios.\24\
    Carbon emissions are thus following the same trajectory as other 
air pollutants. As a result of cleaner-burning coal, the transition to 
natural gas, cleaner vehicles, and other technological changes, 
developed nations have seen major improvements in air quality. Between 
1980 and 2018, US carbon monoxide levels decreased by 83 percent, lead 
by 99 percent, nitrogen dioxide by 61 percent, ozone by 31 percent, and 
sulfur dioxide by 91 percent. While death rates from air pollution can 
rise with industrialization, they decline with higher incomes, better 
access to health care, and reductions in air pollution.\25\
    The dominant form of climate policy in international bodies and 
among nations around the world emerged from 1960s-era environmental 
policies aimed at constraining food and energy supplies. These policies 
are correctly referred to as Malthusian in that they stem from the 
fears, first articulated by the British economist Thomas Malthus in 
1798, that humans are at constant risk of running out of food. Real 
world experience has repeatedly disproven Malthusianism. If it hadn't, 
there wouldn't be nearly eight billion of us. Worse, Malthusian ideas 
have been used to justify unethical policies that worsen socioeconomic 
inequality by making food and energy more expensive, including closing 
down nuclear plants.\26\
    Policymakers should explicitly reject policies that significantly 
raise food and energy prices, directly or indirectly. Republicans and 
Democrats alike should affirm their commitment to human flourishing and 
prosperity, both of which depend on cheap food and energy, which depend 
on the rising productivity of inputs to agriculture and electricity 
generation, including labor, land, and capital.
    The large reductions in air pollution, including carbon emissions, 
in recent decades came overwhelmingly from making natural gas cheap, 
not from making fossil fuels more expensive. Short-term and focused 
subsidies and mandates may help accelerate technological innovation. 
But the main focus must be on making the new energy source affordable.

    7. In the past, you've talked about the success of the United 
States in reducing emissions. In absolute terms since 2005, we've 
reduced emissions more than the next twelve reducing emissions 
countries combined. You credit the vast amount of emissions reduced to 
our use of nuclear and natural gas. In fact, you've said that natural 
gas reduced emissions 11 times more than solar energy and 50 percent 
more than wind energy in the United States.

Do you think the current thinking in the Democratic party and their 
opposition to fracking make sense as an economics job and a global 
climate mitigation strategy?

    For nearly a decade, climate activists have claimed that natural 
gas is worse for the climate than coal,\27\ And yet, on virtually every 
metric, natural gas is cleaner than coal. Natural gas emits 17 to 40 
times less sulfur dioxide, a fraction of the nitrous oxide that coal 
emits, and almost no mercury.\28\ Natural gas is one-eighth as deadly 
as coal, counting both accidents and air pollution.\29\ And burning gas 
rather than coal for electricity requires 25 to 50 percent less 
water.\30\
    The technological revolution allowing for firms to extract far more 
natural gas from shale and the ocean floor is the main reason that U.S. 
carbon emissions from energy declined 13 percent between 2005 and 2018, 
and a big part of the reason why global temperatures are unlikely to 
rise more than 3 degrees centigrade above pre-industrial levels.\31\
    Anti-natural gas activists make their claims that coal is better 
than natural gas by using an inappropriately short timeframe for global 
warming of just twenty years. The United States government and most 
experts agree that the appropriate timeframe to use is one hundred 
years. Their timeframe thus exaggerates the impact of natural gas as a 
heat-trapping gas.\32\
    Despite a nearly 40 percent increase in natural gas production 
since 1990, the EPA reported a 20 percent decrease in methane emissions 
in 2013, in part because of improved gaskets, monitoring, and 
maintenance.\33\ No matter how much methane leaks, natural gas will 
still have half the impact of energy on global warming by 2100 as 
compared to if the same energy were coming from coal.\34\
    Natural gas fracking resulted in the decline 62 percent decline in 
the mountaintop mining for coal between 2008 and 2014.\35\ Where 
fracking for natural gas cracks shale below the Earth's surface, 
imposing very small impacts aboveground, coal mining devastates 
mountain ecosystems. More than 500 mountains, covering more than one 
million acres, have been destroyed in central and southern Appalachia 
by mountaintop removal.\36\
    When mining companies demolish mountains with explosives to harvest 
coal, they dump millions of tons of crushed rock into nearby valleys, 
destroying forests and headway streams. Exposed rock leeches heavy 
metals and other toxins, which hurt wildlife, insects, and humans. Dust 
that blows into the air from such operations can harm miners and people 
who live in nearby communities.\37\
    No energy transition occurs without human and environmental 
impacts. Fracking brings pipelines, rigs, and trucks, which can disrupt 
peaceful landscapes that people rightly care about. Frackers have 
created small earthquakes and improperly disposed of fracking 
wastewater. These problems are serious and should be addressed, but 
they are nowhere as bad as coal mining, which has in many ways become 
worse throughout the decades, not better, culminating in mountaintop 
removal and the destruction of river ecosystems.\38\
    What explains the lower environmental impact of natural gas 
fracking as compared to coal mining is power density. A natural gas 
field in the Netherlands is three times more power-dense than the 
world's most productive coal mines.\39\
    Today, many if not most scientists and environmentalists support 
natural gas as a substitute for coal. ``People are placing too much 
emphasis on methane,'' climate scientist Raymond Pierrehumbert told The 
Washington Post. ``People should prove that we can actually get the 
CO<INF>2</INF> emissions down first, before worrying about whether we 
are doing enough to get methane emissions down.''\40\
    Pollution regulations helped make coal plants more expensive to 
build and operate. But what mattered most was the creation of a more 
power-dense, abundant, and cheaper alternative.

    8. An article published March 19, 2019, by the Institute for En-
ergy Research (https://www.instituteforenergyresearch.org/the-grid/
wind-
generation-fails-in-midwest-due-to-weather-events-polar-vortex-and-el-
nino/) analyzed the performance of wind generation during acute weather 
events and included the following statement,

       ``During the polar vortex, wind turbines shut off when 
temperatures dipped below minus 20 degrees Fahrenheit. There has been 
little focus on developing wind turbines to operate below minus 20 
degrees Fahrenheit because at these temperatures, there is not much 
wind blowing. The economics of producing wind energy in such extreme 
conditions would not justify the additional cost, according to wind 
experts.''

How did renewables perform (what percent of capacity was dispatched) 
during the polar vortex of 2014 and the polar vortex of 2019 in the 
regions impacted by each polar vortex?

When people's health and safety depended on power during the polar 
vortex, what were the best performing sources of energy?

    The consulting firm Wood Mackenzie evaluated the polar vortex that 
occurred between January 27 to February 2, 2019 and concluded that, 
even with solar and wind scaled-up to produce the total equivalent 
quantity of electricity as the grid produces now, millions of people 
would have remained without power for several in freezing temperatures. 
``Any mix of wind and solar to serve load would require long-duration 
storage or optimization of multiple 'stages' of shorter duration,`` it 
found.\41\
    By contrast, nuclear power plants performed exceedingly well during 
the polar vortexes. Wood Mackenzie found that ``existing nuclear 
reduces the magnitude of hourly generation imbalances.'' During the 
polar vortex, nuclear plants ran with very high ``up-time,'' with just 
one re-fueling outage.
    It is notable that nuclear plants out-perform renewables in 
situations of high-heat as well. For example, Washington State's 
Columbia Generating station, a nuclear plant, is under a ``no-touch'' 
order to generate power during the West's current heat wave.\42\
                               references
    \1\ Majority Staff Report, ``Solving the Climate Crisis,'' June 
2020, https://climatecrisis. house.gov/sites/climatecrisis.house.gov /
files/Climate%20Crisis%20Action%20Plan.pdf
    \2\ Michael Greenstone and Ishan Nath, ``Do Renewable Portfolio 
Standards Deliver?'' Energy Policy Institute at the University of 
Chicago 62 (May 2019): 1-45, https://epic.uchicago.edu/wp-content/
uploads/2019/07/Do-Renewable-Portfolio-Standards-Deliver.pdf.
    \3\ ``California,'' Environmental Progress, accessed July 25, 2020, 
https://environmental progress.org /california. Calculations based on 
data from ``Electricity Data Browser: Retail Sales of Electricity 
Annual,'' United States Energy Information Administration, accessed 
January 10, 2020, https://www.eia.gov/electricity/data/browser.
    \4\ Eurostat, ``Electricity prices for household consumers--bi-
annual data (from 2007 onwards)'' December 1, 2019, accessed January 
20, 2020, https://appsso.eurostat.ec.europa.eu/nui/
show.do?dataset=nrg&lowbar;pc&lowbar;204&lang=en.
    \5\ Germany spent 32 billion euros on renewables subsidy every year 
between 2014 and 2018, or about one percent of its GDP a year, which if 
adjusted for economy size would be like 
the United States spending $200 billion annually but only increasing 
its share of electricity 
from solar and wind by 11 percentage points. German spending from Frank 
Dohmen, ``German Failure on the road to a renewable future,'' Spiegel, 
May 13, 2019, https://www.spiegel.de/ international/germany/german-
failure-on-the-road-to-a-renewable-future-a-1266586.html; Conversions 
made using OECD data for Purchasing Power Parity.
    Increase in German wind and solar percentages from ``Annual 
Electricity Generation in Germany,'' Fraunhofer ISE, January 10, 2020, 
accessed January 10, 2020, https://www.energy-charts.de/energy.htm.
    \6\ ``Annual Electricity Generation in Germany,'' Fraunhofer ISE, 
January 10, 2020, accessed January 10, 2020, https://www.energy-
charts.de/energy.htm.
    \7\ Steven M. Grodsky, ``Reduced ecosystem services of desert 
plants from ground-mounted solar energy development,'' Nature, July 20, 
2020.
    \8\ Michael Shellenberger, ``Democrats Say California is a model 
for climate action but its blackouts say otherwise,'' Forbes, August 
17, 2020.
    \9\ Jim Jakobs, ``Latest State `Green' Edict Discriminates Against 
Minorities: Lawsuit,'' GV Wire, May 7, 2020.
    \10\ ``Green New Deal FAQ,'' February 7, 2020, accessed August 3, 
2020, https://apps.npr.org/documents/document.html?id=5729035-Green-
New-Deal-FAQ.
    \11\ E. Severnini, ``Impacts of nuclear plant shutdown on coal-
fired power generation and infant health in the Tennessee Valley in the 
1980s,'' Nature Energy, 2017; Michael Shellenberger, ``Nuclear Power: 
Unexpected Health Benefits,'' Nature Energy, 2017.
    \12\ S.E. Black, et al, Journal of Economic Perspectives, 122, 
2007, p. 409-439. M. Hack, Future Child, No. 5, 1995, p. 176-196.
    \13\ Matthew J. Neidell, Shinsuke Uchida, and Marcella Veronesi, 
``Be Cautious with the Precautionary Principle: Evidence from Fukushima 
Daiichi Nuclear Accident'' (Working Paper 26395, National Bureau for 
Economic Research (NBER), Cambridge, MA, October 2019), https://
doi.org/10.3386/w26395.
    \14\ David E. Weinstein and Molly K. Schnell, ``Evaluating the 
Economic Response to Japan's Earthquake'' (Working Paper 301, Center on 
Japanese Economy and Business, Columbia University, New York, May 
2012), https://gsb.columbia.edu/cjeb/research.
    \15\ Lucas Davis et al., ``Market impacts of a nuclear power plant 
closure,'' American Economic Journal, Applied Economics, 2016, p. 92-
122.
    \16\ Department of the Environment, Vermont, ``Greenhouse Gas 
Emissions Inventory Update: 1990-2015. EPA, ``Sources of Greenhouse Gas 
Emissions,'' 2020, https://dec.vermont.gov/sites/dec/files/aqc/climate-
change/documents/_Vermont_Greenhouse_Gas_Emissions_Inventory_Update 
&lowbar;1990-2015.pdf.
    \17\ Jacqueline Toth, ``Ocasio-Cortez: Green New Deal `Leaves the 
Door Open' on Nuclear,'' Morning Consult, May 6, 2019.
    \18\ ``AOC on Nuclear Power: `Indian Point Should Have Been 
Shutdown a Long Time Ago,' '' October 3, 2019, https://grabien.com/
story.php?id=254389.
    \19\ ``Governor Cuomo, a pandemic is the wrong time to shutter 
Indian Point,'' Climate Coalition, http://climatecoalition.org/dear-
governor-cuomo.
    \20\ Xiao Wu et al., ``Exposure to air Exposure to air pollution 
and COVID-19 mortality in the United States: A nationwide cross-
sectional study,'' Harvard University, April 24, 2020, https://
projects.iq.harvard.edu/covid-pm.
    \21\ U.S. Energy Information Administration, ``Despite closures, 
U.S. nuclear electricity generation in 2018 surpassed its previous 
peak,'' March 21, 2019.
    \22\ Trevor Houser and Hannah Pitt, ``Preliminary US Emissions 
Estimates for 2019,'' Rhodium Group, January 7, 2020. https://rhg.com/
research/preliminary-us-emissions-2019/
    \23\ Environmental Protection Agency (EPA), ``Fact Sheet: Overview 
of the Clean Power Plan,'' EPA, August 3, 2015. https://
archive.epa.gov/epa/cleanpowerplan/fact-sheet-overview-clean-power-
plan.html
    \24\ ``World Energy Outlook 2019'' (Paris: International Energy 
Agency, 2019), https://www.iea.org/reports/world-energy-outlook-2019.
    \25\ United States Environmental Protection Agency, ``Air Quality--
National Summary,'' 2020, https://www.epa.gov.
    \26\ Michael Shellenberger, Apocalypse Never: Why Environmental 
Alarmism Hurts Us All, HarperCollins, 2020, p. 222-249.
    \27\ Bill McKibben, ``Bad News for Obama: Fracking May Be Worse 
Than Coal,'' Mother Jones, September 8, 2014, https://
www.motherjones.com; Bill McKibben, ``The Literal Gaslighting That 
Helps America Avoid Acting on the Climate Crisis,'' New Yorker, October 
9, 2019, https://www.newyorker.com; Bill McKibben, ``The Literal 
Gaslighting That Keeps America From Acting on Climate Change,'' New 
Yorker, October 9, 2019, https://www.newyorker.com/.
    \28\ Paulina Jaramillo, ``Landfill-Gas-to-Energy Projects: Analysis 
of Net Private and Social Benefits,'' Environmental Science and 
Technology 39, no. 19 (2005): 7365-7373, https://doi.org/10.1021/
es050633j.
    \29\ Anil Markandya and Paul Wilkinson, ``Electricity Generation 
and Health,'' The Lancet 370 (2007), 979-990, https://doi.org/10.1016/
S0140-6736(07)61253-7.
    \30\ Bridget R. Scanlon, Robert C. Reedy, Ian Duncan, William F. 
Mullican, and Michael Young, ``Controls on water use for thermoelectric 
generation: Case study Texas, US,'' Environmental Science & Technology 
47 (2013): 11326-11334, https://doi.org/10.1021/es4029183.
    \31\ BP Energy Economics, ``BP Statistical Review of World Energy 
2019, 68th Edition,'' BP, June 2019, accessed January 16, 2020, https:/
/www.bp.com/content/dam/bp/business-sites/en/global/corporate/pdfs/
energy-economics/statistical-review/bp-stats-review-2019-full-
report.pdf; Perry Lindstrom, ``Carbon dioxide emissions from the US 
power sector have declined 28% since 2005,'' EIA, October 29, 2018, 
https://www.eia.gov/todayinenergy/detail.php?id=37392.
    \32\ Sophie Dejonckheere, Mari Aftret M&oslash;rtvedt, and Eilif 
Ursin Reed, ``Methane: A climate blind spot?,'' Center for 
International Climate Research [CICERO], March 25, 2019, accessed 
January 4, 2020, https://www.cicero.oslo.no/en/posts/klima/methane-a-
climate-blind-spot; Zeke Hausfather, ``Bounding the climate viability 
of natural gas as a bridge fuel to displace coal,'' Energy Policy 86 
(November 2015): 286-294, https://doi.org/10.1016/j.enpol.2015.07.012; 
Adam Voiland, ``Methane Matters,'' National Air and Space Association, 
https://earthobservatory. nasa.gov/features/MethaneMatter; Gunnar Mhyre 
et al., ``Anthropogenic and Natural Radiative Forcing,'' 
Intergovernmental Panel on Climate Change, http://
www.climatechange2013.org/ images/report/
WG1AR5&lowbar;Chapter08&lowbar;FINAL.pdf.
    Most of the methane molecules that leak into the atmosphere today 
won't be there in ten years. By contrast, most carbon dioxide will 
remain in the atmosphere for centuries. As a result, even if methane 
were leaking at a higher rate than the US EPA estimates, as some claim 
it is, its impact on global warming would still be relatively small 
compared to the benefits of reduced carbon emissions compared to coal.
    \33\ Kevin Begos, ``EPA methane report further divides fracking 
camps,'' Yahoo! News, April 28, 2013, https://news.yahoo.com.
    \34\ Zeke Hausfather, ``Methane matters, but doesn't eliminate 
gains from emissions reductions,'' The Breakthrough Institute, October 
14, 2019, https://thebreakthrough.org/issues/energy/howarth-natural-
gas. Using the EPA's numbers, the leaked methane lowers the amount of 
carbon emissions reduced between 2005 and 2018 from 13 percent to 12 
percent. Using larger methane leak numbers lowers the reductions from 
13 percent to 10 percent, at most.
    \35\ JenAlyse Arena, ``Coal production using mountaintop removal 
mining decreases by 62% since 2008,'' US Energy Information 
Association, July 7, 2015, https://www.eia.gov/todayin energy/
detail.php?id=21952.
    \36\ Appalachian Voices, ``Ecological Impacts of Mountaintop 
Removal,'' accessed January 16, 2020, http://appvoices.org/end-
mountaintop-removal/ecology.
    \37\ Editorial Board, ``The dirty effects of mountaintop removal 
mining,'' Washington Post, October 21, 2014, https://
www.washingtonpost.com.
    \38\ Richard Schiffman, ``A Troubling Look at the Human Toll of 
Mountaintop Removal Mining,'' Yale E360, November 21, 2017, https://
e360.yale.edu/features/a-troubling-look-at-the-human-toll-of-
mountaintop-removal-mining.
    \39\ Vaclav Smil, Power Density (Cambridge: The MIT Press, 2016), 
104, 112, 125, 126, 197. On average oil power densities are far less. 
Iraq's oil fields have a power density of only 5,000 W/m\2\. But that 
is still twice as high as Australia's coal mines. As always there is a 
large range, with some petroleum fields producing as little as 100 W/
m\2\. A typical natural gas well in Alberta, Canada has a power density 
of 2,300 W/m\2\ while the Netherlands' gas fields have a power density 
of 16,000 W/m\2\. A Liquified Natural Gas (LNG) terminal has a power 
density of 4,600 W/m\2\ while a regasification terminal has a power 
density of an astonishing 60,000 W/m\2\.
    \40\ Chris Mooney, ``Why we're still so incredibly confused about 
methane's role in global warming,'' Washington Post, May 2, 2016, 
https://www.washingtonpost.com.
    \41\ Wood Mackenzie, ``Performance Review: Nuclear, fossil fuels, 
and renewables during the 2019 polar vortex,'' February 7, 2019.
    \42\ Annette Cary, ``Northwest heat wave puts nuclear power plant 
near Tri-Cities under `no touch' order,'' Tri-City Herald, September 4, 
2020.

                        Questions for the Record

                            Ms. Beth Soholt

                           Executive Director

                          Clean Grid Alliance

                       the honorable kathy castor
    1. As the United States moves toward a national, interconnected 
grid, what can the federal government and industry do to ensure that 
new transmission lines do not cause unintended environmental harm?

    A more nationally interconnected Macro Grid has multiple 
environmental benefits, starting with the connection of abundant, zero-
emissions wind and solar resources in remote rural areas to population 
centers with high electricity demand. A nationwide, high-voltage direct 
current (HVDC) network, optimized for the nation's best wind and solar 
resources, could deliver 80% carbon emission reductions from the grid 
by 2030.\1\ Furthermore, the decarbonization of our power sector 
enabled by expanded and enhanced transmission would greatly reduce co-
pollutants like small particulate matter that lead to an estimated 
21,000 deaths per year.\2\
---------------------------------------------------------------------------
    \1\ MacDonald, Clack Et Al., ``Future Cost-Competitive Electricity 
Systems and Their Impact on U.S. CO<INF>2</INF> Emissions,'' January 
25, 2016, https://www.vibrantcleanenergy.com/wp-content/uploads/2016/
09/Future&lowbar;cost-competitive&lowbar;electricity&lowbar;syst.pdf.
    \2\ Penn, Arunachalam Et Al., ``Estimating State-Specific 
Contributions to PM2.5- and O3-Related Health Burden from Residential 
Combustion and Electricity Generating Unit Emissions in the United 
States'', March 2017, https://ehp.niehs.nih.gov/doi/pdf/10.1289/EHP550.
---------------------------------------------------------------------------
    We expect a very high percentage of future transmission expansion 
to utilize existing rights-of-way of various types. There are utility 
rights-of-way all over the country, which in many cases have old lines 
that are ready to be replaced. With new technology, including HVDC 
lines, far more power can be delivered over rights-of-way than in the 
past.
    A critical point about transmission is that, at larger scales, less 
right-of-way is needed for a given amount of energy delivery. 
Therefore, it is important to plan ahead of time to build at the size 
that will be needed over the long term in order to reduce the amount of 
right-of-way needed.
    Occasionally, new rights-of-way are needed. When new rights-of-way 
are required, local, state, and sometimes federal permitting processes 
require environmental review prior to being granted permits. The 
reviews are often very thorough. For example, in New York, Title 16, 
Part 86 of the New York Compilation of Codes, Rules, and Regulations 
outlines the several requirements for an interstate transmission line. 
An application is required to ``submit detailed maps...[that] shall 
include'' the location of a right-of-way and possible damage to the 
environment as well as historical areas.\3\ Further, the applicant must 
``submit a statement explaining what consideration, if any, was given 
to: (1) any alternative route; (2) the expansion of any existing right-
of-way...[and] (3) any alternate method which would fulfill the energy 
requirements with comparable costs'' where the applicant may compare 
the benefits and drawbacks of the alternative.\4\ When lines cross 
federal lands, Environmental Impact Statements are required prior to 
federal agency permitting. Of course, it is also the case that multiple 
agency processes without clear accountability can lead to delays, so 
efforts such as the FAST Act approach to rationalize the process can 
speed lengthy approval requirements while protecting the environment.
---------------------------------------------------------------------------
    \3\ N.Y. Comp. Codes R. & Regs. tit. 16, Sec. 86.3 (1970).
    \4\ N.Y. Comp. Codes. R. & Regs. tit. 16, Sec. 86.4 (1970).
---------------------------------------------------------------------------
    It is beneficial to proactively plan transmission to take renewable 
resource and sensitive habitat into account. For example, ``Smart from 
the Start'' transmission planning efforts in the west have engaged 
wildlife and lands experts along with renewable energy and transmission 
developers to identify corridors.
    Better coordinated interregional and interstate planning can ensure 
we have the grid we need to power a clean and thriving economy, while 
minimizing cost and environmental impact. For example, as states seek 
to develop offshore wind, coordinated planning to create an offshore 
grid that collects electricity generated from multiple wind projects, 
along with a plan to upgrade onshore transmission, can lower overall 
costs for customers, and prevent major additional work on land. Fewer 
cables could also minimize impacts on traditional maritime interests, 
including shipping and fishing.\5\
---------------------------------------------------------------------------
    \5\ Maldonado, Samantha and French, Marie J., ``Offshore Grid 
Planning in the Wind,'' August 2020, https://www.politico.com/states/
new-york/newsletters/weekly-new-york-new-jersey-energy/2020/08/24/
offshore-wind-transmission-planning-338452.

    2. How can Congress support or require more efficient use of 
---------------------------------------------------------------------------
existing transmission infrastructure?

    Newly available grid-enhancing technologies such as dynamic line 
ratings, power flow control systems, storage-as-transmission, and 
topology optimization can reduce congestion and resource curtailment, 
raising the efficiency of existing transmission infrastructure. Many 
regions of the country are currently working to understand and 
incorporate the benefits of these technologies in RTO/ISO tariffs. The 
Energy Policy Act of 2005 directs FERC to incentivize the deployment 
and use of efficiency-improving transmission technologies for the 
benefit of electricity consumers. Unfortunately, FERC's recent Notice 
of Proposed Rulemaking on transmission incentive policy limits the 
ability of the aforementioned, lower-cost grid-enhancing technologies 
to actually receive these incentives. FERC's proposal is based on a 
return-on-equity approach, which awards utilities greater incentives 
for the deployment of more expensive projects, such as power lines. 
Under the proposal, for example, a 100 basis point incentive on $1 
million of equity invested yields only $50,000 in additional 
earnings.\6\ It is hard to imagine senior utility management even 
having a meeting to discuss an action that could achieve only a $50,000 
contribution to the bottom line, especially when 100 basis points on a 
$100 million transmission line with potentially similar system benefits 
would yield $5,000,000 in additional earnings. Congress should consider 
directing FERC to avoid using an incentive awards methodology that 
preferences high-cost projects, although new transmission will be 
needed in many parts of the country.
---------------------------------------------------------------------------
    \6\ Assuming 50% debt, tax of 27%, debt interest of 5%, target base 
ROE of 10%, O&M rate of 3% and discount rate of 7%.
---------------------------------------------------------------------------
    A major opportunity for efficient use of our limited rights of way 
is replacing aging assets with higher capacity lines so that we make 
maximum use of corridors. New transmission line conductor technologies 
are available that increase resilience and energy delivery capability 
over these paths.
    Additionally, expanded wholesale energy markets can help better 
utilize existing transmission infrastructure by ensuring that 
generators are dispatched over the broadest area in the least-cost 
manner. A shared sense of Congress that wholesale energy market growth 
is beneficial may help encourage utilities and states to consider 
joining these markets.
    Finally, transmission upgrades can vastly improve the efficiency of 
the entire electric system. This is because line losses increase 
significantly when power lines operate close to their maximum capacity, 
and the lines are hot. The Southwest Power Pool calculated that its 
transmission upgrades are saving consumers around $100 million from 
reduced transmission losses,\7\ while the Midwest ISO estimates line 
loss savings of $200 million to $1 billion dollars in net present value 
due to upgrades.\8\
---------------------------------------------------------------------------
    \7\ Southwest Power Pool, ``The Value of Transmission,''
---------------------------------------------------------------------------
https://www.spp.org/documents/35297/
the%20value%20of%20transmission%20report.pdf
---------------------------------------------------------------------------
    \8\ Midwest Independent System Operator, ``MISO Value 
Proposition,''
---------------------------------------------------------------------------
https://www.misoenergy.org/about/miso-strategy-and-value-proposition/
miso-value-proposition/

    3. How can increasing transmission development at the ``seams'' 
between regions save consumers money and expedite renewable energy 
deployment?

    Transmission that can stitch together the ``seams'' between regions 
could save consumers up to $47 billion annually\9\ and return more than 
$2.50 for every dollar invested.\10\
---------------------------------------------------------------------------
    \9\ MacDonald, Clack Et Al., ``Future Cost-Competitive Electricity 
Systems and Their Impact on U.S. CO<INF>2</INF> Emissions,'' January 
25, 2016,
---------------------------------------------------------------------------
https://www.vibrantcleanenergy.com/wp-content/uploads/2016/09/
Future_cost-competitive_electricity_syst.pdf.
---------------------------------------------------------------------------
    \10\ National Renewable Energy Laboratory, Interconnections Seam 
Study,
---------------------------------------------------------------------------
https://www.nrel.gov/analysis/seams.html.
    While 15 states between the Rockies and the Mississippi River 
account for 88 percent of the nation's wind technical potential and 56 
percent of solar technical potential, this region is home to only 30 
percent of expected 2050 electricity demand.\11\ Connecting centers of 
high renewable resources to high electric demand would expedite 
development of those resources and save consumers money.
---------------------------------------------------------------------------
    \11\ Wind Solar Alliance, ``Transmission Upgrades & Expansion: Keys 
to Meeting Large Customer Demand for Renewable Energy,'' January 2018, 
https://acore.org/transmission-upgrades-expansion-keys-to-meeting-
large-customer-demand-for-renewable-energy/.
---------------------------------------------------------------------------
    Access to electricity over a large region allows locations with 
rich wind and solar resources to supply cheap power to distant markets. 
The key enabling technology for delivering these multiple benefits is a 
well-planned network of high-voltage direct-current (HVDC) transmission 
lines.
    Currently, a lack of transmission is greatly constraining 
development of both wind and solar resources, as evidenced by 
interconnection queue backlogs. Access to consumers is paramount for 
zero-marginal-cost, location-constrained resources like wind and solar. 
At the end of 2017, over 188 GW of proposed solar projects and 180 GW 
of proposed wind projects were waiting in queues to connect to the grid 
after having applied for interconnection.\12\ Historically, the vast 
majority of queue projects have failed to proceed to development, in 
many cases because of the costs and delays associated with 
interconnecting to the grid.
---------------------------------------------------------------------------
    \12\ American Wind Energy Association, ``Grid Vision: The Electric 
Highway to a 21st Century Economy,'' May 2019, https://
---------------------------------------------------------------------------
www.awea.org/Awea/media/Resources/Publications%20and%20Reports/
White%20Papers/Grid-Vision-The-Electric-Highway-to-a-21st-Century-
Economy.pdf.
    Finally, expanding access across the seams will help consumers by 
making the wholesale power markets more competitive, while promoting 
renewable development through expanded market opportunities. Consumers 
will also benefit from the improved reliability and resilience that 
comes from interregional transmission.

    4. Although renewable energy costs have fallen significantly, why 
does the renewable energy sector need continued federal support as the 
country confronts the climate crisis?

    The COVID-19 pandemic has had multiple adverse impacts on the 
renewable energy sector. Supply chain disruptions, construction and 
permitting delays, and a constrained tax equity market have all hit the 
renewable industry hard. Over 14% of renewable energy workers have lost 
their jobs since March.\13\ Additionally, BloombergNEF is now 
projecting a $23 billion tax equity shortfall impacting more than 30 
gigawatts of renewable projects over the next 18 months.\14\
---------------------------------------------------------------------------
    \13\ American Council on Renewable Energy, ``Recovery Stalls as Few 
Clean Energy Employees Return to Work in July,'' August 12, 2020, 
https://acore.org/recovery-stalls-as-few-clean-energy-employees-return-
to-work-in-july/.
    \14\ Bloomberg, ``Covid Created a U.S. Clean Energy Shortfall of 
Up to $23 Billion,'' July 15, 2020, https://www.bloomberg.com/news/
articles/2020-07-15/covid-likely-created-23-billion-shortfall-for-u-s-
clean-energy/.
---------------------------------------------------------------------------
    In order to get these hard-working Americans back on the job 
building America's clean energy future, the renewable sector needs 
commonsense emergency relief in the form of 1) temporary refundability 
for renewable credits to facilitate their continued monetization in an 
increasingly constrained tax equity market, and 2) delaying the 
scheduled phasedown of the PTC and the ITC in recognition of COVID-19's 
nationwide impact on renewable development this year. Enacting these 
two commonsense emergency relief measures into law would stem ongoing 
job losses in every state and enable the renewable industry to help 
power the nation's economic recovery.
    As we look past the current downturn and towards a more sustainable 
economic recovery, there is a suite of complementary climate policies 
that Congress can consider to accelerate the deployment of emissions-
free, renewable power: 1) a federal high-penetration renewable energy 
standard (RES) or clean energy standard (CES) to provide long-term 
market certainty and catalyze renewable energy investment and 
deployment; 2) a technology-neutral tax credit for zero- or low-carbon 
electricity generation to attract capital and lower the delivered cost 
of clean energy to consumers; 3) effective carbon pricing to 
internalize the cost of carbon pollution across all sectors of the 
economy; and 4) building a 21\st\ century Macro Grid to deliver our 
nation's abundant renewable resources from where they are produced to 
where they are ultimately consumed.\15\
---------------------------------------------------------------------------
    \15\ American Council on Renewable Energy, ``Advancing America's 
Climate Leadership,'' January 9, 2020, https://acore.org/advancing-
americas-climate-leadership/.

    5. How can adding clean energy to the electric generating mix 
---------------------------------------------------------------------------
increase electric system reliability and resilience?

    A diverse mix of resources is key to electric reliability and 
resilience. Clean energy provides an abundant source of domestic power 
that can be rapidly deployed and available even during extreme weather 
conditions. With zero reliance on global fuel supply, renewable energy 
sources are not subject to the vagaries of the global marketplace or 
unexpected changes to fuel availability. Renewable energy can even 
enhance power reliability under extreme weather conditions, not 
requiring fuel supplies that may be disrupted and bouncing back quickly 
from interruptions.
    Moreover, as previously described, expanding and upgrading the 
transmission system with a 21\st\ century Macro Grid would lower 
consumer costs and help prevent outages, thereby enhancing reliability 
and resilience.
    Notably, the Department of Defense is increasingly relying on 
renewable energy and energy storage to improve its energy security, 
enhance readiness and ensure reliable and resilient power for critical 
domestic functions and forward operations. For example, the Fort Carson 
solar-plus-energy storage project supplies around-the-clock energy 
resilience to the 4th Infantry Division, the 10th Special Forces Group 
and 3,400 military family residences. By shifting energy between times 
of high and low demand, this system also saves taxpayers $500,000 per 
year on the installation's utility bill.\16\
---------------------------------------------------------------------------
    \16\ Citizens for Responsible Energy Solutions, ``Defense 
Spotlight: Fort Carson Optimizes Energy Storage,'' April 2020, https://
www.citizensfor.com/defense-spotlight-fort-carson-optimizes- energy-
storage/.

    6. During the 2014 Polar Vortex and other severe winters, how did 
the cold weather affect on-site fuel for fossil-fueled power plants 
fare? How can electric utilities and regional organizations ensure the 
---------------------------------------------------------------------------
reliability and resilience of the grid in extreme temperatures?

    According to the North American Electric Reliability Corporation 
(NERC), fossil fuel facilities relying on natural gas and coal are 
susceptible to damages due to low temperatures, such as frozen coal 
stockpiles and disrupted natural gas pipelines, and are thus the 
largest sources of cold weather-related power outages.\17\ According to 
NERC, coal and gas generators made up 81% of power outages during the 
2014 Polar Vortex.\18\ During the 2019 Polar Vortex in the Midwest, 
there was a fire in a gas plant in Michigan that forced it to shut 
down, along with gas delivery issues.
---------------------------------------------------------------------------
    \17\ Bade, Gavin, ``Polar Vortex set to test Midwest grids amid 
FERC resilience debate,'' UtilityDive, January 30, 2019, https://
www.utilitydive.com/news/polar-vortex-set-to-test-midwest-grids-amid-
ferc-resilience-debate/547231/.
    \18\ Ibid.
---------------------------------------------------------------------------
    Last month, CAISO CEO Steve Berberich attributed California's 
rolling blackouts partially to a power plant that ``tripped'' in the 
high heat,\19\ likely a natural gas plant that tripped offline during 
the heatwave,\20\ as natural gas plants often struggle in extreme 
temperatures, further illustrating the importance of a diverse, fuel-
free resource mix.
---------------------------------------------------------------------------
    \19\ Kahn, Debra and Bermel, Colby, ``California has first rolling 
blackouts in 19 years--and everyone faces blame,'' Politico, August 18, 
2020,
---------------------------------------------------------------------------
https://www.politico.com/states/california/story/2020/08/18/california-
has-first-rolling-blackouts-in-19-years-and-everyone-faces-blame-
1309757.
---------------------------------------------------------------------------
    \20\ Gilbert, Alex and Bazilian, Moran, ``California power outages 
underscore challenge of maintaining reliability during climate change, 
the energy transition,'' UtilityDive,
---------------------------------------------------------------------------
https://www.utilitydive.com/news/california-power-outages-underscore-
challenge-of-maintaining-reliability-du/583727/.
                In FERC's resilience proceeding, grid operators were 
                clear about the benefits of transmission for system 
                resilience:
    <bullet>  NYISO said ``. . . resiliency is closely linked to the 
importance of maintaining and expanding interregional interconnections, 
the building out of a robust transmission system. . . .''\21\
---------------------------------------------------------------------------
    \21\ NYISO filing in FERC Docket No. AD18-7, p. 4.
---------------------------------------------------------------------------
    <bullet>  PJM said ``Robust long-term planning, including 
developing and incorporating resilience criteria into the RTEP, can 
also help to protect the transmission system from threats to 
resilience.'' \22\
---------------------------------------------------------------------------
    \22\ PJM filing in FERC Docket No. AD18-7, p. 49-50.
---------------------------------------------------------------------------
    <bullet>  SPP said ``The transmission infrastructure requirements 
that are identified through the ITP process are intended to ensure that 
low cost generation is available to load, but the requirements also 
support resilience in that needs are identified beyond shorter term 
reliability needs. For example, the ITP identified the need for a 
number of 345 kV transmission lines connecting the panhandle of Texas 
to Oklahoma. These lines were identified as being economically 
beneficial for bringing low-cost, renewable energy to market, but their 
construction has also supported resilience by creating and 
strengthening alternate paths within SPP.'' \23\
---------------------------------------------------------------------------
    \23\ SPP filing in FERC Docket No. AD18-7, p. 8.
---------------------------------------------------------------------------
    As previously discussed, expanding transmission would increase 
reliability by enabling access to power in unaffected regions. In 
addition, modernizing the transmission system can also play a 
significant role in ensuring grid reliability and resilience in extreme 
temperatures and weather events. A smarter grid can respond to 
disruption by re-routing power or re-shaping load using demand 
response. These improvements include integrating storage and 
distributed energy technologies in wholesale power markets, using smart 
meters to detect grid outages, and expanding the nation's high-voltage 
transmission network to connect centers of supply with areas of demand.
                      the honorable garret graves
    1. You stated that unsubsidized wind and solar (no ITC/PTC) are the 
cheapest forms of new energy. That is good news for the environment and 
for the taxpayers who have been subsidizing wind and solar either 
through tax credits, mandates or other market preferences. If, in fact, 
wind and solar are the cheapest forms of new energy, then the subsidies 
and mandates that have supported wind and solar are no longer necessary 
as market distortions (e.g.,, subsidies/mandates) are only necessary in 
those cases when the source is unable to compete without them.

        a.  As a member of the MISO Advisory Committee can you identify 
any federal and/or state subsidies (tax credits/incentives, mandates or 
other preferences) for wind and solar in the MISO market that are no 
longer necessary in order for new wind and solar to successfully 
compete in the market?

    Policies in support of clean, low-cost, and reliable wind and solar 
deployment create numerous environmental, consumer and economic 
benefits, including over 350,000 jobs around the country.\24\ For 
example, renewable energy standards help drive deployment of pollution-
free renewable power by providing the long-term market certainty needed 
to catalyze investment in our communities. Policymakers have different 
preferences about how fast they would like to reduce emissions. 
Incentives can speed up deployment of clean energy beyond what the 
market would do on its own, and counteract the incentives that still 
exist for conventional, polluting resources.
---------------------------------------------------------------------------
    \24\ NASEO and EFI, ``2020 U.S. Energy and Employment Report,''
---------------------------------------------------------------------------
https://static1.squarespace.com/static/5a98cf80ec4eb7c5cd928c61/t/
5ee78423c6fcc20e01b83896/1592230956175/USEER+2020+0615.pdf, p. 40.

        b.  When you made the statement that renewables are the 
cheapest form of energy, did your analysis include the cost of new 
transmission to move wind/solar generated power from the source to the 
consumer?

    When building new generation facilities, developers are responsible 
for connecting their plants to the nearest utility grid. 
Interconnection often requires construction of radial lines or other 
equipment such as substations. FERC Order 2003 stipulates that a 
generator seeking interconnection is responsible for the cost of all 
facilities, equipment, and all other transmission improvements between 
the point of interconnection and a public utility's system.\25\
---------------------------------------------------------------------------
    \25\ Norton Rose Fulbright, ``Network Upgrades Controversy,'' 
October 2003,
---------------------------------------------------------------------------
https://www.projectfinance.law/publications/network-upgrades-
controversy.
    Despite additional expenses associated with transmission upgrades 
needed to access remote resources, renewables still remain cost-
competitive. A February 2020 report on the estimated levelized cost of 
electricity (LCOE) for new generation resources entering service in 
2022 found that new wind and solar facilities would be substantially 
cheaper than fossil fuel units. When accounting for the levelized cost 
of new transmission, the LCOE of wind and solar were $27.71 and $28.88 
per MWh, respectively, compared to $33.53 and $64.19 per MWh for 
combined cycle and combustion plants.\26\
---------------------------------------------------------------------------
    \26\ Energy Information Administration, ``Levelized Cost and 
Levelized Avoided Cost of New Generation Resources in the Annual Energy 
Outlook 2020,''
---------------------------------------------------------------------------
https://www.eia.gov/outlooks/aeo/pdf/electricity_generation.pdf.
    Additionally, investment in large interregional transmission 
buildout to optimize the grid as a whole has broad economic benefits. 
In fact, efficiencies and access to cheap renewables facilitated by a 
nationwide power system would save U.S. consumers an estimated $47.2 
billion annually.\27\ The National Renewable Energy Laboratory also 
finds that stitching together the nation's electrical grid through a 
nationwide HDVC network would provide ratepayers $2.50 in benefits for 
each dollar invested.\28\
---------------------------------------------------------------------------
    \27\ MacDonald, Clack Et Al., ``Future Cost-Competitive Electricity 
Systems and Their Impact on U.S. CO<INF>2</INF> Emissions,'' January 
25, 2016, https://
---------------------------------------------------------------------------
www.vibrantcleanenergy.com/wp-content/uploads/2016/09/Future_cost-
competitive_electricity_syst.pdf.
---------------------------------------------------------------------------
    \28\ National Renewable Energy Laboratory, Interconnections Seam 
Study,
---------------------------------------------------------------------------
https://www.nrel.gov/analysis/seams.html.
    Finally, the package of transmission lines in the MISO Multi-Value 
Portfolio (MVP) approved by the MISO Board of Directors in 2011 provide 
reliability benefits, relieve congestion, create a well-functioning 
energy marketplace and deliver energy from renewable resources that 
benefit customers. In short, investing in transmission provides 
multiple benefits.

        c.   With regard to transmission costs associated with 
renewables that are a large distance from the consumer, what are your 
thoughts on cost allocation for those transmission projects?

    Under FERC rules and court directives, costs should be allocated to 
those who benefit. Typically, there is some form of cost-sharing across 
different entities. Cost allocation policies should recognize the full 
regional benefits of significant interregional transmission, including 
reliability, effects on delivered energy costs, and access to low-cost 
resources. Many RTOs are currently discussing additional benefit 
metrics in the transmission planning process to recognize the full 
plethora of benefits transmission provides. The requisite portion of 
those costs should be allocated to reflect regional benefits to all 
beneficiaries in the region, regardless of their utility's or 
customers' contractual status with the new project. The number of 
benefits that accrue to customers from a robust transmission grid, or 
the harm that comes from the lack of one, can simply not be overstated.

    2. In his discussion with you, Mr. Casten noted that there are very 
few jobs associated with operating a wind and solar plant and because 
of that, operating costs were low.

        a.   Do you agree with Mr. Casten that operational wind and 
solar generation provide few jobs?

    According to the 2020 U.S. Energy and Employment Report (USEER), 
solar and wind operations rank first and second, respectively, for 
employment in the U.S. electric power generation sector, each exceeding 
that of all other generator types.\29\ Solar and wind plants employ 
over 350,000 Americans across the nation.\30\
---------------------------------------------------------------------------
    \29\ NASEO and EFI, 2020 U.S. Energy and Employment Report,
---------------------------------------------------------------------------
https://static1.squarespace.com/static/5a98cf80ec4eb7c5cd928c61/t/
5ee78423c6fcc20e01b83896/1592230956175/USEER+2020+0615.pdf, p. 40.
---------------------------------------------------------------------------
    \30\ Ibid.
---------------------------------------------------------------------------
    There is no direct relationship between operating costs and total 
job growth in the solar and wind sectors. The growth of employment in 
the solar and wind sectors has been increasing even though O&M costs in 
both sectors have been decreasing. Solar and wind employment in the 
electric power generation sector increased by 2.4% and 3.2%,\31\ 
respectively, in 2019 and was expected to continue to grow by 7% and 4% 
in 2020 prior to the pandemic.\32\ According to the Bureau of Labor 
Statistics (BLS) Occupational Outlook Handbook, solar panel installers 
and wind turbine service technicians are expected to be the fastest 
growing jobs from 2018-2028.\33\
---------------------------------------------------------------------------
    \31\ Ibid.
    \32\ Ibid, pp.58-61.
    \33\ U.S. Bureau of Labor Statistics, ``Fastest Growing 
Occupations, Occupational Outlook Handbook,'' https://www.bls.gov/ooh/
fastest-growing.htm, accessed August 24, 2020.

        b.   On average, how many employees, union and otherwise, are 
required to operate a fully constructed and functioning wind or solar 
---------------------------------------------------------------------------
powered generation unit in MISO?

    Jobs in the renewable sector span across the manufacturing, 
construction, wholesale trade, professional and business services, 
utility, and other industries. The utility-scale solar sector has high 
labor productivity with decreasing transaction costs per unit of 
capacity deployed.\34\ The MISO region employs about three\35\ solar 
O&M jobs\36\ per MW\37\ of front-of-meter solar capacity. According to 
the National Renewable Energy Laboratory, a utility-scale wind farm 
requires about five to seven workers to maintain every 100 MW of a wind 
project with a lifecycle of 25 years.\38\ Lower operational costs for 
renewable facilities translate to lower costs for ratepayers, compared 
to more employment-intensive or higher-risk generation technologies, 
like nuclear power.\39\
---------------------------------------------------------------------------
    \34\ The Solar Foundation, ``Solar Jobs Census 2019,'' https://
www.solarstates.org/#states/solar-jobs/2019.
    \35\ The Solar Foundation, ``Solar Jobs Census 2019,'' https://
www.solarstates.org/#states/solar-jobs/2019, accessed August 24, 2020, 
and Clean Energy Canada, ``Clean energy opportunities are spread across 
the country,''
---------------------------------------------------------------------------
https://canwea.ca/wp-content/uploads/2019/05/Postcard_Opportunities-
spread-across-the-country_20190521.jpg, accessed August 24, 2020.
---------------------------------------------------------------------------
    \36\ Number of jobs calculated by aggregating MISO state job 
numbers using The Solar Foundation State Map and Canadian Wind Energy's 
Manitoba webpage.
    \37\ MISO, ``Planning Year 2020-2021 Wind & Solar Capacity 
Credit,'' https://
---------------------------------------------------------------------------
cdn.misoenergy.org/
2020%20Wind%20&%20Solar%20Capacity%20Credit%20Report408144.pdf, p. 3, 
accessed August 24, 2020.
---------------------------------------------------------------------------
    \38\  Keyser, David, Tegen, Suzanne, The Wind Energy Workforce in 
the United States: Training, Hiring, and Future Needs, NREL, available 
at https://www.nrel.gov/docs/fy19osti/73908.pdf, p. 5, accessed August 
24, 2020.
    \39\ Davis, Lucas, ``The High Cost of Nuclear Jobs,'' The Energy 
Institute at Haas, March 2020, https://energyathaas.wordpress.com/2020/
03/09/the-high-cost-of-nuclear-jobs/.

          i.   On average, how many employees, union and otherwise, 
---------------------------------------------------------------------------
work at a nuclear plant in MISO?

    According to the Nuclear Energy Agency, each nuclear unit employs 
400 to 700 direct workers.\40\
---------------------------------------------------------------------------
    \40\ NEA and IAEA, ``Measuring Employment Generated by the Nuclear 
Power Sector,'' https://www.oecd-nea.org/ndd/pubs/2018/7204-employment-
nps.pdf, p. 30, accessed August 24, 2020.

        c.   If wind and solar replaced all the nuclear plants in MISO, 
what would be the net impact on direct daily operating jobs at the 
---------------------------------------------------------------------------
generation unit (per your discussion with Mr. Casten)?

    As noted above, operating nuclear power plants are more labor- and 
thus more cost-intensive than renewable energy facilities. However, 
replacing nuclear power plants with wind and solar facilities would 
result in new jobs outside of power plant operation in construction, 
wholesale trade, professional and business services and other 
industries.

          i.   If wind and solar replaced all the nuclear plants in 
MISO, what would be the net impact on emissions (including required 
back up power for renewables to ensure reliability)?

    Because both renewable and nuclear energy generation yield zero 
emissions, there would be no difference in emissions. However, nuclear 
energy generation produces harmful, radioactive waste which requires 
extensive government regulation--a cost and environmental burden that 
is eliminated with the shift to renewable energy.
    Renewables do not need to be paired with non-renewable or 
``backup'' sources of energy to replace nuclear facilities and/or be 
integrated into the grid. Energy storage technology, demand response, 
large regional power markets, and a robust transmission network can 
ensure that electrons flow across the country at all hours of the day 
and night. Due to cost reductions, renewables have been steadily 
replacing other generation over the past few years\41\ with a 19% share 
of total electricity generation in 2019, which is roughly equivalent to 
today's share of nuclear generation.\42\ EIA's Annual Energy Outlook 
forecasts that solar PV will be less costly than natural gas to replace 
retiring coal and nuclear plants in the Southeast and Mid-Continent 
regions, where solar generation is growing.\43\
---------------------------------------------------------------------------
    \41\ Energy Information Administration, ``Renewable energy 
explained,''
---------------------------------------------------------------------------
https://www.eia.gov/energyexplained/renewable-sources/, accessed August 
24, 2020.
---------------------------------------------------------------------------
    \42\ Energy Information Administration, ``Annual Energy Outlook 
2020: Electricity,'' https://www.eia.gov/outlooks/aeo/pdf/
AEO2020%20Electricity.pdf, p. 2, accessed August 24, 2020.
    \43\ Ibid, p. 20.

    3. In the hearing, you stated that renewables are not only the 
---------------------------------------------------------------------------
cheapest form of energy, but also the most reliable.

          a.   Can you provide any facts or data that show wind and 
solar being more reliable than other competing forms of energy?

    Reliability is a system concept. A reliable system includes a 
diverse portfolio of resources that together meet load at all times. A 
high renewable energy portfolio can be part of a low-cost, low- carbon, 
reliable power system.
    As the share of wind and solar power in the U.S. electricity mix 
has grown over time, official metrics indicate that system reliability 
has been stable or improved. According to a 2019 report to Congress, 
wind and solar power increased from 1% of generation in 2008 to 8% in 
2018, while during the same period 9 of the 13 metrics the North 
American Electric Reliability Corporation uses to assess reliability 
were stable or improved.\44\ In fact, wind and solar have increasingly 
provided the majority of generation in different regions without 
impacting reliability. At certain points in 2019, wind sources supplied 
56% of electricity demand in ERCOT and 67.3% of demand in SPP, while 
solar supplied 59% of demand in CAISO--with bulk power system 
reliability being maintained during each of these periods.\45\
---------------------------------------------------------------------------
    \44\ Congressional Research Service, ``Maintaining Electric 
Reliability with Wind and Solar Sources: Background and Issues for 
Congress,'' June 10, 2019,
---------------------------------------------------------------------------
https://fas.org/sgp/crs/misc/R45764.pdf.
---------------------------------------------------------------------------
    \45\ Ibid.
---------------------------------------------------------------------------
    In addition to providing low-cost, pollution-free energy, 
renewables also deliver a suite of grid reliability services to help 
keep the lights on during disturbances, including ride-through 
capability, voltage and reactive power control, and flexibility, 
frequency regulation, and primary frequency response.\46\ Wind and 
solar can also improve power system resilience during extreme weather 
conditions. Wind's reliability was demonstrated during the 2014 Polar 
Vortex event, when turbines continued to turn even when freezing 
temperatures disrupted natural gas pipelines and froze coal piles, 
rendering many thermal plants inoperable. According to NERC, coal and 
gas generators made up 81% of power outages during the event.\47\ Wind 
and solar also remain resilient during heat waves, occurrences that 
will only increase in frequency due to a changing climate. As described 
above, CAISO CEO Steve Berberich attributed California's rolling 
blackouts in part to a power plant that ``tripped`` in the high 
heat,\48\ likely a natural gas plant that shut down during the 
heatwave,\49\ as natural gas plants often struggle in extreme 
temperatures.
---------------------------------------------------------------------------
    \46\ American Wind Energy Association, ``Renewables on the grid: 
Market-based solutions 
support reliability,'' https://www.aweablog.org/renewables-grid-market-
based-solutions-support- reliability/.
    \47\ Bade, Gavin, ``Polar Vortex set to test Midwest grids amid 
FERC resilience debate,'' UtilityDive, January 30, 2019, https://
www.utilitydive.com/news/polar-vortex-set-to-test-midwest-grids-amid-
ferc-resilience-debate/547231/.
    \48\ Kahn, Debra and Bermel, Colby, ``California has first rolling 
blackouts in 19 years--and everyone faces blame,'' Politico, August 18, 
2020,
---------------------------------------------------------------------------
https://www.politico.com/states/california/story/2020/08/18/california-
has-first-rolling-blackouts-in-19-years-and-everyone-faces-blame-
1309757.
---------------------------------------------------------------------------
    \49\ Gilbert, Alex and Bazilian, Moran, ``California power outages 
underscore challenge of maintaining reliability during climate change, 
the energy transition,'' UtilityDive,
---------------------------------------------------------------------------
https://www.utilitydive.com/news/california-power-outages-underscore-
challenge-of-maintaining-reliability-du/583727/.

        b.   If MISO were to build wind and solar capacity equal to 
capacity needs and resource adequacy in MISO, how much back up natural 
gas generation would need to be on-line in order to ensure around the 
clock reliability?

    If entities built wind and solar capacity equal to capacity needs 
and resource adequacy in MISO, then, by definition, no backup would be 
needed. As noted above, renewables do not necessarily need to be paired 
with non-renewable or ``backup'' sources of energy. Energy storage 
technology, demand response and a robust transmission network can 
ensure that electrons flow across the country at all hours of the day 
and night. A very low-carbon portfolio can also be achieved with 
natural gas included in the resource mix.
    4. Capacity factor is a measurement for an energy sources' 
reliability. According to the chart below (published by the Department 
of Energy based on EIA data), wind and solar are the least reliable 
forms of energy (https://www.energy.gov/ne/articles/what-generation-
capacity). Do you disagree with EIA capacity factor data?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Respectfully, capacity factor is not a measurement of an energy 
source's reliability. A capacity factor is a ratio of energy output 
relative to maximum potential output over a period of time. For 
example, a car with a top speed of 90 mph that typically cruises on the 
highway at a speed of 65 mph and only reaches 90 mph one day a month 
could be said to have a capacity factor of only 3%. This does not mean 
the car is unreliable. In fact, a typical wind turbine generates 
electricity 90% of the time.\50\
---------------------------------------------------------------------------
    \50\ American Wind Energy Association, ``Basics of Wind Energy,'' 
https://www.awea.org/wind-101/basics-of-wind-energy/.
---------------------------------------------------------------------------
    Additionally, the capacity factors listed in the chart are an 
aggregate of all wind and solar projects. As the technologies continue 
to improve, so do their capacity factors. For example, according to 
Lawrence Berkeley National Laboratory, ``the average 2019 capacity 
factor among [wind] projects built from 2014 through 2018 was 41%, 
compared to an average of 31% among projects built from 2004 to 2012 
and 25% among projects built from 1998 to 2001.''\51\
---------------------------------------------------------------------------
    \51\ Lawrence Berkley National Lab, ``Wind Technologies Market 
Report,''
---------------------------------------------------------------------------
https://emp.lbl.gov/wind-technologies-market-report/.
    Finally, most new utility-scale renewable development is not of 
single-resource projects, but rather hybrid multi-generator or 
generator-plus-energy storage projects that combine the unique benefits 
of multiple technologies to achieve reliability and economic gains 
rarely before seen in power generation.\52\ The capacity factors of 
hybrid resources are absent from the EIA data presented here, but they 
are by definition higher than any single-resource renewable generator. 
A hybrid resource that includes energy storage can shift the electrons 
generated by a variable power resource from times of surplus to times 
of need. A hybrid resource with more than one generator can ensure that 
it is always producing power from the most available, least costly fuel 
of the day, be that sunlight, wind or water.
---------------------------------------------------------------------------
    \52\ American Council on Renewable Energy, ``Multi-Resource 
`Hybrid' Power Plants are the Present and Future of Energy 
Generation,'' August 19, 2020, https://acore.org/multi-resource- 
hybrid-power-plants-are-the-present-and-future-of-energy-generation/.

    5. According to the MISO MTEP18 report (https://cdn.misoenergy.org/
---------------------------------------------------------------------------
MTEP18%20Book%202%20Resource%20Adequacy 264875.pdf)

             ``MISO's ongoing goal is to support the achievement of 
        Resource Adequacy_to ensure enough capacity is available to 
        meet the needs of all consumers in the MISO footprint during 
        all time frames and at just, reasonable rates.''

          Resource Adequacy credits in MISO are determined by Module E-
        1 tariffs in MISO. This tariff determines the ability of the 
        source to provide resource adequacy support in MISO. According 
        to the MISO report titled ``Planning Year 2020-2021 Wind and 
        Solar Capacity Credit'' published in December 2019 (https://
        cdn.misoenergy.org/2020%20
        Wind%20&%20Solar%20Capacity%20Credit%20Report408144.pdf), the 
        system wide capacity credit for wind during the planning year 
        is 16.6 percent. Can you explain how MISO calculated the 16.6 
        percent capacity credit and what it means in terms of winds 
        capability to meet MISO resource adequacy?

    This NREL fact sheet\53\ describes the terms. MISO and other 
operators use Effective Load Carrying Capability to determine capacity 
value. NERC has defined ELCC in this document.\54\
---------------------------------------------------------------------------
    \53\ https://www.nrel.gov/docs/fy13osti/57582.pdf
    \54\ https://www.nerc.com/files/ivgtf1-2.pdf

    6. According to a recent MISO report, MISO has an installed wind 
capacity of 20,452MW, yet August 5, 2020 at 2:30pm CST--wind was 
---------------------------------------------------------------------------
providing only 3,891 MWs of power to the MISO grid.

          a.   Why is over 80% of the wind capacity in MISO not 
providing power to customers?

    Very high penetrations of renewable energy are part of any low-
cost, low-carbon, reliable portfolio. Natural gas, coal, nuclear, 
renewable, and all resources have planned and forced outages, and 
exogenous factors that affect their availability. That does not mean 
that any single resource or type of resource is available at all times, 
which is why all systems utilize diverse portfolios. States and grid 
operators need to assemble portfolios that work together to meet load 
at all times.

          b.   Is that normal for the majority of wind capacity in MISO 
not to be delivering power at any single point in time in the summer?

    Very high penetrations of renewable energy are part of any low 
cost, low carbon, reliable portfolio. Natural gas, coal, nuclear, 
renewable, and all resources have planned and forced outages, and 
exogenous factors that affect their availability. That does not mean 
that any single resource or type of resource is available at all times 
which is why all systems utilize diverse portfolios. States and grid 
operators need to assemble portfolios that work together to meet load 
at all times.

    7. At 2:30pm CST on August 5, 2020, the LMP in MISO was 
approximately $25.00. If according to the conversation between you and 
Mr. Casten the marginal cost of wind was $0 and therefore wind would be 
dispatching at any price over zero, can you explain why over 80% of the 
wind in MISO is not dispatching when the market was paying $25.00?

    Because of the free market, suppliers are not required to sell at 
any given price. Marginal cost therefore refers to the cost of the 
supplier to dispatch electricity, not the price at which the supplier 
must sell electricity. When wind dispatches at prices above $0, it 
earns a profit due to its zero-marginal cost.
    Additionally, LMP refers to locational marginal price, a construct 
that exists because transmission constraints preclude the formation of 
any single market price for electricity in MISO at any given time. 
Prices vary across localized nodes, called LMPs. An expanded and 
updated transmission system would go a long way towards reducing this 
price variability and deliver the cleanest, lowest-cost power to 
consumers.

    8. An article published March 19, 2019, by the Institute for Energy 
Research (https://www.instituteforenergyresearch.org/the-grid/wind-
generation-fails-in-midwest-due-to-weather-events-polar-vortex-and-el-
nino/) analyzed the performance of wind generation during acute weather 
events and included the following statement,

       ``During the polar vortex, wind turbines shut off when 
temperatures dipped below minus 20 degrees Fahrenheit. There has been 
little focus on developing wind turbines to operate below minus 20 
degrees Fahrenheit because at these temperatures, there is not much 
wind blowing. The economics of producing wind energy in such extreme 
conditions would not justify the additional cost, according to wind 
experts.''

          a.   How did renewables perform (what percent of capacity was 
dispatched) during the polar vortex of 2014 and the polar vortex of 
2019 in the regions impacted by each polar vortex?

    In January 2014, freezing temperatures descended upon the Midwest 
and Eastern regions of the United States, setting a winter peak demand 
record in MISO, SPP, ERCOT, PJM, and NYISO, along with most of the 
utilities in the Southeast.\55\ During this event, cold temperatures 
disrupted natural gas pipelines and froze coal piles and mechanical 
components at generators, rendering many inoperable.\56\ Fortunately, 
wind energy output was well above expectations for its contribution 
during the peak demand period, helping to keep the lights on for 
millions of customers.\57\
---------------------------------------------------------------------------
    \55\ Federal Energy Regulatory Commission, ``Recent Weather Impacts 
on the Bulk Power System'', January 16, 2014.
    \56\ Bade, Gavin, ``Polar Vortex set to test Midwest grids amid 
FERC resilience debate,'' Utility Dive, January 30, 2019, https://
www.utilitydive.com/news/polar-vortex-set-to-test-midwest-grids-amid-
ferc-resilience-debate/547231/.
    \57\ Goggin, Michael, ``Renewables on the grid: Market-based 
solutions support reliability,'' July 19, 2017, https://
www.aweablog.org/renewables-grid-market-based-solutions-support-
reliability/.
---------------------------------------------------------------------------
    For example, in an assessment of operational events and market 
performance, PJM highlighted that wind generation performed well above 
its capacity for the duration of the event, and performed at nearly 70% 
of its maximum capacity on January 6th.\58\ Additionally, also on 
January 6, 2014, the Nebraska Public Power District (NPPD) met record 
winter electricity demand as wind provided about 13% of the utility's 
electricity. NPPD explained that ``Nebraskans benefit from NPPD's 
diverse portfolio of generating resources. Using a combination of fuels 
means we deliver electricity using the lowest cost resources while 
maintaining high reliability for our customers.'' During the Polar 
Vortex, the utility also noted that ``NPPD did not operate its natural 
gas generation because the fuel costs were up more than 300 percent 
over typical prices.'' \59\
---------------------------------------------------------------------------
    \58\ PJM, ``Operational Events and Market Impacts January 2014 Cold 
Weather.'' May 9, 2014,
---------------------------------------------------------------------------
https://pjm.com/-/media/library/reports-notices/weather-related/
20140509-presentation-of-january-2014-cold-weather-events.ashx?la=en.
---------------------------------------------------------------------------
    \59\ Nebraska Public Power District, ``Nebraska Customers Set 
Winter Peak,'' accessed January 2015, http://www.nppd.com/2014/
nebraska-customers-set-time-winter-peak-nppd/.
---------------------------------------------------------------------------
    During the 2019 Polar Vortex, freezing temperatures also impacted 
much of the Midwest and Eastern U.S. During the event, wind energy 
output was again consistently well above the level planned for by MISO 
and PJM during the period of highest electricity demand on January 30-
31. Wind output was even higher on the evening of January 29 when the 
Midwest experienced very high demand.\60\ This was in part driven by an 
intrusion of fast-moving, dense air which proportionally increased wind 
turbine output.
---------------------------------------------------------------------------
    \60\ Goggin, Michael, ``How transmission helped keep the lights on 
during the Polar Vortex,'' February 14, 2019, https://www.aweablog.org/
transmission-helped-keep-lights-polar-vortex/.
---------------------------------------------------------------------------
    Wind energy worked especially well during the 2019 Polar Vortex, as 
wind output in MISO and PJM consistently outperformed grid operators' 
expectations as seen through the figure below.\61\
---------------------------------------------------------------------------
    \61\ American Wind Energy Association, ``How transmission helped 
keep the lights on during the Polar Vortex,'' February 14, 2019, 
https://www.aweablog.org/transmission-helped-keep-lights-polar-vortex/. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    During the 2019 Polar Vortex, Michigan utility DTE noted that its 
277 wind turbines performed at full capacity for nearly the whole 
week.\62\
---------------------------------------------------------------------------
    \62\ DTE Energy, ``DTE's wind fleet weathers cold temperatures,'' 
February 1, 2019, https://empoweringmichigan.com/dtes-wind-fleet-
weathers-cold-temperatures/.

          b.   When people's health and safety depended on power during 
---------------------------------------------------------------------------
the polar vortex, what were the best performing sources of energy?

    Coal and natural gas constituted the greatest proportion of forced 
outages in MISO from 2014 to 2019, the period of the two most recent 
polar vortices. By comparison, while wind plants in MISO experienced 4 
GW of shutoffs, this figure pales in comparison to the nearly 14 GW of 
coal and natural gas facilities driven offline during the 2019 Polar 
Vortex.\63\
---------------------------------------------------------------------------
    \63\ MISO, ``MISO January 30-31 Maximum Generation Event 
Overview,'' February 27, 2019, available at HYPERLINK
---------------------------------------------------------------------------
https://cdn.misoenergy.org/
20190227%20RSC%20Item%2004%20Jan%2030%2031%20Max%20Gen%20Event322139.pdf
, p. 5, accessed August 24, 2020.

    9. As renewable penetration increases, should we put in place 
requirements that ensure an ``American Made'' supply chain across the 
spectrum from extraction to assembly?

    According to the Department of Energy, domestically manufactured 
content for recently installed wind projects in the U.S. was over 90% 
for nacelle assembly, between 75 and 90% for towers, and between 50% 
and 70% for blades and hubs.\64\ Additionally, 95% of the wind power 
capacity installed in the U.S. last year was built by wind turbine 
manufacturers with at least one American manufacturing facility.\65\
---------------------------------------------------------------------------
    \64\ Department of Energy, ``2018 Wind Technologies Market 
Report,'' 2018,
---------------------------------------------------------------------------
https://emp.lbl.gov/sites/default/files/
wtmr&lowbar;final&lowbar;for&lowbar;posting&lowbar;8-9-19.pdf.
---------------------------------------------------------------------------
    \65\ American Wind Energy Association, ``Wind Powers America Annual 
Report 2019,'' April 2020, https://www.awea.org/resources/publications-
and-reports/market-reports/2019-u-s-wind- industry-market-reports.
---------------------------------------------------------------------------
    Although U.S. global market share for solar technology has declined 
in recent years, domestic solar photovoltaic manufacturing has 
expanded. An August 2017 International Trade Commission report found 
that, between 2012 and 2016, production capacity of U.S. PV module 
manufacturers rose 34%, and domestic production expanded by 24%.\66\ 
Furthermore, a 2019 National Renewable Energy Laboratory report on U.S. 
infrastructure availability for PV manufacturing found that this growth 
in domestic demand could represent a significant catalyst for growth in 
upstream industries. The NREL report noted that the U.S. has 
significant steel and aluminum production capacity that could be 
utilized for manufacturing extruding racking and module frames, and 
further production capacity that could be adapted and scaled for other 
important components such as inverters, encapsulants, flat glass, and 
Tedlar.\67\
---------------------------------------------------------------------------
    \66\ Congressional Research Service, ``Domestic Solar Manufacturing 
and New U.S. Tariffs,'' February 2018, https://fas.org/sgp/crs/misc/
IF10819.pdf.
    \67\ Smith, Brittany L., and Robert Margolis, ``Expanding the 
Photovoltaic Supply Chain in the United States: Opportunities and 
Challenges,'' National Renewable Energy Laboratory, 2019, https://
www.nrel.gov/docs/fy19osti/73363.pdf.
---------------------------------------------------------------------------
    Today's renewable energy supply chain is a testament to the 
strength and diversity of American manufacturing, which plays a central 
role in the nation's renewable energy success story.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
